  FOLLOW-UP AUDIT OF THE
    DRUG ENFORCEMENT
ADMINISTRATION’S HANDLING
     OF CASH SEIZURES

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 09-37
           September 2009
      FOLLOW-UP AUDIT OF THE DRUG ENFORCEMENT
                 ADMINISTRATION’S
             HANDLING OF CASH SEIZURES

                        EXECUTIVE SUMMARY

      To ensure that criminal organizations and individuals do not benefit
from their illegal acts, federal law provides that profits from drug-related
crimes, including cash, are subject to forfeiture to the government. In
addition to the Drug Enforcement Administration (DEA), state and local law
enforcement agencies also seize cash during their drug enforcement
operations. These state and local agencies may transfer seized cash to the
DEA for processing through the Department’s Asset Forfeiture Program
(AFP).

      In January 2007, the Office of the Inspector General (OIG) completed
an audit of the DEA’s controls over cash seized directly by the DEA and cash
transferred to the DEA through the AFP. Our audit found that while the DEA
had established policies for safeguarding seized cash, it needed to
strengthen some of those controls. For example, we concluded that the DEA
needed to: (1) better define when the seizing agents or officers should
count seized cash, (2) define a timeframe for taking seized cash to a bank to
minimize the time the DEA holds seized cash, and (3) speed the transfer of
seized cash to the United States Marshals Service (USMS) by mandating the
use of wire transfers where possible.

      In November 2008, we initiated this follow-up audit of the DEA’s
handling of seized cash.

OIG Audit Approach

      The purpose of our follow-up audit was to determine what actions the
DEA took in response to our 2007 audit and whether those actions improved
the DEA’s handling of seized cash. During the period August 1, 2007,
through November 24, 2008, the DEA processed almost $522 million in
seized cash.
       At DEA headquarters we interviewed various DEA officials and
reviewed documents showing the actions the DEA took in response to our
prior audit. We also examined internal inspection reports regarding DEA
field offices’ management of the DEA’s cash-seizure program and DEA Office
of Professional Responsibility (OPR) case files related to the loss or theft of
seized cash.

      To assess whether the DEA’s actions in response to the 2007 audit
improved the DEA’s handling of seized cash, we reviewed the files of a
selected statistical sample of cash seizures processed by 29 DEA offices
associated with 7 DEA divisions to determine whether the DEA followed
established policies for seized cash. The details of our testing methodologies
are presented in our Objectives, Scope, and Methodology contained in
Appendix 1. The statistical sample design is presented in Appendix 2.

Results in Brief

       Our 2007 audit found the DEA needed both to strengthen its internal
control policies and to improve its documentation when it followed internal
control policies already in place. In response to our 2007 audit, the DEA
made various improvements, including: (1) implementing a policy that
seized cash should not be counted by the seizing agent or officer,
(2) requiring DEA offices to transport seized cash to a bank or other financial
institution within 5 working days from when the DEA acquired the cash,
(3) reminding staff they needed to follow and document that they had
followed the internal controls for safeguarding seized cash, (4) ensuring that
evidence custodians are properly trained to handle seized funds, and
(5) updating its inspection procedures to test whether agents followed
established controls for seized funds.

      In this audit, our test of 682 seizures at 29 DEA offices found that the
DEA had improved its overall performance and had increased its rate of
compliance with 8 of 10 internal controls. Specifically, we found that DEA
agents more consistently documented the presence of a witness throughout
the cash seizure and handling process, more consistently completed the
required cash-handling forms and logs, and improved its timing in
transferring custody of seized cash to the USMS.

      As explained more fully below, the DEA eliminated the control
requiring agents to count seized cash at the time of seizure and instead
implemented a policy in April 2007 that its agents must arrange to have
bank staff conduct an official count within 5 working days from when the
DEA acquired the currency. During the 2009 audit, we found that the DEA
took slightly longer to transport cash to banks for an official count because it


                                       ii
experienced problems in implementing a Department of Treasury (Treasury)
program designed to streamline cash deposits by federal agencies.

      Our 2009 audit also found the DEA did not have a policy stating how
quickly supervisors should review the cash-seizure documents after
preparation by agents. Supervisors need to do a better job of timely
reviewing the cash-seizure documents for completeness and accuracy. The
DEA did not identify and correct deficiencies in many cash-seizure
documents until we began our 2009 audit. For the 682 cash seizures we
tested, DEA staff prepared 131 amended Reports of Investigation and other
memoranda an average of more than 276 days after the date of the seizure.
DEA officials told us they prepared these documents to “better explain the
handling and processing of the seized cash.” Moreover, DEA officials told us
the information in these amended documents came from other cash-seizure
documents, agents’ memory, and discussions during group meetings about
the seizure.

The DEA’s Actions in Response to our 2007 Audit

       Our 2007 audit recommended the DEA: (1) clarify its policy on
counting seized cash and clearly define the circumstances under which
agents are and are not required to count cash at the time of seizure;
(2) research best practices associated with the timely transport of seized
cash to banks for an official count and implement those practices as widely
as possible; (3) ensure seized cash is wire-transferred to the USMS
whenever possible; (4) issue to all staff involved in cash seizure activities
periodic reminders of the internal controls to be followed and documented;
(5) monitor the cash-seizure documents to ensure they are sufficiently
detailed to show cash-handling controls are followed and the required
documents are maintained in the case files; (6) identify all evidence
custodians who have not attended the DEA’s comprehensive classroom
training on cash-handling controls and ensure these custodians receive the
appropriate training; and (7) revise DEA Office of Inspection procedures to
measure compliance with the DEA’s policy regarding counting seized cash
and transporting seized cash to a bank in a timely manner.

       Regarding our recommendation in our 2007 audit that the DEA should
clarify its policy on counting seized cash, we asked DEA officials during the
current audit about the problems associated with counting seized cash. A
senior DEA official told us that counting large volumes of seized cash
consumes agent resources and can result in miscounts due to human error
and counterfeit bills among the seized cash. Any differences between the
agents’ count and an official count by bank personnel can result in
accusations by the persons from whom the currency was seized and subject


                                      iii
the agents to a DEA OPR investigation. Differences between the agents’
count and the bank’s count can also create legal problems for the DEA in
prosecuting cases. Further, most banks have currency-counting machines,
which can quickly count large sums of cash, are sophisticated enough to
detect high-quality counterfeit currency, and have staff who are trained to
operate that equipment.

      Thus, in response to our recommendation that it clarify its policy, the
DEA implemented a policy in April 2007 that its agents should not count
seized cash at the time of seizure. The new policy reiterated that seized
cash is to be immediately sealed in evidence bags and transported by two
law enforcement officers to the bank for an official count or to the DEA office
where it is to be secured. The DEA made an exception to the policy allowing
cash to be counted at the time of seizure when another law enforcement
agency involved in the seizure requires that a count be conducted. We
agreed with the DEA’s assessment of the problems associated with counting
seized cash and closed this recommendation based on the DEA’s policy.
Later in this report we discuss the results of our testing during this follow-up
audit to determine whether agents followed the DEA’s new policy that cash
should not be counted at the time of seizure.

       The DEA also implemented five other recommendations from our
2007 audit. However, it did not completely implement our recommendation
that it wire-transfer seized cash to the USMS whenever possible. In
2006, at the request of the USMS, the DEA entered into a Treasury program
intended to simplify the process that federal agencies use for making cash
deposits. The Treasury contracted with a major U.S. bank (the Bank) to
process government cash seizures and the Bank subcontracted with an
armored car company to count DEA cash seizures and deposit the funds into
a bank account controlled by the USMS. The DEA tested the Treasury
program at its New York Division Office and then began implementing the
program at other DEA offices. However, during the “rollout,” the DEA
experienced the following problems with the armored car company, the
Bank, and the Treasury:

   •   166 of 268 DEA offices were 30 to 367 miles from the nearest armored
       car facility, 1



       1
          A DEA official believed that DEA offices should not be more than 30 miles from an
armored car facility due to time constraints and increased risk of loss or theft of seized
cash. Of 268 DEA offices, 72 are more than 100 miles from an armored car company
facility.



                                             iv
   •   DEA offices reported that the armored car company frequently made
       mistakes when the company prepared bank deposit slips,

   •   the armored car company’s money counting machines were slow and
       did not always detect counterfeit currency, and

   •   all DEA offices that used the Treasury system had difficulty making
       arrangements with the armored car company to count and deposit
       seized cash.

       A DEA official told us that because of the ongoing problems with the
Treasury program, the DEA had not made a substantial effort to expand the
program to other DEA offices. The DEA said it made several attempts to
correct problems with the Treasury program, but because the Treasury and
the Bank were not responsive to the DEA’s concerns, the DEA proposed a
direct-deposit program under Department of Justice control. To that end,
some DEA offices currently using the Treasury system of cash deposits have
identified banks they would prefer to use because they believe those banks
can better service currency deposits.

      We will continue to follow up with the DEA until it has implemented
currency deposit services, including the transferring of seized funds by wire
to the USMS whenever possible. To implement this recommendation, the
DEA can make arrangements with banks or other financial institutions that
can timely count and transfer custody of seized funds to the USMS.

Current and Prior Audit Test Results

      In this section, we discuss our current audit test results regarding the
DEA’s handling of cash seizures and how these results compare with our
2007 audit results. The DEA Agents Manual requires agents to fully
document the details of cash seizures, including the chain of custody of
seized cash in a DEA-6 Report of Investigation within 10 working days of the
DEA’s acquisition of the currency. If agents discover a mistake in a DEA-6,
the responsible agent has 5 working days to prepare an amended DEA-6.
Agents must also document in the cash-seizure files why two agents were
not involved when transporting the seized cash or why agents did not adhere
to the 5-working-day rule for transporting seized cash to a bank or other
financial institution for an official count.

      At the start of our 2009 audit, DEA officials told us they had reviewed
the investigative case files in anticipation of our audit and prepared
additional documentation to better explain the processing and handling of
the seized cash. The DEA had no policy stating how quickly supervisors


                                       v
were required to review the case file documentation for completeness and
accuracy after its preparation by agents. Because of the timing of the
changes to the cash-seizure files and because the changes were done in
anticipation of our audit, we had concerns about the reliability of the
additional documents. We reviewed the amended DEA-6s and memoranda,
which did not appear to be back-dated, to determine when and why these
documents were prepared.

      For 148 seizures we tested, the DEA prepared 118 amended DEA-6s
and 44 memoranda that added or revised information related to the seizure,
including the chain of custody of seized cash. 2 Exhibit 1 shows our analysis
of when the DEA prepared the amended DEA-6s and memoranda. 3 The
details of the amended DEA-6s and other memoranda are presented in
Appendices 14 and 15.




      2
        Some seizures we tested had more than one amended DEA-6 or memo that
changed details related to the seizure.
      3
         We could not determine whether the DEA prepared the amended DEA-6s within
5 working days from when agents discovered an error in a DEA-6 because we did not see
those dates documented in the cash-seizure files.



                                           vi
                    Exhibit 1: Analysis of Changes to the
                        Cash-Seizure Documentation

                          Number of                 Number of          Total
                         Documents                 Documents          Amended
   When Prepared
                       Prepared Before           Prepared During     DEA-6s and
                          the Audit                 the Audit        Memoranda
   0 to 30 days
                               23                      2                   25
   after seizure
   31 to 90 days
                                3                      5                   8
   after seizure
   more than 90
   days after                   5                     124                 129
   seizure
          Total                31                     131                 162
   Source: OIG analysis of DEA documents

      Exhibit 1 shows that 131 (81 percent) of the 162 changes to the cash-
seizure files were made during our audit. DEA staff prepared the additional
documentation an average of more than 276 days after the date of the
seizure based on agents’ memories and other cash-seizure documents. 4
DEA officials told us the source of the information for the amended reports
came from group discussions, other cash-seizure documents, and agents’
memory. One official told us he instructed his agents to document the chain
of custody of seized cash as best they could from memory. Because of the
length of time it took the DEA to identify and correct deficiencies in the cash-
seizure documentation and uncertainty about the source of the information
used to make those corrections, we are concerned about the reliability of the
additional documents. Nonetheless, we included the amended DEA-6s and
memoranda in our audit testing. However, we report our 2009 audit test
results with and without the amended DEA-6s and memoranda prepared
during our audit.

      During our 2007 and 2009 audits we tested 10 controls related to the
handling and processing of seized cash. Below we discuss each control and
whether the DEA improved at following, or documenting that it followed,
these controls.


      4
         The additional documents consisted of memoranda which were prepared an
average of 276.6 days after the seizure and amended DEA-6s which were prepared an
average of 293.5 days after the seizure.



                                           vii
Control 1: Presence of a Witnessing Agent or Officer when Cash was
Discovered

      The first control we tested was the presence of a witnessing agent
when cash is discovered. According to DEA policy, when cash is discovered,
a witnessing law enforcement officer should immediately be summoned to
witness the handling of the cash.

              Exhibit 2: Presence of a Witnessing Agent or Officer
                                                    5
                          when Cash was Discovered


                    2007 Audit                      69%                   12%      19%
    All
                                                                                       3%
    DEA Offices
                    2009 Audit                            93%                           4%
    Tested

                               Yes    Could Not Determine     No
Source: OIG analysis of DEA records


      Exhibit 2 shows the DEA increased its rate of compliance with this
control from 69 percent in the 2007 audit to 93 percent in the 2009 audit. 6
Overall, the DEA has shown significant improvement at following or
documenting that it followed this control.

Control 2: Counting Seized Cash

       During our 2007 audit, the DEA’s policy was that agents should count
seized cash when it was practical to do so. In April 2007, the DEA issued a
new policy which stated that agents should not count seized cash. Instead,
seized cash is to be immediately sealed in an evidence bag and transported
by two law enforcement officers to a bank or other financial institution for an
official count. If the bank is unable to immediately count the seized cash, it
should be transported to the DEA office where the currency is to be secured.

       5
          “Yes” means documentation showed that a witnessing agent or officer was
involved. “No” means documentation showed that only one agent or officer was involved.
“Could not determine” means the documentation did not provide sufficient information to
confirm whether a witnessing agent or officer was involved. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
are within plus or minus 1 percent of what they would have been if the entire population
had been tested. The percentages reported are within 95 percent of the confidence
intervals of the projected point estimates. The detailed results for each office and division
tested are presented in Appendix 4.
       6
          Based on the 2009 amended cash-seizure documents, the DEA complied with this
control in 96 percent of the seizures we tested.



                                             viii
However, seized cash must be transported to a bank or other financial
institution within 5 working days from when the DEA acquired the cash.
Exhibit 3 shows that during our 2007 audit, DEA agents counted seized cash
in 16 percent of the seizures tested.

                           Exhibit 3: Counting Seized Cash 7



                    2007 Audit        16%    15%                   69%
     All
     DEA Offices                      1%
     Tested         2009 Audit     5%                       94%


                             Yes      Could Not Determine   No
Source: OIG analysis of DEA records


      During the 2009 audit, we found that agents counted seized cash in
5 percent of the seizures we tested when the DEA’s policy was to not count
seized cash. 8

Control 3: Agents Provided a Receipt of Warrant to the Owner of the Seized
Cash

       The DEA Agents Manual also requires agents to provide a receipt or
copy of a seizure warrant when seizing cash. Exhibit 4 shows that the DEA
increased its rate of compliance with this control from 52 percent during the
2007 audit to 65 percent during the 2009 audit. 9 Overall, the DEA improved
at following or documenting that it followed this control.




       7
          For the test of whether agents counted the seized cash, “Yes” means
documentation showed that agents counted the seized cash. “No” means documentation
showed that agents did not count the seized cash. “Could not determine” means the
documentation did not provide sufficient information to confirm whether the agents counted
the seized cash. Based on our statistically valid projected point estimates, the percentages
reported in this analysis of the sampled items are within plus or minus 1 percent of what
they would have been if the entire population had been tested. The percentages reported
are within 95 percent of the confidence intervals of the projected point estimates. The
detailed results for each office and division tested are shown in Appendix 5.
       8
          Based on the 2009 amended cash-seizure documents, agents also counted seized
cash in 5 percent of the seizures we tested.
       9
          Based on the 2009 amended cash-seizure documents, agents also provided a
receipt or copy of a seizure warrant in 65 percent of the seizures we tested.



                                              ix
                 Exhibit 4: Agents Provided a Receipt or Warrant
                         to the Owner of the Seized Cash 10



                     2007 Audit               52%                         47%
      All                                                     1%
      DEA Offices
      Tested         2009 Audit                   65%                         35%


                              Yes     Could Not Determine   No
Source: OIG analysis of DEA records


Controls 4 through 6: Presence of a Witnessing Agent or Officer at Various
Stages of the Cash-Handling Process

       A witnessing agent or officer should be present when seized cash is
sealed in an evidence envelope and when the cash is transported to a bank
or other financial institution for an official count or to the local DEA office for
safekeeping. Exhibit 5 shows the DEA improved at following or documenting
that it followed these internal controls. 11




       10
           For the test of whether agents provided a receipt to the owner of the seized cash,
“Yes” means documentation showed that agents provided a receipt or warrant. “No” means
documentation showed that agents did not provide a receipt or warrant. “Could not
Determine” means the documentation did not provide sufficient information to confirm
whether the agents provided a receipt or warrant. Based on our statistically valid projected
point estimates, the percentages reported in this analysis of the sampled items are within
plus or minus 1.5 percent of what they would have been if the entire population had been
tested. The percentages reported are within 95 percent of the confidence intervals of the
projected point estimates. The detailed results for each office and division tested are shown
in Appendix 6.
       11
           Based on the 2009 amended cash-seizure documents, the DEA’s rate of
compliance with controls requiring a witnessing agent or officer be present at these phases
of the cash-seizure process ranged from 49 percent having a witness present during sealing
to 87 percent having a witness present during transport to a bank.



                                              x
              Exhibit 5: Presence of a Witnessing Agent or Officer
               at Various Stages of the Cash-Handling Process 12



                 2007 audit         21%                         75%                      4%
 Witness Present
 During Sealing 2009 audit                43%                            54%             3%

 Witness Present 2007 audit                        63%                     26%        11%
 During Transport
 to the Bank      2009 audit                             81%                     11% 8%

 Witness Present 2007 audit           30%                      49%                21%
 During Transport
 to the DEA       2009 audit                    60%                      24%       16%

                                        Yes        Could Not Determine     No

Source: OIG analysis of DEA records

Control 7: Recording Seized Cash in the HVSRM Ledger

        The DEA Agents Manual requires that all seized items valued at $1,000
or more be recorded in a High-Value Seized and Recovered Monies (HVSRM)
ledger. Exhibit 6 shows the DEA improved at following or documenting that
it followed this control. 13




       12
           “Yes” means documentation showed that a witnessing agent or officer was
involved. “No” means documentation showed that only one agent or officer was involved.
“Could not determine” means the documentation did not provide sufficient information to
confirm whether a witnessing agent or officer was involved. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
ranged from plus or minus: (1) 2.5 percentage points of what they would have been if the
entire population had been tested for the presence of a witness during the sealing of the
currency, (2) 2 percentage points of what they would have been if the entire population had
been tested for the presence of a witness present during the transport of the currency to
the bank, and (3) 1 percentage point of what they would have been if the entire population
had been tested for the presence of a witness during the transport of the currency to the
DEA. The percentages reported are within 95 percent of the confidence intervals of the
projected point estimates.
       13
          Based on the 2009 amended cash-seizure documents, the DEA’s rate of
compliance with the control requiring that seized items valued at $1,000 or more be
recorded in a HVSRM ledger was also 77 percent.



                                              xi
            Exhibit 6: Recording Seized Cash in the HVSRM Ledger 14


                    2007 Audit     19%                          81%
    All
    DEA Offices
    Tested          2009 Audit                          77%                      23%

                                          Yes      No
Source: OIG analysis of DEA records

Control 8: Average Number of Working Days from Seizure to Transport of
Cash to the Bank

       During the 2007 audit, the Agents Manual required agents to transfer
seized cash to a bank for an official count as soon as arrangements could be
made with the bank. During that audit, agents transported seized cash to
banks in an average of 3.2 working days. Beginning in May 2008, agents
were required to transport seized cash to a bank or other financial institution
within 5 working days. Exhibit 7 shows that during our 2009 audit, the
average time from seizure to transporting seized cash to the bank had risen
slightly to 3.3 working days. This increase in time required to transport
seized cash to a bank or other financial institution could be based in part on
difficulties the DEA encountered with the Treasury deposit program as
explained in more detail above.




       14
          “Yes” means documentation showed that the cash seizure tested was recorded on
the HVSRM ledger. “No” means documentation showed that the cash seizure tested was not
recorded on the HVSRM ledger. Based on our statistically valid projected point estimates,
the percentages reported in this analysis of the sampled items are within plus or minus
1 percent of what they would have been if the entire population had been tested. The
percentages reported are within 95 percent of the confidence intervals of the projected point
estimates. The detailed results for each office and division we tested are shown in
Appendix 10.



                                             xii
             Exhibit 7: Average Number of Working Days from Seizure
                  to Transport of Cash to the Bank (by division) 15

                                         2009 Audit

            San Diego Division        1.9
                                                                           Average Time
             Houston Division            2.4                               for the Division

              Atlanta Division                 3.2

     Average for 7 Divisions                   3.3                         Average Time
                                                                           for all 7
      New England Division                      3.6                        Divisions

              Chicago Division                  3.6

       Washington Division                            4.5

               Miami Division                          4.8

    Source: OIG analysis of DEA records

Control 9: Average Number of Working Days from Seizure to Transfer of
Cash to the USMS

        Seized property must be transferred to the custody of the USMS within
15 working days of seizure. During our 2007 audit the DEA transferred
seized cash to the USMS within an average of 10.6 working days. Exhibit 8
shows that during the 2009 audit the DEA transferred custody of seized cash
to the USMS in an average of 10.0 working days from when the DEA
acquired the currency. The DEA did not materially improve its timeliness
since the 2007 audit because only 13 of the 29 offices we tested during the
2009 audit were using the Treasury system of cash deposits. Those
13 offices transferred custody of seized cash to the USMS within an average
of 5.4 working days after the seizure. The 16 offices that did not use the
Treasury system took an average of 13.7 working days. We believe that had
all offices been using the Treasury system, the DEA would have made
significant improvement in the timeliness of transferring custody of seized
cash to the USMS.




       15
           In this exhibit and the exhibit that follows, we did not present our 2007 audit test
results because we did not test the same seven divisions in that audit. Detailed test results
are shown in Appendix 11 and Appendix 12.



                                               xiii
               Exhibit 8: Average Number of Working Days from
                     Seizure to Transfer of Cash to the USMS

                                           2009 Audit

       San Diego Division        2.1
           Houston Division              5.8
             Miami Division               6.2
            Atlanta Division                    8.7
   Average for 7 Divisions                        10.0
           Chicago Division                        10.6
     Washington Division                                11.9
    New England Division                                 13.0


                        Average Time for the Division    Average Time for all 7 Divisions

  Source: OIG analysis of DEA records

Control 10: Transfer of Cash to the Evidence Custodian Using the Proper
Chain of Custody Form

      According to the DEA Agents Manual, DEA employees are required to
document the transfer of any high-value item between agents and evidence
custodians using various DEA forms. Exhibit 9 shows the DEA increased its
rate of compliance with this control from 26 percent in the 2007 audit to
69 percent in the 2009 audit. 16




      16
          Based on the 2009 amended cash-seizure documents, the DEA’s rate of
compliance with the control requiring DEA employees to document the transfer of any high-
value item using the proper form was also 69 percent.



                                                xiv
             Exhibit 9: Transfer of Cash to the Evidence Custodian
                   Using the Proper Chain of Custody Form 17


                    2007 Audit        26%                          74%
     All
     DEA Offices
     Tested         2009 Audit                     69%                         31%

                                             Yes   No
Source: OIG analysis of DEA records

      Overall, the DEA has shown significant improvement at following or
documenting that it followed this control.

       We also examined whether the DEA’s training program covered the
problem areas we identified in our 2007 audit, whether agents and evidence
custodians were familiar with newly revised policies and had attended the
DEA’s mandatory training program. We found that the updated training
appeared to cover the problem areas identified during the 2007 audit and
most agents and evidence custodians were familiar with the new policies. In
this audit we found that 56 percent of the evidence custodians we
interviewed had attended the DEA’s mandatory training program. During
our 2007 audit, only 22 percent of the evidence custodians had attended the
training.

Conclusion and Recommendations

       Our 2007 audit found that the DEA needed to strengthen some
internal controls over seized cash and remind staff to follow or document
that they had followed other controls. We made seven recommendations
that, if implemented, could reduce the risk of loss or theft of seized cash.




       17
           “Yes” means documentation showed that the agents transferred the seized cash
to the evidence custodian using a DEA-12 or other appropriate form. “No” means
documentation showed that the agents transferred the seized cash to the evidence
custodian without using a DEA-12 or other appropriate form. “Could not determine” means
the documentation did not provide sufficient information to confirm whether agents
transferred the seized cash to the evidence custodian using a DEA-12 or other appropriate
form. Based on our statistically valid projected point estimates, the percentages reported in
this analysis of the sampled items are within plus or minus 1 percent of what they would
have been if the entire population had been tested. The percentages reported are within
95 percent of the confidence intervals of the projected point estimates. The detailed results
for each office and division we tested are shown in Appendix 13.



                                             xv
       Our 2009 audit found that the DEA implemented all but one of our
2007 audit recommendations. The DEA: (1) refined its policy for counting
seized cash, (2) defined a timeframe for transporting seized cash to banks,
(3) ensured that agents and evidence custodians involved in the cash
seizure and handling process were properly trained, (4) reminded agents of
the importance of having a witness present during all phases of the cash-
seizure process, (5) instructed supervisors to ensure cash seizure activities
are fully documented, and (6) updated its Office of Inspections checklist to
test compliance with controls for safeguarding seized cash. The DEA did not
completely implement our recommendation that it ensure seized cash is
wire-transferred to the USMS whenever possible. The USMS told the DEA it
had to participate in a Treasury program that used an armored car company
to transfer custody of seized funds to the USMS. However, most DEA offices
were not located near an armored car company facility and DEA offices that
used the armored car company received poor service. DEA has taken steps
to find other financial institutions that can provide better currency deposit
services.

      Our 2009 audit also found that the DEA improved at following or
documenting that it followed controls for safeguarding seized cash but
further improvements are needed. We tested 682 seizures at 7 divisions
and 29 individual DEA offices to determine the DEA’s rate of compliance with
10 key controls and found the DEA generally increased its rate of compliance
with those controls. The DEA has had mixed results with using the Treasury
system to count and deposit seized cash. Under the Treasury system, it
took the DEA 0.1 more of a working day to transport seized cash to a bank
or to an armored car company facility for an official count and only 0.6 less
of a working day to transfer custody of seized cash to the USMS than it took
during the 2007 audit. To implement our 2007 audit recommendation that
the DEA ensure seized cash is wire-transferred to the USMS whenever
possible, the DEA should identify other banks or financial institutions that
can provide better service and use those banks or financial institutions as
widely as possible.

       Although the DEA made significant improvement since our 2007 audit
in its controls for safeguarding seized cash, further improvement is needed.
Given the volume of seized cash handled by the DEA, we are concerned that
many agents still do not consistently follow or document that they followed
appropriate controls. The DEA should establish a permanent system to
monitor and achieve greater compliance with controls for protecting seized
cash from loss or theft.

      We also found that for 22 percent of seizures we tested, the DEA
reviewed the cash-seizure files during our audit and added or changed the


                                     xvi
record about the seizure, or the chain of custody of the seized cash. DEA
officials told us in advance of our review of the case files that they prepared
these additional documents, which did not appear to be back-dated, to
better explain the handling and processing of the seized cash. However, the
DEA did not identify and correct these deficiencies in the cash-seizure
documentation until an average of more than 293 days after the date of the
seizure. DEA staff responsible for supervising cash handling activities should
conduct more timely and thorough reviews of the cash-seizure documents to
ensure the documents are complete and accurate when they are first
prepared. Not conducting complete and timely reviews of the cash-seizure
files can lead to errors in the cash-seizure documentation that could
negatively affect the outcome of the DEA’s investigative cases.

      Although the DEA made significant improvements in handling seized
cash, it could make further improvements by ensuring DEA staff, including
agents, evidence custodians, and supervisors who monitor the cash-seizure
documentation, are properly trained to handle seized cash and ensure that
the cash-seizure documentation is complete. In this report, we make the
following recommendations to the DEA to further improve its handling of
seized cash:

      •   Implement a policy that defines how quickly DEA supervisors should
          review case file documentation pertaining to cash seizures after its
          preparation.

      •   Implement a plan to ensure agents receive periodic training on
          internal controls for handling seized cash and preparing cash-
          seizure documentation. The training should include instruction on
          preparing complete and accurate DEA-6 forms and Reports of
          Investigation, and maintaining copies of all required documentation
          in the case files.

      •   Ensure all evidence custodians attend DEA’s mandatory training
          program.

      •   Implement a plan to ensure all DEA staff who supervise cash
          handling activities receive periodic training on reviewing cash-
          seizure documentation, including DEA-6 forms and Reports of
          Investigation, to ensure they contain complete and accurate chain
          of custody information, including the identity of the agents or law
          enforcement officers present from the acquisition to the disposal of
          the seized cash.




                                      xvii
      •   Design and implement a permanent system to monitor and improve
          compliance with each of the controls we tested.

       We will continue to follow up on our 2007 audit recommendation that
the DEA ensure seized cash is wire-transferred to the USMS whenever
possible. To implement this recommendation, the DEA should identify banks
and other financial institutions that can timely count and transfer custody of
seized funds to the USMS by wire transfer or direct deposit and use those
institutions whenever possible.




                                     xviii
                                    TABLE OF CONTENTS

INTRODUCTION ................................................................................. 1
Background ....................................................................................... 1
Prior Audits, Inspections, and Reviews ............................................. 4
   General Accounting Office Report........................................................ 4
   Office of the Inspector General Reports ............................................... 5
   DEA’s Office of Inspections Reports .................................................... 6
   DEA’s Office of Professional Responsibility Case Reports ........................ 7

FINDINGS AND RECOMMENDATIONS................................................. 9

I. THE DEA IMPLEMENTED ALL BUT ONE OF OUR 2007 AUDIT
RECOMMENDATIONS ......................................................................... 9

    2007 Audit Results ....................................................................... 9
    The DEA’s Response to our 2007 Audit ......................................... 9
      Recommendation No. 1 – Define When to Count Seized Cash .......... 10
      Recommendation No. 2 – Timely Transfer Cash to Banks ................ 10
      Recommendation No. 3 – Wire-Transfer Cash to the USMS .............. 12
      Recommendation No. 4 – Remind Staff to Follow Controls ............... 15
      Recommendation No. 5 – Monitor Cash-Seizure Documentation ....... 16
      Recommendation No. 6 – Train Evidence Custodians ...................... 17
      Recommendation No. 7 – Revise Inspection Procedures .................. 17
    Conclusion .................................................................................. 18
    Recommendations ...................................................................... 18

II. THE DEA IMPROVED AT FOLLOWING CONTROLS FOR SEIZED
CASH BUT FURTHER IMPROVEMENTS ARE NEEDED ......................... 20

     The DEA’s Internal Controls Over Cash Seizures ........................ 20
      Controls to Safeguard Cash upon Seizure ...................................... 21
      Controls for Transferring Seized Cash to the Local DEA Office
        or to the Bank......................................................................... 22
      Controls for Transferring Seized Cash to the USMS ......................... 23
      Controls for Documenting Cash Seizure Activities ........................... 24
      Changes to the Cash-Seizure Documentation ................................. 25
      Conclusion about DEA’s Controls over Cash Seizures ...................... 29

     Implementation of Controls for Safeguarding Seized Cash ........ 30
       Initial Audit Testing (Phase I) ..................................................... 30
       Additional Audit Testing (Phase II) .............................................. 32
       Results of Audit Testing ............................................................. 34
       Conclusion............................................................................... 52
       Recommendations ................................................................... 54

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 56

ABBREVIATIONS ............................................................................. 57

APPENDIX 1:           Audit Objectives, Scope, and Methodology ............. 58

APPENDIX 2:           Statistical Sample Design ....................................... 63

APPENDIX 3:           Summary of 2009 Audit Test Results ...................... 65

APPENDIX 4:           Presence of a Witnessing Agent or Officer
                      when Cash was Discovered..................................... 66

APPENDIX 5:           Agents Counted the Seized Cash............................. 73

APPENDIX 6:           Agents Provided a Receipt or Warrant to the
                      Owner of the Seized Cash ....................................... 80

APPENDIX 7:           Presence of a Witnessing Agent of Officer at the
                      Sealing of the Currency .......................................... 87

APPENDIX 8:           Presence of a Witnessing Law Enforcement Officer
                      During Transport to the Bank or Other Financial
                      Institution .............................................................. 94

APPENDIX 9:           Presence of a Witness During Transport to
                      the DEA ................................................................ 101

APPENDIX 10: Recording Seized Cash in the HVSRM Ledger ........ 108

APPENDIX 11: Average Number of Working Days from Seizure
             to Transport to a Bank or Other Financial
             Institution ............................................................ 115

APPENDIX 12: Average Number of Working Days from Seizure
             to Transfer of the Funds to the USMS ................... 116

APPENDIX 13: Transferring Seized Cash to the Evidence
             Custodian Using the Proper Chain of Custody
             Forms ................................................................... 117
APPENDIX 14: Amended DEA-6, Reports of Investigation............ 124

APPENDIX 15: Other Memoranda Added to the Case Files ........... 139

APPENDIX 16: The Drug Enforcement Administration’s Response
             to the Draft Audit Report ...................................... 147

APPENDIX 17: Office of the Inspector General Analysis and
             Summary of Actions Necessary to Close the
             Report .................................................................. 151
                                   INTRODUCTION

Background

        The Drug Enforcement Administration (DEA) enforces the controlled
substances laws and regulations of the United States and investigates
organizations and individuals involved in the growing, manufacture, or
distribution of controlled substances. 18 To ensure that criminal organizations
and individuals do not benefit financially from their illegal acts, federal law
provides that profits from drug-related crimes, as well as property used to
facilitate certain crimes, are subject to forfeiture to the government. The
DEA seized about $420 million in cash from organizations and individuals
involved in drug-related criminal activity during the 16-month period
covered by our audit. 19

       While the DEA is the primary Department component involved in the
forfeiture of cash seized during drug enforcement investigations, state
and local law enforcement agencies also seize cash during their drug
enforcement operations and may transfer seized cash to a federal agency,
such as the DEA, for processing through the Department’s Asset Forfeiture
Program (AFP). When seizures are adopted and processed under federal
forfeiture laws, the state or local law enforcement agency receives
80 percent of the amount seized, which must be used for law enforcement
purposes. When processed under state laws, the seized funds sometimes go
to the entity’s general revenue fund and the state or local law enforcement
agency may receive little or none of the seized funds. In adopted seizures,
the state or local agency usually converts the seized cash to a cashier’s
check and transfers the cashier’s check to the DEA. The DEA adopted about
$102 million from state and local law enforcement agencies during the
16-month period covered by our audit.

      The DEA’s policy is that its staff should promptly convert seized cash
to a cashier’s check and promptly transfer the cashier’s checks, including
those adopted from state or local agencies, to the United States Marshals
Service (USMS). DEA offices that electronically transfer seized currency to
the USMS should promptly arrange to have that currency counted and
deposited directly into an account controlled by the USMS. The USMS serves
as custodian of seized and forfeited assets. 20 The USMS also provides
       18
            A controlled substance is a drug which has been declared by federal or state law
to be illegal for sale or use, but may be dispensed under a physician's prescription.
       19
            Our audit covered the period August 1, 2007, through November 24, 2008.
       20
            28 C.F.R. § 0.111(i) (1989).
information and assistance to prosecutors to make decisions about assets
targeted for forfeiture. To manage the disposal of seized cash or other
seized assets that have been converted to cash, the USMS administers the
Seized Asset Deposit Fund (SADF) and the Asset Forfeiture Fund (AFF).

      The SADF serves as a repository for seized funds until the funds are
either forfeited to the government or returned to the owner. Upon
successful completion of forfeiture actions, the USMS transfers seized funds
from the SADF to the AFF, where the funds can be used to cover
expenditures in support of the AFP. Allowable uses include: (1) asset
management expenses incurred in connection with the seizure, inventory,
appraisal, packaging, movement, storage, maintenance, security, and
disposition of the assets; (2) investigation and prosecution-related
expenses; (3) payments of third party interests against the seized asset,
including those incurred in the payment of valid liens, secured mortgages,
and debts owed to qualified general creditors; (4) equitable sharing
payments to state and local agencies that participated in the law
enforcement effort resulting in forfeiture; and (5) other program
management expenses such as supplies, equipment, rent, travel, and other
services.

      The Department uses an information technology system called the
Consolidated Asset Tracking System (CATS) to track assets seized by federal
law enforcement agencies or those seized by state or local law enforcement
agencies and adopted by the DEA. For each item seized by the DEA and
other Department components, CATS contains data on the seizing agency,
date of seizure, value at seizure, current value, agency with custody of the
asset, custody start and end dates, and disposition date.

     As shown in Exhibit 10, the CATS data reflect that from
August 1, 2007, through November 24, 2008, the DEA made or adopted
10,390 cash seizures totaling almost $522 million.




                                      2
              Exhibit 10: Number and Dollar Value of Cash Seizures
               from August 1, 2007, through November 24, 2008
                                                             21
                                  (in millions of dollars)


                                 Adopted     DEA Seizures         Total

                  Atlanta
                             901/$26.17M            484/$56.50M             1,385/$82.67M
             Los Angeles
                              152/$6.62M            934/$65.38M             1,086/$72.00M
               New York
                             497/$10.36M            550/$38.37M             1,047/$48.74M
                St. Louis
                             262/$20.19M            371/$17.24M               633/$37.43M
                 Chicago
                             407/$3.68M             460/$33.55M               867/$37.23M
                   Miami
                               15/$0.34M            375/$32.97M               390/$33.31M
                 Houston
                               61/$3.80M            307/$22.90M               368/$26.70M
                  Detroit
                              232/$6.05M            460/$18.45M               692/$24.50M
            New Orleans
                               46/$2.98M            346/$18.64M              392/$21.62M
        Washington DC
                              433/$5.49M            411/$15.48M              844/$20.97M
               San Diego
                              137/$1.03M            367/$17.76M               504/$18.78M
            San Francisco
                              136/$5.20M            271/$13.27M              407/$18.47M
                   Dallas
                               52/$1.94M            215/$14.86M              267/$16.80M
                 Newark
                                2/$0.03M            102/$13.71M              104/$13.74M
       Rocky Mountain
                               58/$0.90M             232/$8.46M                290/$9.36M
             Philadelphia
                               20/$0.41M             199/$7.70M                219/$8.11M
            New England
                              104/$1.54M             205/$6.36M               309/$7.90M
                  El Paso
                               35/$2.22M             136/$4.89M               171/$7.11M
                 Phoenix
                              13/$0.22M              124/$6.30M                137/$6.52M
                  Seattle
                               23/$0.74M             175/$4.67M               198/$5.41M
               Caribbean
                               12/$1.62M              68/$2.99M                80/$4.61M
                   Totals   3,598/$101.54M       6,792/$420.45M            10,390/$521.99M

   Source: Consolidated Asset Tracking System

       21
           This exhibit presents for each DEA division office the number and amount of DEA-
adopted cash seizures (in blue), the number and amount of direct DEA-cash seizures (in
red), and the number and amount of total cash seizures (numbers only in black). The totals
may differ slightly from the sum of the adopted and direct DEA amounts due to rounding.
All data shown is for the period August 1, 2007, through November 24, 2008.

                                             3
Prior Audits, Inspections, and Reviews

General Accounting Office Report

       In a November 1999 report, the General Accounting Office (GAO)
reported on the DEA’s controls over seized drugs and weapons. 22 While the
GAO did not examine controls over seized cash, it addressed related controls
over other forms of evidence and reported problems very similar to those we
identify in this report. The GAO found that the DEA had established
numerous policies and procedures to control and safeguard drug and weapon
evidence in its custody. However, the GAO concluded that based on its work
at four division offices and laboratories and the results of the DEA’s internal
inspections performed from March 1996 through August 1998, specific
actions were needed to strengthen accountability over and safeguarding of
drug and weapon evidence. The GAO stated that such actions would help
reduce the potential for theft, misuse, or loss of drug and weapon evidence
and the risk of evidence being compromised for federal prosecution purposes
while in DEA custody.

      The GAO recommended that the DEA take appropriate steps to
reinforce its adherence to existing DEA policies:

      • requiring that two signatures be recorded on evidence labels prior
        to acceptance by laboratory and division office evidence custodians;

      • maintaining complete and properly reviewed documentation in the
        laboratory seizure files; and

      • maintaining complete and accurate information in logbooks.

      In its comments on the GAO report, the DEA agreed that the
accountability and safeguarding of evidence is of critical importance, but
stated that the GAO did not emphasize the significant actions that the DEA
had taken to ensure its policies and procedures were followed. However, the
DEA stated that it would take the appropriate steps to reinforce its
adherence to existing policies or to implement new policies as recommended
by the GAO.



      22
         U.S General Accounting Office, Seized Drugs and Weapons: DEA Needs to
Improve Certain Physical Safeguards and Strengthen Accountability, AIMD-00-17
(November 1999). On July 7, 2004, the General Accounting Office was renamed the
Government Accountability Office.

                                          4
Office of the Inspector General Reports

      In a January 2004 report that examined accountability for evidence
held at DEA field divisions, the OIG reported that more than 4 years after
the GAO’s 1999 report, the DEA still had not corrected deficiencies including
implementing program guidance, improving DEA headquarters support, or
developing training. 23 Consequently, some DEA field division staff continued
to handle and store evidence improperly. The OIG report focused on seized
drugs and monies and found instances of evidence loss that could
compromise federal prosecutions.

       In January 2007, the OIG issued an audit report on the DEA’s handling
of seized cash. 24 The audit found the DEA had implemented comprehensive
policies to protect seized currency from loss or theft, but in many cases it
did not follow or document that it had followed those policies.
Documentation maintained in the investigative case files did not show that:
(1) two law enforcement officers were present at various stages of the cash-
handling process, (2) agents conducted an immediate count of the seized
cash, (3) agents timely transported the seized cash to a bank for an official
count, and (4) agents documented the acquisition and transfer of the seized
cash on the appropriate forms. The report made seven recommendations
that, if implemented, could improve the DEA’s handling of seized cash. In
response to those recommendations the DEA:

       •    reviewed and updated its training programs to ensure staff involved
            in the handling of cash seizures were properly trained;

       •    updated the Frequently Asked Questions section of its electronic
            library with new and updated policies for the handling of evidence
            including seized and recovered monies;

       •    required that newly appointed evidence custodians attend training
            on evidence handling procedures as soon as practical; and

       •    revised the procedures for handling and processing currency and
            other high-value items in the DEA Agents Manual, Section 6682,

       23
          U.S. Department of Justice Office of the Inspector General, Review of the Drug
Enforcement Administration’s Custodial Accountability for Evidence Held at Field Divisions,
Evaluations and Inspections Report I-2004-003 (January 2004).
       24
         U.S. Department of Justice Office of the Inspector General, The Drug
Enforcement Administration’s Handling of Cash Seizures, Audit Report 07-06 (January
2007).

                                              5
          Currency and High-Value Items; and updated the Office of
          Inspections checklist used to test whether staff followed the DEA’s
          policies for the handling and processing of seized cash.

      This current audit is a follow-up audit to our 2007 audit. In Finding I
of our current audit, we discuss in detail the corrective actions the DEA took
in response to those recommendations. In Finding II, we discuss the results
of our testing to determine whether those actions improved the DEA’s
handling of seized cash.

DEA’s Office of Inspections Reports

       The DEA Office of Inspections performs cyclical inspections of division
field offices covering key program areas, including the handling of seized
and recovered cash. The DEA issues inspection reports outlining inspection
findings and requires division offices to take appropriate corrective actions.
DEA division offices also conduct self-inspections of these program areas and
issue written reports to DEA headquarters. In response to our request that
the DEA provide us with the most recent cyclic and self-inspection report for
each DEA division, the DEA gave us seven inspection reports covering the
DEA divisions of Atlanta, Detroit, El Paso, Phoenix, San Diego, St. Louis, and
Washington, D.C. These reports identified the following deficiencies related
to the handling of seized and recovered cash:

      •   In a May 2008 review of the Atlanta Division, inspectors found one
          sub-office incorrectly recorded in the seized monies logbook the
          dates that state and local law enforcement agencies seized currency
          instead of the dates the DEA received the cashier’s checks from the
          state or local agency. Inspectors also found that staff did not
          record some seizures in the seized monies logbook, did not
          document transfers of seized currency on the appropriate forms,
          improperly stored cashier’s checks in desks rather than in a safe,
          and recorded incorrect dates on chain of custody documentation for
          seized cash. The report cited several offices that had improved
          their handling of seized and recovered monies since prior reviews.

      •   In an April 2007 review of the Detroit Division, inspectors found
          seizures were not recorded in a control ledger, quarterly audits
          were not being conducted or were conducted by persons who were
          not independent of the custodial function, chain of custody
          documents were missing witnesses signatures, and one evidence
          exhibit that went missing in July 2004 was never reported to the


                                       6
         DEA Office of Professional Responsibility as required by the DEA
         Planning and Inspection Manual.

     •   In a January 2008 review of the El Paso Division, inspectors found
         several case files in which the cash-seizure documentation was not
         detailed enough to denote an unimpeachable chain of custody,
         cashier’s checks were not timely transferred to the evidence
         custodian, and one office did not have a separate ledger to record
         the receipt of high-value items such as seized currency.

     •   In a January 2008 review of the Phoenix Division, inspectors found
         1 office had 3 evidence custodians that had not attended evidence
         training, 1 office had not regularly conducted quarterly inventories
         of seized and recovered monies, and 1 office had 11 seizures in
         which the chain of custody was not properly documented. The
         inspection report stated that the Tucson District Office had made
         significant improvements since a 2006 unannounced audit.

     •   In a September 2007 review of the San Diego Division, inspectors
         reported that the chain of custody of seized cash was not well
         documented in the case files and that two agents had not received
         formal training concerning their roles as evidence custodians. In a
         follow-up review in December 2007, inspectors reported that all
         money seizures made after September 2007 had complete chain of
         custody documentation.

     •   In an August 2008 review of the St. Louis Division, inspectors
         reviewed the documentation for 158 seizures at the St. Louis
         airport and could not establish a clear chain of custody for 10 of
         those seizures. Because of gaps in chain-of-custody
         documentation, the location of these cash seizures was not
         documented for 1 to 14 days.

     •   In a March 2007 review of the Washington Division, inspectors
         found that sub-offices did not complete chain of custody
         documentation, did not complete quarterly audits as required, and
         did not record seized and recovered monies in a control ledger.

DEA’s Office of Professional Responsibility Case Reports

      The DEA’s Office of Professional Responsibility (OPR) receives
allegations of misconduct by agents and other DEA personnel, including the
mishandling of property such as seized cash. We requested that the DEA

                                      7
provide us with documentation of all OPR investigations related to the
handling of seized and recovered monies from January 1, 2007 through
December 1, 2008. In response to our request, the DEA provided us with
documentation from 44 OPR investigations involving the mishandling of
seized and recovered monies.

       We reviewed the 44 OPR investigative case files and noted that in
7 cases agents were found to have not properly handled, processed, or
disposed of seized cash. The OPR investigations found that agents:
(1) signed receipts for specific amounts of currency without verifying the
amounts signed for were correct in three cases, (2) did not provide a receipt
when transferring custody of the seized currency in four cases, and (3) did
not seal the seized currency in an evidence bag or other container in four
cases. Some of the cases involved multiple violations of DEA policies. In
four of the seven cases, the responsible agents received a Letter of Caution
for Failure to Follow Instructions. For the remaining three cases, the final
investigative reports were sent to a Board of Professional Conduct in
March 2008, April 2008, and May 2008, and as of June 24, 2009, disciplinary
actions in those three cases were still pending. 25

      This current audit is a follow-up audit to our 2007 audit. Next we
discuss in detail the corrective actions the DEA took in response to our
2007 audit. In Finding II, we discuss whether those actions improved the
DEA’s handling of seized cash.




       25
           A Board of Professional Conduct determines whether misconduct occurred and
proposes disciplinary actions. A 2004 OIG review found the DEA experienced significant
delays in processing OPR cases. U.S. Department of Justice Office of the Inspector General,
Review of the Drug Enforcement Administration’s Disciplinary System, Evaluation and
Inspections Report I-2004-002 (January 2004).

                                            8
               FINDINGS AND RECOMMENDATIONS

I.    THE DEA IMPLEMENTED ALL BUT ONE OF OUR 2007
      AUDIT RECOMMENDATIONS

      Our 2007 audit made seven recommendations to strengthen
      the DEA’s controls and reduce the risk of loss or theft of
      seized cash. DEA implemented six of those
      recommendations. However, in response to the seventh
      recommendation, it did not complete actions needed to
      ensure seized cash is wire transferred to the USMS
      whenever possible.

2007 Audit Results

        Our 2007 audit found that while the DEA had established internal
control policies for safeguarding seized cash, some of those policies needed
clarification and strengthening. The DEA needed to better define when
seized cash was to be counted, how quickly the cash should be transported
to a bank, and when agents should use wire transfers to transfer seized
funds to the USMS. Moreover, our testing of the cash-seizure
documentation at 29 DEA offices found that the DEA did not adequately
follow many of its controls already in place regarding cash seizures. For
most seizures we tested, documentation did not show that a witnessing
agent or task force officer was present at critical stages of the cash-handling
process, as required by the DEA Agents Manual (the Manual). Further, we
found that agents and task force officers generally did not follow DEA
requirements on when to count the seized currency; did not provide a
receipt to the subject from whom the currency was taken; did not complete
documents transferring custody of the currency to an evidence custodian;
and did not record the receipt, transfer, or disposal of the currency in a
temporary or permanent control ledger. We noted that following and
documenting adherence to these important internal controls are critical to
ensure that seized cash is properly safeguarded from loss, theft, or misuse.

The DEA’s Response to our 2007 Audit

      Our 2007 audit made seven recommendations to strengthen DEA’s
controls and reduce the risk of loss or theft of seized cash. Our
recommendations and steps the DEA took to implement those
recommendations are explained below.



                                       9
Recommendation No. 1 – Define When to Count Seized Cash

      We recommended that the DEA clarify its policy on counting seized
cash and clearly define the circumstances under which it is and is not
required to count cash at the time of seizure.

      A senior DEA official told us that counting seized cash, especially large
volumes of cash, consumes agent resources and can result in miscounts due
to human error and counterfeit bills among the seized cash. Any differences
between the agents’ count of seized cash and an official count by bank
personnel can result in accusations by the persons from whom the currency
was seized and subject the agents to a DEA Office of Professional
Responsibility investigation. Differences between the agents’ count and the
bank’s count can also create legal problems for the DEA in prosecuting
cases. Further, most banks have currency-counting machines that can
quickly count large sums of cash, are sophisticated enough to detect
high-quality counterfeit currency, and staff who are trained to operate that
equipment.

       For these reasons, in April 2007 the DEA changed its policy on
counting seized cash by issuing a memorandum that cash should not be
counted at the time of seizure. The memorandum reiterated the DEA’s
existing policy that: (1) seized currency is to be immediately placed in an
evidence bag and transported by two law enforcement officers to the field
office where it is to be secured or to the bank for an official count;
(2) agents are to issue a Receipt for Cash or Other Items (DEA-12)
indicating the “undetermined amount of currency pending official count” to
the owner, or person asserting ownership, and request that this person sign
the form; and (3) agents are to leave a copy of the DEA-12 receipt at the
seizing location. The DEA made an exception to the policy so that cash will
be counted when, during a joint investigation, the other agency requires that
a count be conducted. Based on the steps the DEA took, we closed this
recommendation.

     Later in this report we discuss the results of our testing to determine
whether agents followed the DEA’s new policy that cash should not be
counted at the time of seizure.

Recommendation No. 2 – Timely Transfer Cash to Banks

      We recommended that the DEA research best practices associated with
the timely transport of seized cash to banks, including those in several DEA


                                      10
offices where the timely transfer of cash to banks occurs, and implement
those practices as widely as possible.

      In March 2008, the DEA surveyed 57 of its offices at 7 divisions and
found the average time between seizure and an official count at a bank or
other financial institution was 3.93 working days. 26 In May 2008, the DEA
implemented a new policy requiring that currency be transported to a bank
or other financial institution within 5 working days from the date the DEA
acquired the currency. 27 In October 2008, the DEA conducted a follow-up
survey at those same 57 offices and found the average time between seizure
and an official count at a bank or other financial institution had risen to
4.17 working days. Exhibit 11 shows the results of the DEA’s two surveys.

           Exhibit 11: Average Number of Working Days Between
                       Seizure and Transport to a Bank

                                                      Average
                                               Number of Working Days
             Division
                                      Quarter ended            Quarter ended
                                      March 31, 2008         September 30,2008
 New Orleans Division                        1.91                      2.33
 Houston Division                            1.93                      2.43
 Miami Division                              5.01                      2.68
 Detroit Division                            1.57                      3.19
 New York Division                           4.35                      3.80
 Washington Division                         5.02                      4.50
 Los Angeles Division                        6.40                      8.12
 Average for all Seizures
                                             3.93                      4.17
   Reviewed
 Source: Internal DEA studies

      The DEA’s survey results showed that for the quarter ending on
March 31, 2008, four of seven DEA divisions surveyed had timely
transported seized cash to a bank within an average of 5 working days from
the date of the seizure. For the quarter ending on September 30, 2008, six
of seven DEA divisions had timely transported seized cash to a bank within

      26
          The DEA surveyed the same seven divisions that we tested during our
2007 audit.
      27
         In November 2008, the DEA incorporated the 5-working-day requirement into
Agents Manual Section 6682.

                                          11
an average of 5 working days from the date of the seizure. The survey
reports explained that some divisions had difficulty in timely transporting the
seized cash because: (1) banks restricted the DEA from making deposits on
certain days, (2) the DEA did not always have sufficient staff to transport the
currency, and (3) the DEA could not coordinate with the armored car
company to count and deposit the seized currency.

       Because the DEA defined a timeframe of 5 working days from the date
law enforcement officers seized the cash to the date the cash is transported
to a bank or other financial institution, this recommendation is now closed. 28
Later in this report we discuss the results of our testing as to whether DEA
offices met this new timeframe.

Recommendation No. 3 – Wire-Transfer Cash to the USMS

      We recommended that the DEA ensure seized cash is wire-transferred
to the USMS whenever possible.

       In 2006, the USMS required the DEA to participate in a Department of
Treasury (Treasury) program designed to streamline all cash deposits by
federal agencies. The Treasury awarded a contract to process government
cash seizures to a major U.S. bank (the Bank) and the Bank subcontracted
with an armored car company to count DEA cash seizures and deposit them
into the Seized Assets Deposit Fund (SADF) controlled by the USMS.

        Under the Treasury program, when the DEA seizes currency a
supervisor should immediately notify the armored car company and, within
24 hours, DEA agents will transport the currency to an armored car company
facility where company staff count the currency, prepare the deposit slip,
and wire the funds to the Bank. The Bank then wires the funds to the
USMS.

      In the summer of 2006, the DEA initiated a 90-day pilot project to test
the Treasury cash deposit program at its New York Division. According to a
DEA headquarters official, the pilot project was successful and the DEA
began implementing the program at other DEA offices across the country.
However, the DEA experienced problems in implementing the Treasury
program nationwide.



      28
           The DEA implemented the 5-working-day policy in May 2008 and incorporated
the policy into the Agents Manual in November 2008.

                                          12
       The first problem the DEA had in implementing the Treasury cash
deposit program was that most DEA offices are not located near an armored
car company facility. The DEA provided documentation showing that 166 of
268 DEA offices are located more than 30 miles from the nearest armored
car money-counting facility. 29 Of the 166 offices, 72 are more than
100 miles from the nearest armored car company facility. The Treasury and
the Bank promised the DEA they would identify other banks that would
provide currency deposit services to those 166 DEA offices. The DEA
followed up with the Treasury and the Bank on several occasions, but no
new banks have been identified since the DEA implemented the program in
2006. The Treasury’s most recent plan for implementing currency deposit
services at additional locations is for the DEA to provide Treasury with a list
of priority DEA offices, and Treasury will work with the Bank to implement
currency deposit services at those locations.

      Another problem the DEA had with the Treasury program pertains to
how the Treasury and the Bank resolved miscounts by the armored car
company. According to the Treasury, the only time a miscount occurs is
when the Federal Reserve identifies counterfeit bills in the seized funds that
were not detected by the armored car company. The DEA and the Treasury
agreed the Federal Reserve would recount the funds and the Treasury would
investigate any miscounts and provide the DEA with the results of the
investigation and the correct amount of the deposit. 30 However, as
discussed in the following paragraphs, the DEA experienced problems with
the Treasury, Bank, and armored car company.

      DEA offices that used the Treasury system reported that armored car
company personnel made mistakes when they prepared bank deposit slips.
In one example, the armored car company deposited $99,980 more than it
had recorded on the bank deposit slip. A Bank official believed the contract
between the Bank and the Treasury allowed the Bank to retain ownership of
the $99,980. A preliminary investigation by the Treasury Office of the
Inspector General in 2007 found problems with the terms and management
of the contract. The Bank eventually agreed the money belonged to the
DEA. In another example, the armored car company made a
$2,002 mistake on a bank deposit slip. The error was not discovered until
the DEA reviewed the cash-seizure documentation and found the error. The

       29
          A DEA official told us that when the armored car company is more than 30 miles
from the DEA office, it takes agents more time to transport the seized currency and there is
increased risk of loss or theft of the seized funds.
       30
          To meet certain legal requirements, the DEA must advertise the amount of
currency that was seized.

                                            13
armored car company said it was aware of its mistake but had not notified
the DEA. Other DEA offices also reported that the armored car company
made mistakes when it prepared bank deposit slips.

       DEA offices also reported that the armored car company’s money
counting machines were slow and not sophisticated enough to identify
counterfeit bills. In one example, the armored car company’s currency
counting machines did not detect $29,500 in high-quality counterfeit
currency. When the Federal Reserve bank recounted the seized currency, its
machines detected the counterfeit bills. The Bank gave the DEA credit for
the full amount of the deposit because the Bank could not tie the counterfeit
bills to a specific DEA deposit. Some DEA offices reported that agents
sometimes spent hours at the armored car company facility because its cash
counting machines were antiquated and took excessive time to count large
numbers of bills.

       DEA offices also had difficulty making appointments with the armored
car company. Beginning May 21, 2008, the DEA’s written policy required
agents to transport seized currency to a bank or other financial institution
for an official count within 5 working days from when the DEA acquired the
currency. For offices that use currency deposit services, a DEA supervisor
should notify the armored car company when a seizure occurs and the
armored car company will count and deposit the seized currency within
24 hours. For each seizure, agents are required to document in the Report
of Investigation the dates they contacted the bank or the armored car
company. Our testing of cash seizures found that 6 of 13 offices using the
armored car company took longer than 5 working days to count and deposit
seized cash. We could not determine whether the DEA or the armored car
company was responsible for the delays because the DEA generally did not
document when it contacted the armored car company. A DEA headquarters
official stated that all DEA offices using the Treasury system had difficulty in
making appointments with the armored car company to count and deposit
seized currency.

      As of May 2009, 42 of 102 DEA offices that were within 30 miles of an
armored car company facility were using the armored car company to count
seized cash and deposit it into the SADF. A headquarters DEA official told us
that because of the problems the DEA had with the Treasury system, the
DEA had not made a substantial effort to establish currency deposit services
at the other 60 offices.

       In its plan to implement our 2007 audit recommendation, the DEA also
said it would develop deposit slips that could be used to deposit seized funds

                                      14
into the SADF. The DEA developed those deposit slips, and the armored car
company now uses the slips to wire the seized currency. The plan for DEA
offices not using an armored car counting facility is for those offices to open
an account at a local bank and use standard deposit slips to deposit seized
funds.

        In summary, the DEA implemented currency deposit services at
42 of 268 DEA offices. It did not implement those services at 226 other
offices because: (1) DEA offices that used the armored car company had
problems in making appointments to count and deposit seized funds;
(2) the armored car company frequently miscounted the seized currency and
made errors when it prepared bank deposit slips; (3) the Treasury and the
Bank did not find other banks to provide currency deposit services to those
DEA offices that were more than 30 miles from an armored car company
facility; and (4) the Treasury, the Bank, and the armored car company had
not made sufficient progress in correcting these problems. A senior DEA
official contacted the Treasury several times about these ongoing problems,
but because the Treasury and the Bank had not responded to the DEA’s
concerns, the DEA proposed a direct-deposit program under Department of
Justice control. To that end, some DEA offices have identified other banks
that can provide more timely currency deposit services. Because the DEA is
not using currency deposit services to achieve wire transfers whenever
possible, this 2007 audit recommendation is still open. We will continue to
follow up with the DEA to ensure it identifies banks and other financial
institutions that can timely count and transfer seized funds to the USMS and
uses those institutions whenever possible.

Recommendation No. 4 – Remind Staff to Follow Controls

      We recommended that the DEA issue to all staff involved in cash
seizure activities periodic reminders of the internal controls to be followed
and documented, including: (1) documenting that another officer or agent
witness the seizure of the cash, seal the cash in an evidence bag or
container, transport the cash to the DEA office, and transport the cash to the
bank; (2) documenting the rationale for not counting cash; (3) documenting
the receipt provided to the suspect from whom cash was seized;
(4) recording cash seized in the High Value Seized and Recorded Monies
(HVSRM) ledger; and (5) documenting the transfer of cash to the evidence
custodian on the proper form.

      In August 2007, the DEA provided documentation showing it had
revised its policies for handling seized cash and updated the Agents Manual
Frequently Asked Questions (FAQ) on its internal website with those revised

                                      15
policies. The DEA also incorporated into several training classes detailed
instructions on the proper handling of cash seizures and the importance of
having a second agent or officer present at various stages of the cash
seizure and handling process. The updated Agents Manual FAQ and revised
training program provide that agents should follow policies requiring that:

     •   seized currency not be counted at the time of seizure;

     •   the DEA-12, Receipt for Cash or Other Items, issued at the time the
         currency is seized indicate an undetermined amount of currency
         pending an official count;

     •   the DEA-12, Receipt for Cash or Other Items, be signed and
         witnessed by two law enforcement personnel;

     •   seized currency be sealed in an evidence envelope and transported
         to the DEA field office by two law enforcement officers where it will
         be held until it is processed as an evidence exhibit or transported to
         the bank for an official count;

     •   a Special Agent or Task Force officer and another witnessing agent
         or officer be present when processing or transporting seized cash in
         DEA custody; and

     •   every change in custody of seized currency be documented on a
         DEA-12, Receipt for Cash or Other Items.

      In summary, the DEA took appropriate corrective actions and we
closed this 2007 audit recommendation. Later in this report we discuss the
results of our testing to determine whether these corrective actions
improved the DEA’s handling of seized cash.

Recommendation No. 5 – Monitor Cash-Seizure Documentation

      We recommended that the DEA instruct DEA staff who supervise cash
handling activities to monitor documentation such as the Report of
Investigation (DEA-6), and other cash-handling forms completed by agents
to ensure the forms are sufficiently detailed to show cash-handling controls
are followed. We also recommend the DEA instruct the supervisors to
ensure that the required forms are maintained in the case files.

     To implement this recommendation, the DEA held a training class for
supervisors that focused on monitoring all cash-seizure documentation to

                                      16
ensure agents had documented the complete chain of custody, the presence
of a witness at each phase of the cash-seizure process, that DEA staff
completed the proper forms, recorded the seizures in a ledger, and
maintained file copies of all associated documentation.

     Based on the corrective actions the DEA took, we closed this
2007 audit recommendation. However, as discussed in Finding II, DEA
supervisors did not ensure cash-seizure documentation was complete and
accurate and maintained in the cash-seizure files.

Recommendation No. 6 – Train Evidence Custodians

      We recommended the DEA identify all evidence custodians who have
not attended the DEA’s comprehensive classroom training course, which
includes training on cash-handling controls and ensure these custodians
receive the appropriate training.

      To implement this recommendation, the DEA revised Agents Manual
Section 6681.12 to require that the Special Agent in Charge of each division
ensure the evidence custodians attend DEA’s training program as soon as
practical. Based on the steps the DEA took, we closed this 2007 audit
recommendation.

Recommendation No. 7 – Revise Inspection Procedures

      We recommended that after the DEA clarifies its policy on counting
cash and implements best practices for timely transferring cash to banks, it
ensure that inspection procedures are revised to include steps to measure
implementation of the controls, established for counting cash and for
transporting seized cash to the bank in a timely manner.

      In April 2007, the DEA implemented new policies that agents should
not immediately count seized currency at the time of the seizure. In
May 2008, the DEA implemented a new policy that seized currency should be
transported to a bank within 5 working days. In January 2009, the DEA
revised its Office of Inspections checklist by including procedures to test
whether agents followed those policies. Based on the steps the DEA took,
we closed this 2007 audit recommendation. Because the DEA did not
provide us the updated Office of Inspection checklist until after we
completed our audit testing, we could not determine whether the DEA used
the checklist to test compliance with the new policies pertaining to counting
and transporting the seized cash.


                                     17
Conclusion

       Our 2007 audit made seven recommendations that, if implemented,
could improve the DEA’s handling of seized cash. The DEA took appropriate
corrective actions to implement six of those recommendations. The DEA:
(1) clarified its policy on counting seized cash by issuing a policy that seized
cash should not be counted at the time of seizure; (2) defined a timeframe
for transporting seized cash to banks; (3) reminded staff that they need to
follow, and document that they followed, internal controls related to seized
cash; (4) held a training class for supervisors on documenting cash seizure
activities; (5) ensured that evidence custodians were properly trained to
process and handle seized cash; and (6) revised its Office of Inspections
checklist to test whether agents followed DEA policies for counting and
transporting seized cash.

      The DEA did not completely implement our 2007 audit
recommendation that it ensure seized cash is wire-transferred to the USMS
whenever possible. In 2006, the DEA began participating in a Treasury
program to streamline cash deposits by federal agencies. Under that
program the DEA notifies an armored car company when it has made a
seizure and, within 24 hours, the armored car company counts and
wire-transfers the seized cash to a bank, which then wires the funds to the
USMS. However, 166 of 268 DEA offices were located more than 30 miles
from the nearest armored car facility. 31 The Treasury and the bank agreed it
would find other banks to provide currency deposit services to those offices
but as of July 2009, they had not done so. All DEA offices that used the
armored car company reported problems in scheduling appointments with
the armored car company, as well as frequently miscounted seized cash. A
senior DEA official proposed a currency deposit program under Department
of Justice control. To that end, some DEA offices have identified other
financial institutions that can count and deposit the DEA’s seized cash more
timely.

Recommendations

       The DEA implemented six of seven of our 2007 audit
recommendations. The DEA did not completely implement our
recommendation that it ensure seized cash is wire-transferred to the USMS
whenever possible. We make no recommendations for Finding I. However,
we will continue to follow up with the DEA to ensure it implements our

      31
            When DEA offices are more than 30 miles from an armored car company facility,
there is increased risk of loss or theft of seized cash.

                                           18
2007 audit recommendation that it wire transfers seized funds to the USMS
whenever possible. The DEA should seek banks and other financial
institutions that can provide timely currency deposit services, including
counting and transferring custody of seized funds to the USMS by
wire-transfer or direct deposit.




                                    19
II.   THE DEA IMPROVED AT FOLLOWING CONTROLS FOR SEIZED
      CASH BUT FURTHER IMPROVEMENTS ARE NEEDED

      The DEA has made progress in safeguarding seized cash
      from loss or theft, but supervisors need to do a better job of
      reviewing the cash-seizure documentation. The cash-
      seizure documentation showed that since the 2007 audit the
      DEA more often: (1) had a witness present at each phase
      of the cash-seizure process, (2) issued a receipt or warrant
      for the seized cash, (3) followed the appropriate policy for
      counting the seized cash, (4) transferred control of the
      seized cash to the evidence custodian using the proper
      form, (5) recorded the seized funds in a control ledger, and
      (6) transferred control of the seized funds to the USMS
      within 15 working days. The DEA took slightly longer to
      transport seized cash to a bank or other institution for an
      official count than it took during the 2007 audit, which we
      attribute to the DEA’s required participation in a Treasury
      program designed to streamline cash deposits by federal
      agencies. In addition, the DEA did not identify and correct
      deficiencies in many cash-seizure documents until we began
      our audit. The DEA needs to make further improvements at
      following and documenting that it followed internal controls
      for safeguarding seized cash and must ensure that
      supervisors conduct a more thorough and timely review of
      the cash-seizure documentation.

The DEA’s Internal Controls Over Cash Seizures

       Our 2007 audit found the DEA had developed comprehensive internal
control policies to safeguard cash during seizure and during transfer to the
local DEA office or to the bank and to safeguard the cashier’s checks until
transfer to the USMS. However, these controls were not always followed.
We recommended the DEA strengthen some of these controls and also
remind staff they should follow and document that they had followed these
policies. In the discussion that follows, we describe each control, present
our 2007 and 2009 testing of the DEA’s compliance with these controls, and
determine whether the DEA has improved since our 2007 audit.




                                      20
Controls to Safeguard Cash upon Seizure

       Section 6682 of the DEA Agents Manual describes multiple controls to
safeguard cash during seizure. Except as noted, these controls were in
effect during both the 2007 and 2009 audits. 32

      Upon locating currency, the locating agent must immediately summon
a second agent or law enforcement officer to serve as a witness. A witness
must be present when seized cash is sealed in an evidence envelope and
when the cash is transported to the local DEA office or to the bank or other
financial institution for an official count. The Agents Manual further requires
that seized currency be sealed in an evidence envelope in the presence of
the person from whom the currency was seized, providing the person does
not present a threat to the law enforcement officers.

       During the 2007 audit, the Agents Manual required agents to count
seized currency if it was “practical” to do so. We recommended the DEA
clarify its policy on when seized cash should be counted. During the 2009
audit, the DEA’s policy was that agents should not count the seized cash
except during a joint investigation with another law enforcement agency
where the other agency’s policy requires that a count be conducted.

       During the 2007 audit, the Agents Manual required agents to issue a
Form DEA-12 to the person from whom the currency was seized showing the
amount seized or that “an undetermined amount of U.S. currency pending
an official count” was seized. 33 When currency is seized as the result of a
seizure warrant, law enforcement officers are not required to issue a
DEA-12. 34 Instead, the officers must provide the person from whom the
items were seized with a copy of the warrant and a list of the items seized,
or leave a copy of the warrant and the list of items seized at the seizure
location if the person from whom the items were seized is not present.


       32
         Our 2007 audit covered the period October 1, 2003, through November 3, 2005.
Our 2009 audit covered the period August 1, 2007, through November 24, 2008.
       33
           The DEA-12, Receipt for Cash or Other Items, is a multi-purpose form used to
document the following actions: (1) providing a receipt to the owner, or person claiming
ownership, of property that is seized; (2) documenting the return of property held less than
5 working days; (3) placing non-drug evidence into temporary custody; and
(4) recording the short-term transfer of non-drug evidence exhibits between agents and
evidence custodians or other law enforcement personnel for production in court.

       34
           A seizure warrant is a written order by the court authorizing the search or seizure
of property.

                                             21
During the 2009 audit, the DEA’s policy directed that seized cash should not
be counted at the time of seizure and the DEA-12 or warrant should indicate
that “an undetermined amount of U.S. currency pending an official count”
was seized. For the 2009 audit, if currency was counted to comply with
another law enforcement agency’s policy, the amount seized should have
been recorded on the DEA-12 with the words “pending official count.”

       When cash is seized, the seizing agent is required to prepare, within
10 working days, a Form DEA-6, to document the events surrounding the
seizure. According to the DEA Agents Manual, the DEA-6 should record
details about the acquisition of any high-value item worth more than
$1,000 and should include details of the seizure and a description of the
articles, exhibit numbers, and chain of custody information for each item of
evidence.

     The DEA Agents Manual also required the DEA evidence custodians to
document the receipt, transfer, and disposition of any high-value item in a
HVSRM ledger book.

Controls for Transferring Seized Cash to the Local DEA Office or to the Bank

      The DEA also established controls in the DEA Agents Manual to
safeguard seized cash during its transfer to the local DEA office or bank.
When the seized cash is taken to the local DEA office during regular duty
hours, the agent or task force officer is to release custody of the seized cash
to the DEA evidence custodian using a DEA-12; Acquisition of Non-drug
Property form (DEA 7-a); or Standard Seizure Form (SSF). 35 After regular
duty hours, the agent is to place the cash in temporary overnight storage
using the appropriate transferring document and make an entry in the
temporary overnight ledger. 36 Copies of the DEA-6, DEA-7a, DEA-12, and
SSF should be maintained in the case files as part of the chain-of-custody
records.

      During our 2007 audit, Section 6682 of the DEA Agents Manual stated
that seized currency not retained as evidence had to be transported to a

       35
          The SSF is a five-page form that includes case and asset information, names and
addresses of potential claimants, and other details such as probable cause and chain of
custody information.
       36
           According to the DEA Agents Manual, temporary storage refers to a safe, locker,
or other secure place. Many DEA offices have bank-style night-drops or similar facilities for
overnight temporary storage of high-value items such as currency. Agents are not
permitted to store seized currency in locked desks, unoccupied vehicles, or hotel rooms.

                                             22
bank or other financial institution as soon as arrangements could be made
with the bank. We recommended the DEA research best practices
associated with timely transport of cash to banks and implement those
practices as widely as possible. In September 2007 the DEA issued a new
policy that agents had 2 business days to make arrangements with a bank or
other financial institution to count the seized currency. In May 2008 the
DEA issued another new policy requiring that seized currency be transported
to a bank as soon as possible by two law enforcement officers to obtain an
official count, but not to exceed 5 working days from the date the DEA
acquired the currency.

       Our 2009 audit found that the DEA took an average of 3.3 working
days to transport seized cash to a bank or other financial institution, which is
within the 5-working-day requirement the DEA established in May 2008.
During the 2007 audit, the DEA took 3.2 working days to transport seized
cash to a bank. Later in this report and in Appendix 11 we present our
assessment of the time taken by 7 DEA divisions and 29 individual DEA
offices to transport cash to a bank or other financial institution.

Controls for Transferring Seized Cash to the USMS

       The Attorney General’s Guidelines on Seized and Forfeited Property
provide that seized cash, except when held as evidence, is to be deposited
promptly into the SADF. 37 Transfers of cash to the USMS must be
completed within 60 days of seizure or 10 days of indictment. However,
Section 6654 of the DEA Agents Manual requires that seized cash be
transferred to the USMS within 15 working days of seizure. This control was
in effect during both the 2007 and 2009 audits.

      As discussed later in this report and as detailed in Appendix 12, on
average, DEA offices complied with the 15-day requirement. However, the
San Diego Division had an average transfer time of 2.1 working days as
compared with 5.8 to 13.0 working days for the other six divisions. We
attribute the quicker transfer time by the San Diego Division to its use of an
armored car company to count and deposit seized cash directly into an
account controlled by the USMS. As we discuss later in this report, offices
that used an armored car company to count and deposit seized cash took
longer to transport seized cash to the armored car company for an official
count but took less time to transfer custody of the seized funds to the USMS
than offices that did not use the armored car company. We believe the DEA

      37
          United States Attorneys Manual, Chapter 9-118, The Attorney General’s
Guidelines on Seized and Forfeited Property, July 31, 1990.

                                           23
could continue to strengthen the control for transferring cash to the USMS
by implementing currency-deposit services at other DEA offices. Banks also
provide those services by counting and transferring custody of seized cash to
the USMS using a wire transfer or direct deposit process. We will continue
to follow up with the DEA on our 2007 audit recommendation that it ensure
seized cash is wire transferred to the USMS whenever possible.

Controls for Documenting Cash Seizure Activities

      The DEA uses various forms to document the acquisition, transfer, and
disposal of any high-value item, including seized currency. According to the
DEA Agents Manual, the details of the seizure and handling, including the
chain of custody of any high-value item, must be fully reported on a DEA-6
within 10 working days from the date of seizure. The DEA-6 must include:

    • a particular description of the article that was seized and an exhibit
      number;

    • the chain of custody of the seized cash from the time agents seize the
      currency until it is submitted to the evidence custodian;

    • the identity of the agents, task force officers, and evidence custodians
      involved in the seizure, transport, and custody of the seized funds;

    • details of the opening and resealing of any currency exhibits; and

    • the date agents made an appointment to count the currency and the
      date the currency was counted.

     According to the DEA Agents Manual, if agents find a mistake in a
DEA-6, the responsible agent has 5 working days from when the mistake
was discovered to prepare an amended DEA-6.

      The Agents Manual also requires agents to document in a
memorandum to the case file other events related to the seizure and
handling of the seized cash. For example, the DEA must document the
reasons why two agents were not involved in transporting the seized cash or
why agents did not adhere to the 5-working-day rule for transporting seized
cash to a bank or other financial institution for an official count. The DEA
Office of Inspections reviews the cash-seizure documentation during periodic
inspections and the offices being reviewed prepare amended DEA-6s to
correct any deficiencies that were identified. However the DEA did not


                                      24
always timely document, in the cash-seizure documentation, the details of
the seizure, including details of the chain of custody of the seized cash.

Changes to the Cash-Seizure Documentation

      At the start of our 2009 audit DEA, officials told us they had reviewed
the investigative case files and amended the DEA-6, Reports of
Investigation, and prepared other memoranda to better explain the handling
and processing of the seized cash in anticipation of our audit. The DEA did
not have a policy specifying how quickly case file documents should be
reviewed by a supervisor after they are prepared by an agent. Because of
the timing of changes made, we were concerned about the reliability of the
amended documents. We reviewed the amended DEA-6s and memoranda to
determine when and why the DEA amended the cash-seizure files. None of
the additional documents created in anticipation of our audit appeared to
have been back-dated.

       We found that for 107 of 682 (about 16 percent) seizures in our
sample, the DEA prepared 118 amended DEA-6s that added or changed
information related to the seizure or to the chain of custody of the seized
cash. 38 Details of the amended DEA-6s are presented in Appendix 14. Of
the 118 amended DEA-6s, 85 added the names of the law enforcement
officers present at the discovery, sealing, or transporting of the seized cash.
We reviewed these amended DEA-6s to determine when the DEA had
identified and corrected these deficiencies in the cash-seizure
documentation.

      Exhibit 12 shows that of the 118 amended DEA-6s, 28 (24 percent)
were prepared before our audit and 90 (76 percent) were prepared during
our audit. 39 For the amended DEA-6s prepared during our audit, it took the
DEA an average of 294 days after the date of the seizure to identify and
correct deficiencies in the cash-seizure documentation. For one seizure at
the Indianapolis District Office, it took the DEA 548 days after the date of
the seizure to document the agents involved in handling the seized cash.


       38
          Some seizures had more than one amended DEA-6. At 8 of 29 DEA offices we
tested, we saw no amended DEA-6s or other memoranda prepared during our audit. At the
Charleston Resident Office, an official told us he instructed his staff not to make changes to
the cash-seizure files for our audit.
       39
          We could not determine whether the DEA prepared the amended DEA-6s within
5 working days of the date an agent discovered an error in a DEA-6 because we did not find
those dates recorded in the cash-seizure documentation.

                                             25
                 Exhibit 12: Analysis of Amended DEA-6s

                                    Number of    Number of
                                     DEA-6s       DEA-6s         Total
           When Prepared            Prepared      Prepared     Amended
                                    Before the   During the     DEA-6s
                                      Audit        Audit

      0 to 30 days after seizure       21              2           23

      31 to 90 days after seizure        3             5            8

      more than 90 days after
                                         4           83            87
      seizure

                 Total                 28            90           118
     Source: OIG analysis of DEA documents

      Below are examples of changes the DEA made to the DEA-6s
pertaining to the seizure or the chain of custody of the seized cash.

      •   One cash-seizure file we reviewed at the Atlanta Division Office had
          three DEA-6s. Both the initial DEA-6 dated August 2007 and an
          amended DEA-6 dated February 2008 stated that agent “A” had
          custody of $1,045 in seized currency and agent “B” was a witness.
          A December 2008 amended DEA-6 stated that agent “B” had
          custody of $1,005 in seized currency and that agents “C” and “D”
          were witnesses. Agents prepared the December 2008 amended
          DEA-6 more than 15 months after the date of the seizure. Agents
          prepared the February 2008 amended DEA-6 after DEA inspectors
          found the initial DEA-6 did not contain all the required information.

      •   One cash-seizure file we reviewed at the Orlando District Office had
          three DEA-6s. The initial DEA-6 dated August 2007 stated that
          agents seized $23,000. An amended DEA-6 dated January 2009
          stated that agents seized $91,660. Another amended DEA-6 dated
          February 2009 stated that agents seized $23,000. The DEA
          prepared the most recent DEA-6 more than 17 months after the
          seizure.

      •   One cash-seizure file we reviewed at the Chicago Division Office
          had three DEA-6s. The DEA prepared the initial DEA-6 in August
          2008. During our February 2009 audit work at the Chicago
                                       26
         Division, the DEA prepared an amended DEA-6 to identify the
         agents who transported the seized cash to the DEA and then to the
         armored car company for an official count. Also during our
         February 2009 audit, the DEA prepared another amended DEA-6
         explaining that the names of the agents recorded on another cash-
         seizure document were incorrect. The DEA prepared the amended
         DEA-6s 6 months after it prepared the initial DEA-6s.

     •   One cash-seizure file we reviewed at the San Diego Division Office
         had two DEA-6s. The initial DEA-6 dated February 4, 2008, stated
         that agents seized the currency on January 23, 2008. An amended
         DEA-6 dated January 16, 2009, stated that agents seized the
         currency on January 31, 2008. The DEA prepared the amended
         DEA-6 almost a year after the date of the seizure.

       We asked officials at these DEA offices how they determined the
details needed to prepare the amended DEA-6s. An Assistant Special Agent
in Charge at the Atlanta Division Office told us that agents and task force
officers involved in those seizures met and discussed the case and then
wrote the amended reports. That official also told us that agents generally
only keep case notes when they conduct interviews and no notes were kept
for the seizures we reviewed. A Group Supervisor at the Orlando District
Office told us agents used signed DEA-12s and deposit slips to make the
appropriate corrections to the DEA-6s. An official from the Indianapolis
Resident Office told us he instructed his agents to document the chain of
custody as best they could from memory. A supervisor at the San Diego
Division Office told us the information for the amended DEA-6s could come
from case notes, agents’ memory, or from other documents in the case files.

      We also found that for 44 of 682 (about 6 percent) seizures we tested,
the DEA prepared memoranda that added or changed information about the
seizure or the chain of custody of the seized cash. Exhibit 13 shows that of
the 44 memoranda, 41 (93 percent) were prepared during our audit. For
the memoranda prepared during our audit, it took the DEA an average of
more than 276 days after the date of the seizure to identify and correct
these deficiencies in the cash-seizure documentation. Details of the
memoranda we reviewed are presented in Appendix 15.




                                     27
                   Exhibit 13: Analysis of Memoranda
                    Added to the Cash-Seizure Files

                                 Number of    Number of
                                 Memoranda    Memoranda
                                                               Total
         When Prepared            Prepared     Prepared
                                                             Memoranda
                                 Before the   During the
                                    Audit        Audit

   0 to 30 days after seizure          2            0              2

   31 to 90 days after seizure         0            0              0

   more than 90 days after
                                       1           41            42
   seizure

              Total                    3           41            44
   Source: OIG analysis of DEA documents

      These are some examples of memoranda that added or changed
information related to the cash seizure.

     •   One seizure at the Miami Division Office contained a memorandum
         that adds the names of agents who transported the seized cash to
         the armored car company for an official count. The memorandum
         is dated 518 days after the seizure.

     •   Four seizures at the Tampa District Office contained memoranda
         that added the names of officers present at various stages of the
         cash-handling process. The memoranda are dated from 94 to
         447 days after the seizure.

     •   One seizure at the Laredo Resident Office contained a
         memorandum that corrected the date the DEA transferred custody
         of the seized asset to the USMS. The DEA did not identify and
         correct the error until our audit work at that office, which was
         121 days after the date of the seizure.

     •   One seizure at the Baltimore District Office contained a
         memorandum explaining that a witnessing agent was present
         during various cash handling activities, but the memorandum did
         not name the witnessing agent. The memorandum is dated
         350 days after the seizure.


                                       28
      We asked DEA officials at these offices how they determined to add
the information discussed in the memoranda to the case file. Supervisors
from three of these offices told us they reviewed the cash-seizure files and
when they noted discrepancies they prepared a memorandum. These
supervisors did not provide the source of the information in the memoranda.
As of June 26, 2009, the official from the Miami Division Office had not
responded to our question.

      In summary, during our audit the DEA prepared 90 amended DEA-6s
and 41 memoranda that added or changed information about the seizure or
the chain of custody of the seized cash. Because it took the DEA an average
of more than 276 days to identify and correct these deficiencies and because
of uncertainty about the source of the information used to make the
corrections, we are also concerned about the accuracy of the amendments.
Consequently, in the next section of this report we compare our audit test
results based on the cash-seizure documents prepared before our audit with
those prepared during our audit.

Conclusion about DEA’s Controls over Cash Seizures

      The DEA has implemented internal control policies to safeguard seized
cash, but we believe the following improvements are needed.

     •   The DEA should identify best practices associated with the timely
         transport of seized cash and implement those practices as widely as
         possible.

     •   The DEA should implement currency deposit services, such as
         having the armored car company or banks and other financial
         institutions count and deposit or wire transfer the funds to the
         USMS, wherever possible.

     •   The DEA should ensure that agents fully document the details of the
         cash seizures, including the details of the chain of custody, in the
         cash-seizure files and that supervisory agents should timely review
         those files and, if needed, timely amend the cash-seizure
         documents.

     •   The DEA should require supervisory agents to review the cash-
         seizure documentation for completeness and accuracy within a
         reasonable period of time after its preparation.



                                      29
     Next we present the details of our testing to determine the DEA’s
compliance with controls over cash seizures.

Implementation of Controls for Safeguarding Seized Cash

      Our 2007 audit found that while the DEA had established internal
control policies for safeguarding seized cash, some of those controls were
not adequately implemented. We recommended the DEA clarify and
strengthen some of those policies. In Finding I, we discuss whether the DEA
took appropriate corrective actions to implement those recommendations.
In the following sections we discuss the results of our testing to determine
whether those corrective actions resulted in improved handling of seized
cash.

Initial Audit Testing (Phase I)

       The database of cash seizures for our audit period included
10,390 adopted and non-adopted seizures from 21 DEA field divisions. For
this audit we only considered 6,701 non-adopted seizures at 169 DEA offices
within 21 field divisions. For our initial audit testing we selected a statistical
sample of 116 cash seizures valued at $35,298,680 from the division’s
universe of 484 cash seizures valued at $56,504,062, from 1 of 7
divisions. 40 The 116 cash seizures sampled were handled by 4 Atlanta
Division offices (Atlanta Division Office, Raleigh Resident Office, Greensboro
Resident Office, and Memphis Resident Office). Our tested sample included
mostly non-adopted seizures made by the DEA and seizures from both open
and closed investigative cases. 41

      For each of the seizures sampled, we interviewed DEA officials and
reviewed documentation from case files to determine the following:

       •    Were two agents present when the cash was discovered?

       •    Did the agents or officers count the cash?


       40
           During our 2007 audit we tested seven DEA divisions, but we excluded the
Atlanta Division from testing because of an ongoing investigative case in that division where
an agent was accused of stealing seized cash.
       41
          Some seizures we selected for testing were seized by state and local law
enforcement agencies, but were included in our sample as seizures made by the DEA
because they had not yet been adopted by the DEA for processing under federal forfeiture
laws and coded as such in the CATS database.

                                             30
      •   Did the agents issue a DEA-12 receipt to the person claiming
          ownership of the currency or, if the cash was seized under a
          warrant, did the agents leave a copy of the warrant on the
          premises?

      •   Were two agents present when the cash was sealed in an evidence
          container, transported to the local DEA office, and transported to
          the bank?

      •   Did the agents or officers complete the proper chain of custody
          documents when transferring custody of the cash to the evidence
          custodian?

      •   Were the chain of custody documents signed and witnessed by two
          law enforcement officers?

      •   Did the evidence custodians record the receipt and disposition of
          cash and cashier’s checks in the HVSRM Ledger?

      •   How long did it take the agents or officers to transport the cash to a
          bank or other financial institution for an official count?

      •   Did the DEA transfer custody of seized cash to the USMS within
          15 working days of seizure?

       Our preliminary testing indicated that the Atlanta Division generally
transported seized currency to the bank or other financial institution for an
official count and transferred custody of the seized funds to the USMS in a
timely manner. However, the division did not always follow or maintain
documentation to show that:

      •   agents followed the DEA’s policy that seized cash should not be
          counted;

      •   agents issued a DEA-12 receipt to the owner of seized cash or left a
          copy of the seizure warrant on the premises;

      •   two agents were present when cash was sealed in an evidence bag
          or other container, transported to the DEA office, and transported
          to the bank;

      •   seized and recovered cash was recorded in a control ledger;


                                       31
      •    chain of custody records were maintained to document the custody
           of the cash from seizure until the cash was taken to the bank; and

      •    the DEA-6, included sufficient details concerning the seizure and
           handling of cash such as the names of the two agents involved in
           the discovery, counting, sealing, and transporting of the currency.

Additional Audit Testing (Phase II)

       In addition to our initial testing in the Atlanta Division, we also tested
566 cash seizures totaling $69,538,990 at 25 DEA offices within 6 additional
DEA divisions. Our sample design included three divisions tested during our
2007 audit and three divisions that were not tested during that audit. We
selected the Houston, Miami, and Washington Divisions because those
Divisions had low rates of compliance with internal controls during our
2007 audit. We selected the New England, Chicago, and San Diego Divisions
to provide broad geographic coverage of audit testing. 42 Within each of the
divisions we tested, we selected cash seizures using statistical sampling
techniques to be representative of all cash seizures from the universe of
seizures made by those divisions. The statistical sample design we used is
presented in Appendix 2. The number and dollar value of seizures we tested
at each DEA office and division are shown in Exhibit 14.




      42
           The overall universe of adopted and non-adopted seizures was 10,390 seizures
valued at $522 million. Our statistical sample was derived from a sample universe of
6,701 non-adopted seizures valued at $408,519,428. From those non-adopted seizures we
selected a statistical sample of 683 seizures valued at $104,875,919. We only tested
682 seizures valued at $104,837,670 because 1 seizure valued at $38,250 was a duplicate
record.

                                          32
Exhibit 14: Number and Dollar Value of Cash Seizures Tested 43

                                                  Number of    Dollar Value of
                    Division/Office                Seizures       Seizures
        Atlanta Division
            Atlanta Division Office                      40       $32,726,512
            Raleigh Resident Office                      22        $1,026,830
            Greensboro Resident Office                   15          $489,967
            Memphis Resident Office                      39        $1,055,371
            Total                                       116      $35,298,680
        Chicago Division
           Chicago Division Office                       50       $16,278,072
           Indianapolis District Office                  35        $1,375,511
           Minneapolis-St. Paul District Office          34        $1,386,227
           Total                                        119      $19,039,810
        Houston Division
           Houston Division Office                       27        $5,948,870
           San Antonio District Office                   26          $453,135
           Austin Resident Office                         5        $2,905,491
           Beaumont Resident Office                       4          $417,121
           Laredo Resident Office                        17        $3,495,126
           Total                                         79      $13,219,743
        Miami Division
           Miami Division Office                         30        $7,958,089
           Orlando District Office                       15        $1,232,680
           Tampa District Office                         21        $1,107,149
           Gainesville Resident Office                   15        $1,585,752
           Jacksonville District Office                  15          $592,521
           Total                                         96      $12,476,191
        New England Division
          Boston Division Office                         31        $1,482,154
          New Bedford Resident Office                     3          $433,649
          Providence Resident Office                     16          $164,992
           Burlington Resident Office                    20          $652,428
          Total                                          70       $2,733,223
        San Diego Division
           San Diego Division Office                     40          $908,423
           Imperial County District Office               26       $11,069,554
           Carlsbad Resident Office                      21        $1,998,191
           San Ysidro Resident Office                     9          $282,003
           Total                                         96      $14,258,171
        Washington Division
          Washington Division Office                     30          $521,822
          Baltimore District Office                      41        $6,871,701
          Charleston Resident Office                     30          $402,036
          Hagerstown Resident Office                      5           $16,292
          Total                                         106       $7,811,852
        Grand Total                                     682     $104,837,670
       Source: Statistical sample taken from CATS



  43
       Totals may differ slightly from individual office amounts due to rounding.

                                             33
Results of Audit Testing

       As explained above, 21 of 29 DEA offices that we tested reviewed and
amended their cash-seizure files while our audit was underway. 44 DEA staff
at those offices prepared 118 amended Reports of Investigation and
44 other memoranda that provide additional details about the seizure,
including the chain of custody of the seized cash. Because the DEA prepared
the amended reports and memoranda an average of more than 231 days
after law enforcement officers seized the currency, we are concerned that
those documents may not accurately reflect the activities surrounding the
seizure of the cash. Thus, we report our test results based on the cash-
seizure files as they existed before the start of our audit in the text of our
report. The footnotes take into account DEA’s file changes during the audit.

      Our 2009 audit found the DEA generally increased its rate of
compliance with controls established to safeguard seized cash. However,
DEA staff did not always follow or document that they had followed those
controls for all the seizures we tested. The detailed results of our testing of
controls for the 683 sampled seizures are contained in the sections that
follow.

       Presence of a Witnessing Agent or Officer When Cash is Seized

       When an agent locates cash, the agent is required to immediately
summon a witnessing agent or officer. This control is essential to ensure
that seized cash is always handled in the presence of two or more agents or
officers to minimize the risk that seized cash is lost or stolen. For the prior
and current audits, we reviewed the DEA-6 and other documentation from
the DEA case files to determine if DEA agents followed the control. Exhibit
15 shows that the DEA increased its overall rate of compliance with this
control from 69 percent in the 2007 audit to 93 percent in the 2009 audit. 45




       44
            The eight DEA offices where we saw no amended DEA-6s or other memoranda
prepared during our audit were the: (1) Austin Resident Office, (2) Beaumont Resident
Office, (3) Jacksonville District Office, (4) Boston Division Office, (5) New Bedford Resident
Office, (6) Carlsbad Resident Office, (7) Charleston Resident Office, and (8) Hagerstown
Resident Office.
       45
           Based on the 2009 amended cash-seizure documents, the DEA complied with this
control in 96 percent of the seizures we tested.

                                              34
            Exhibit 15: Presence of a Witnessing Agent or Officer
                        when Cash was Discovered 46



                     2007 Audit                   69%                    12%      19%
    All
    DEA Offices
    Tested                                                                            3%
                     2009 Audit                          93%                            4%



                                            Yes    Could Not Determine      No

Source: OIG analysis of DEA records

       Within the 29 DEA offices tested, the compliance rate ranged from
67 percent in the Minneapolis-St. Paul office to 100 percent in 19 other DEA
offices. The 2007 and 2009 audit test results for each office and division
tested are presented in Appendix 4.

       Overall, the DEA has improved at following or documenting that it
followed the internal control requiring the presence of a witnessing agent or
officer when cash is discovered. Although the DEA’s rate of compliance with
this control has reached 93 percent, there is still room for improvement in
the DEA’s compliance with this critical control.

       Counting Seized Cash

       During the 2007 audit, DEA policy required that the seizing and
witnessing agents or officers count the cash upon seizure if the amount of
seized currency was such that an immediate count was “practical.”
However, the DEA Agents Manual did not define when it was “practical” to
count seized cash. We recommended in our 2007 audit report that the DEA
clarify its policy on counting seized cash and clearly define the circumstances
under which it is and is not required to count cash at the time of seizure.

       46
            “Yes” means the DEA-6, or other documentation showed that a witnessing agent
or officer was involved. “No” means the DEA-6 or other documentation showed that only
one agent or officer was involved. “Could not determine” means the DEA-6 or other
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was involved. Based on our statistically valid projected point estimates, the
percentages reported in this analysis of the sampled items are within plus or minus
1 percent of what they would have been if the entire population had been tested. The
percentages reported are within 95 percent of the confidence intervals of the projected point
estimates.

                                            35
       As explained earlier, the DEA issued a new policy in April 2007 which
stated that agents should not count seized currency at the time of seizure.
Upon locating currency, agents are to immediately place it in an evidence
bag. Two law enforcement officers should transport the bag to the field
office where it will be secured immediately or to the bank or other financial
institution for an official count and conversion to a cashier’s check or
deposited into an account maintained by the USMS.

      During our 2007 audit, documentation demonstrated that agents
counted cash for 16 percent of the seizures tested when the DEA’s policy
was to count cash when it was practical to do so.

      During our 2009 audit, we tested 682 cash seizures at 29 DEA offices
and found documentation demonstrated that agents counted cash for
5 percent of the seizures tested when DEA’s policy was to not count seized
cash. The results of our 2007 and 2009 audits are shown in Exhibit 16.

                Exhibit 16: Agents Counted the Seized Cash 47



                     2007 Audit        16%    15%                   69%
     All
     DEA Offices
     Tested                            1%
                     2009 Audit       5%                     94%



                              Yes      Could Not Determine   No

Source: OIG analysis of DEA records




       47
            During our 2007 audit, the DEA required agents to count seized cash when it was
practical to do so. During our 2009 audit, the DEA’s policy was that agents should not
count seized cash. For the test of whether agents counted the seized cash, “Yes” means the
DEA-6 or other documentation showed the agents counted the cash. “No” means the DEA-6
or other documentation showed that agents did not count the cash. “Could not determine”
means the DEA-6 or other documentation did not provide sufficient information to confirm
whether the agents counted the cash. For our 2009 test results, “No” means agents
complied with the policy to not count seized cash. Based on our statistically valid projected
point estimates, the percentages reported in this analysis of the sampled items are within
plus or minus 1 percent of what they would have been if the entire population had been
tested. The percentages reported are within 95 percent of the confidence intervals of the
projected point estimates.

                                               36
      Agents sometimes counted seized cash to determine whether the
amount being seized met the DEA’s minimum threshold for seizure and
when, in conjunction with a joint law enforcement operation, another agency
required that a count be conducted. 48 Given these reasons for counting
seized cash, we considered that a noncompliance rate of 5 percent was
reasonable.

       Exhibit 16 shows that in 94 percent of the seizures we tested, the DEA
complied with the new control to not count the seized cash. Among the
29 DEA offices tested, the compliance rate ranged from 67 percent in the
New Bedford, Massachusetts, office, to 100 percent in 19 other DEA
offices. 49 The five offices we tested in the Miami Division and the four offices
we tested in the San Diego Division were in 100 percent compliance with this
control. However, other Divisions did not consistently implement the control
across the Division. For example, agents complied with the policy in
72 percent of the seizures we tested in the Baltimore District Office in the
Washington Division, while agents complied with the policy in 100 percent of
the seizures we tested in the Charleston Resident Office in the Washington
Division. The 2007 and 2009 audit test results for each office and division
tested are presented in Appendix 5.

      Providing a Receipt to the Owner of Seized Cash

       According to the DEA Agents Manual, DEA agents are required to issue
a DEA-12, to the person from whom the cash was seized showing that “an
undetermined amount of U.S. currency pending an official count” was seized.
The owner or person claiming ownership should be asked to sign the receipt.
If the individual refuses to sign the receipt, this fact should be noted on the
DEA-12 and the DEA-6. If no one claims ownership of the cash, this fact
should also to be noted on the DEA-12 and DEA-6. When cash is seized as
the result of a warrant, agents are not required to issue a DEA-12. Instead,
the agents are required to leave a copy of the warrant on the premises

      48
            According to the Agents Manual, Section 6654.48(4), the minimum amount that
may be seized without supervisory approval is $2,000 if the person from whom the currency
is seized is being arrested for a drug-related felony and $5,000 if the person from whom
currency is being seized is not being arrested for a drug-related felony.
      49
           We tested three seizures in the New Bedford office. Agents counted the currency
in one seizure and did not count the currency in two seizures. Offices that were in
100 percent compliance with the policy were: Providence, Rhode Island; Miami, Orlando,
Tampa, Gainesville, and Jacksonville, Florida; San Diego, Imperial County, Carlsbad, and
San Ysidro, California; Chicago, Illinois; Washington, DC; Charleston, West Virginia;
Hagerstown, Maryland; Memphis, Tennessee; and Austin, Beaumont, San Antonio, and
Laredo, Texas.

                                           37
showing either the amount of cash seized or that an undetermined amount
of cash was seized. To test this control, we reviewed the DEA-6, DEA-12,
and other documentation from the DEA case files.

       Exhibit 17 shows that the DEA increased its rate of compliance with
this control from 52 percent in the 2007 audit to 65 percent in the
2009 audit. Although the DEA has improved since 2007, further
improvement is needed because the DEA still was not complying with this
control in 35 percent of the case files we reviewed. 50

            Exhibit 17: Agents Provided a Receipt or Warrant 51



                    2007 Audit                52%                        47%
      All                                                    1%
      DEA Offices
      Tested
                    2009 Audit                     65%                       35%


                             Yes      Could Not Determine   No

Source: OIG analysis of DEA records

     Among the 29 DEA offices we tested, the compliance rate ranged from
28 percent in the Baltimore District Office to 100 percent in the New Bedford
Resident Office, Jacksonville District Office, and Carlsbad Resident Office. 52
The detailed results for each office and division we tested are shown in
Appendix 6.
       50
         Based on the 2009 amended cash-seizure documents, the DEA’s rate of
compliance with this control was also 65 percent.
       51
           “Yes” means the DEA-12, DEA-6, or other documentation showed that agents
provided a receipt or warrant to the owner of the cash. “No” means the DEA-12, DEA-6, or
other documentation showed that agents did not provide a receipt or warrant to the owner
of the cash. “Could not determine” means the DEA-6 did not contain sufficient information
to confirm whether the agents provided a receipt or warrant to the owner of the cash, and
the DEA provided no other documentation to show a receipt or warrant was provided to the
owner. Based on our statistically valid projected point estimates, the percentages reported
in this analysis of the sampled items are within plus or minus 1.5 percent of what they
would have been if the entire population had been tested. The percentages reported are
within 95 percent of the confidence intervals of the projected point estimates.
       52
           We did not apply this audit test when documentation showed that: (1) a state or
local law enforcement agency seized the currency, (2) the DEA acquired the currency during
an undercover operation, or (3) another DEA Division seized the currency and did not
forward the complete case file documentation to the office we tested.
                                              38
      Overall, the DEA improved at following or documenting that agents
followed the requirement to issue a DEA-12 receipt or warrant.

      Presence of a Witnessing Agent or Officer When Handling Seized Cash

      The DEA’s controls require that a witnessing agent or officer be
present when the cash is sealed in an evidence envelope or other suitable
container, transported to the bank or other financial institution for an official
count, or to a DEA office for safekeeping. We reviewed the DEA-6 and other
documentation from the DEA case files to determine if the DEA followed
these controls. Exhibit 18 shows a summary of our test results for the
2007 and 2009 audits. Details for the 7 divisions and 29 offices tested
during the 2009 audit are presented in Appendices 7, 8, and 9.




                                       39
            Exhibit 18: Presence of a Witnessing Agent or Officer
              at Various Stages of the Cash-Handling Process 53



                   2007 audit       21%                         75%                      4%
 Witness Present
 During Sealing
                   2009 audit             43%                            54%             3%

 Witness Present 2007 audit                        63%                     26%      11%
 During Transport
 to the Bank      2009 audit                             81%                     11% 8%

 Witness Present 2007 audit           30%                      49%                21%
 During Transport
 to the DEA       2009 audit                    60%                      24%       16%


                                        Yes        Could Not Determine     No

Source: OIG analysis of DEA documents

      Our 2007 and 2009 audit results for each of these three tests are
discussed below.

     Presence of a Witness During Sealing. As shown in Exhibit 18, the
DEA increased its rate of compliance with this control from 21 percent in the
2007 audit to 43 percent in the 2009 audit. 54 The compliance rate ranged
from 23 percent in the Houston Division to 73 percent in the Atlanta


       53
            “Yes” means the DEA-6 or other documentation showed that a witnessing agent
or officer was involved. “No” means the DEA-6 or other documentation showed that only
one agent or officer was involved. “Could not determine” means the DEA-6 or other
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was involved. Based on our statistically valid projected point estimates, the
percentages reported in this analysis of the sampled items ranged from plus or minus:
(1) 2.5 percentage points of what they would have been if the entire population had been
tested for the presence of a witness during the sealing of the currency, (2) 2 percentage
points of what they would have been if the entire population had been tested for the
presence of a witness present during the transport of the currency to the bank, and
(3) 1 percentage point of what they would have been if the entire population had been
tested for the presence of a witness during the transport of the currency to the DEA. The
percentages reported are within 95 percent of the confidence intervals of the projected point
estimates.
       54
         Based on the 2009 amended cash-seizure documents, the DEA’s overall rate of
compliance with this control was 49 percent.

                                              40
Division. Within the individual offices tested, the compliance rate ranged
from 0 percent in the Hagerstown Resident Office, Austin Resident Office,
and Beaumont Resident Office to 100 percent in the New Bedford Resident
Office and Gainesville Resident Office. Details for the 7 divisions and
29 offices we tested are presented in Appendix 7.

      Overall, the DEA improved at following or documenting that it followed
the internal control requiring the presence of a witness when cash is sealed
in an evidence bag or other container.

     Presence of a Witness During Transport to a Bank. Exhibit 18 shows
the DEA increased its overall rate of compliance with this control from
63 percent in the 2007 audit to 81 percent in the 2009 audit. 55 The
compliance rate ranged from 59 percent in the New England Division to
97 percent in the San Diego Division. Within individual offices tested, the
compliance rate ranged from 0 percent at the Hagerstown and Beaumont
Resident Offices to 100 percent in eight offices. 56 Details for the 7 divisions
and 29 offices we tested are presented in Appendix 8.

      Overall, the DEA has improved at following or documenting that it
followed the internal control requiring the presence of a witness during
transport to a bank or other financial institution.

      Presence of a Witness During Transport to the DEA. Exhibit 18 shows
the DEA increased its overall rate of compliance with this control from
30 percent in the 2007 audit to 60 percent in the 2009 audit. 57 The
compliance rate ranged from 29 percent in the Washington Division to
95 percent in the Atlanta Division. Within individual offices, the compliance
rate ranged from 0 percent in the Hagerstown Resident Office and Beaumont




       55
         Based on the 2009 amended cash-seizure documents, the DEA’s overall rate of
compliance with this control was 87 percent.
       56
           At the Hagerstown Resident Office we tested five seizures. At the Beaumont
Resident Office we tested four seizures. DEA offices with a 100 percent compliance rate
were located in New Bedford, Massachusetts; Burlington, Vermont; Orlando and
Jacksonville, Florida; San Ysidro, California; Atlanta, Georgia; Raleigh, North Carolina, and
Austin, Texas.
       57
         Based on the 2009 amended cash-seizure documents, the DEA’s overall rate of
compliance with this control was 71 percent.

                                              41
Resident Office to 100 percent in five offices. 58 Details for the 7 divisions
and 29 offices we tested are presented in Appendix 9.

      Overall, the DEA improved at following or documenting that it followed
the internal control requiring the presence of a witness when transporting
seized cash to the DEA.

      For each of these tests the DEA increased its rate of compliance since
the 2007 audit. Having a witness present during sealing of seized cash
increased from 21 percent in the 2007 audit to 43 percent in the 2009 audit.
Having a witness present during transport of seized cash to a bank increased
from 64 percent in the 2007 audit to 81 percent in the 2009 audit. Having a
witness present during transport of seized cash to the DEA increased from
30 percent in the 2007 audit to 60 percent in the 2009 audit. While the DEA
has improved its performance, there still is significant non-compliance with
each of these three critical controls. Thus, further improvement is needed.

       Recording Cash Seizures in the High-Value Seized and Recovered
       Monies Ledger (HVSRM)

      Beginning January 1, 2005, the DEA required that all high-value seized
items, including cash, cashier’s checks, and recovered Official Advanced
Funds, valued at $1,000 or more be recorded in a HVSRM ledger. The
HVSRM ledger should be used to record the receipt, transfer, and disposition
of the high-value items.

       Exhibit 19 shows that the DEA increased its rate of compliance with
this control from 19 percent in the 2007 audit to 77 percent in the
2009 audit. 59




       58
          We tested five seizures at the Hagerstown Resident Office and four seizures at
the Beaumont Resident Office. The offices where the rate of compliance was 100 percent
were the: (1) New Bedford Resident Office, (2) Gainesville District Office, (3) San Ysidro
Resident Office, (4) Raleigh Resident Office, and (5) Austin Resident Office.
       59
         Based on the 2009 amended cash-seizure documents, the DEA’s overall rate of
compliance with this control was also 77 percent.

                                             42
       Exhibit 19: Recording Seized Cash in the HVSRM Ledger 60


                     2007 Audit       19%                           81%
    All
    DEA Offices
    Tested           2009 Audit                          77%                          23%

                                             Yes    No
Source: OIG analysis of DEA records

       Among the 29 DEA offices we tested, the compliance rate with this
control ranged from 0 percent in the Chicago Division Office and the Tampa
District Office to 100 percent in 17 offices. 61 The detailed results for each
office and division we tested are shown in Appendix 10. Overall, the DEA
improved at following the control requiring that seized cash of $1,000 or
more be recorded in the HVSRM ledger.

       We asked DEA officials at the Chicago Division Office and Tampa
District Office why they did not use the HVSRM ledger to record the receipt
and disposition of seized funds. An official at the Chicago Division Office told
us his office was in compliance with DEA’s written policy because agents
recorded seized cash in a temporary overnight ledger; however, seized cash
must also be recorded in a HVSRM ledger. 62 An official at the Tampa District

       60
           “Yes” means documentation showed that the cash seizure tested was recorded on
the HVSRM ledger. “No” means documentation showed that the cash seizure tested was not
recorded on the HVSRM ledger. Based on our statistically valid projected point estimates,
the percentages reported in this analysis of the sampled items are within plus or minus
1 percentage point of what they would have been if the entire population had been tested.
The percentages reported are within 95 percent of the confidence intervals of the projected
point estimates.
       61
            The offices with a 100 percent rate of compliance were the: (1) New Bedford
Resident Office, (2) Providence Resident Office, (3) Burlington Resident Office,
(4) Gainesville District Office, (5) Jacksonville District Office, (6) Imperial County District
Office, (7) Indianapolis District Office, (8) Minneapolis-St. Paul District Office, (9) Charleston
Resident Office, (10) Atlanta Division Office, (11) Memphis Resident Office, (12) Raleigh
Resident Office, (13) Greensboro Resident Office, (14) Houston Division Office, (15) San
Antonio District Office, (16) Austin Resident Office, and (17) Beaumont Resident Office.
       62
            The Chicago Division Office began using a HVSRM ledger in January 2005, but the
ledger fell into disuse. During the 16-month period covered by our audit, DEA staff made
only five entries in that ledger. Two of those entries were for seized or recovered monies,
two entries were for seized vehicles, and one entry was for a seized watch. After our audit,
the Chicago Division Office started using the HVSRM ledger again to be in compliance with
DEA’s policy.

                                               43
Office told us his office did not use the ledger because they did not have
one. The requirement to record seizures valued at $1,000 or more in the
HVSRM ledger has been in effect since January 1, 2005.

       Not recording cash in the HVSRM ledger can lead to uncertainty about
the chain of custody and difficulty in prosecuting cases. We found numerous
instances where other chain of custody forms were not completed making it
difficult or impossible to identify who had custody of the cash. Not using the
ledgers or other chain of custody forms also increases the risk of loss or
theft of seized cash.

      Timeliness of Transporting Seized Cash to the Bank or Other Financial
      Institution

      During the 2007 audit, DEA policy required that agents transfer seized
cash to the bank for an official count and conversion to a cashier’s check as
soon as arrangements could be made with the bank. Our audit
recommended the DEA research best practices associated with timely
transport of seized cash to banks, and implement those practices as widely
as possible. In response to that recommendation, the DEA implemented a
new policy requiring that currency be transported to the bank or other
financial institution within 5 working days of seizure.

      During the 2007 audit we found the DEA transported seized cash to
the bank in an average of 3.2 working days after seizure. For the
2009 audit, we tested 682 cash seizures by reviewing documentation
contained in the DEA case files and found the DEA transported seized cash to
the bank in an average time of 3.3 working days after seizure, which is
0.1 working day longer than during the 2007 audit. We attribute the slight
increase to the difficulties some DEA offices had making appointments with
the armored car company to count and deposit seized cash. As we
explained in Finding I, in 2006 the DEA began participating in a Treasury
program whereby agents were to transport seized cash to an armored car
company where its staff counted and deposited seized cash directly into an
account maintained by the USMS.

      During our 2009 audit, 13 of 29 offices we tested were using the
armored car company to count and deposit seized cash. However, six of
those offices took longer than 5 working days to transport seized cash to a
bank or other financial institution. Only 1 of 16 offices that did not use the
armored car company did not transport seized cash to a bank or other
financial institution within 5 working days of the seizure.


                                      44
      Exhibit 20: Average Number of Working Days from Seizure
                     to Transport of Cash to a Bank
              or Other Financial Institution (by division) 63

                                     2009 Audit

      San Diego Division           1.9                                Average Time
                                                                      for the Division
        Houston Division             2.4
                                                                      Average Time
            Atlanta Division               3.2
                                                                      for all 7
                                                                      Divisions
 Average for 7 Divisions                   3.3

   New England Division                     3.6

        Chicago Division                    3.6

    Washington Division                           4.5

             Miami Division                        4.8


Source: OIG analysis of DEA documents

      Exhibit 20 shows that three of the seven divisions we tested averaged
below that of the seven divisions combined and the other four divisions had
average times ranging from 3.6 to 4.8 working days. Results for individual
DEA offices ranged from 1.1 working days at the Raleigh Resident Office to
7.6 working days at the Washington Division Office. Exhibit 22 shows offices
that used the armored car company took an average of 4.0 working days
while individual offices that did not use the armored car company took an
average of just 2.8 working days to transport seized cash to banks.

    A 2008 internal DEA study found that some divisions had difficulty in
timely transporting seized cash to banks and other financial institutions
because banks restricted the DEA from making deposits on certain days, the
DEA did not always have sufficient staff to transport the currency, or the
DEA could not coordinate with the armored car company to count and
deposit seized currency. The detailed results for each office we tested are
shown in Appendix 11.




       63
           In this exhibit and the exhibit that follows, we did not include our 2007 audit test
results because we did not test the same seven divisions in both audits.

                                                 45
      The risk of mishandling all seized cash and particularly cash that is not
counted prior to transportation to the bank increases the longer the cash is
held. Although the 3.3 working days is within the DEA’s 5-working-day
policy for transporting seized cash to banks, further improvement in
timeliness would reduce the risks to the uncounted cash. We believe the
DEA should continue its efforts to ensure all DEA offices timely transport
seized cash to a bank or other financial institution for an official count and
conversion to a cashier’s check or deposit into the SADF.

      Timeliness of Transferring Seized Cash to the USMS

       To minimize the time cash is held, the DEA requires that seizures
subject to forfeiture and not retained as evidence be transferred to the
custody of the USMS within 15 working days of seizure. To test this control
we reviewed case file records showing the date cash was seized and the
Form DEA-48a (Disposition of Non-drug Evidence) or other documentation
showing the date cash was transferred to the USMS to determine if the DEA
followed this control. For offices that used an armored car company to count
and directly deposit seized cash to the USMS we reviewed the bank deposit
slip showing the date cash was transferred to the USMS.

      During the 2007 audit, we found the DEA transferred seized cash to
the custody of the USMS in an average of 10.6 working days from seizure.
For the 2009 audit, we tested 682 cash seizures and found the DEA
generally transferred seized cash to the USMS in a timely manner. Overall,
the DEA decreased the average time from seizure to transfer of the seized
cash to the USMS from 10.6 working days during the 2007 audit to
10.0 working days during the 2009 audit.

      Exhibit 21 shows that 4 of 7 divisions had average times of 2.1 to
8.7 working days and the other 3 divisions had average times ranging from
10.6 to 13.0 working days. While the overall averages for all 7 divisions
tested were within the 15-working-day limit established by the DEA, we
found that 5 of the 29 individual offices tested exceeded the limit for the
cash seizures we tested. As shown in Appendix 12, the average time from
seizure to transfer of the cash to the USMS for these 29 offices ranged from
1.3 to 25.9 working days.




                                      46
             Exhibit 21: Average Number of Working Days from
                  Seizure to Transfer of Cash to the USMS


                                          2009 Audit

       San Diego Division      2.1

        Houston Division                5.8

            Miami Division               6.2

           Atlanta Division                    8.7

  Average for 7 Divisions                           10.0

           Chicago Division                         10.6

     Washington Division                               11.9

    New England Division                                   13.0


                       Average Time for the Division       Average Time for all 7 Divisions

Source: OIG analysis of DEA records

       Some DEA offices, such as all four San Diego Division offices we
tested, used the armored car company to count and deposit seized funds
directly into a bank account maintained by the USMS instead of obtaining a
cashier’s check from a bank and then delivering the check to the USMS. All
four of those offices transferred custody of seized funds to the USMS in an
average of less than 15 working days. The five DEA offices that exceeded
the 15-day limit did not use the armored car company to count and transfer
custody of seized funds to the USMS by wire transfer or direct deposit
process.

      Exhibit 22 shows offices that used an armored car company took an
average of 4.0 working days from the date of the seizure to transport seized
cash to the armored car company for an official count and an average of
5.4 working days from the date of the seizure to transfer custody of the
seized funds to the USMS. 64 Offices that did not use the armored car

      64
           DEA offices that used the armored car company were to notify the armored
company when agents had made a seizure and armored car company staff would count and
deposit the seized cash within 24 hours. The 4.0 working days to count the cash and
5.4 working days to transfer the cash to the USMS are averages for the seizures we tested
at 13 offices that used the armored car company.

                                               47
company took 2.8 working days and 13.7 working days respectively to
complete these activities.

         Exhibit 22: Using an Armored Car Company to Count
                       and Deposit Seized Cash

                                   2009 Audit


                 Offices that used an          4.0
                armored car company
                                                5.4
                  (13 offices tested)


            Offices that did not use an    2.8
              armored car company
                                                      13.7
                (16 offices tested)


                 Working days between seizure and an official count
                 Working days between seizure and transfer to the USMS

        Source: OIG analysis of DEA documents

       Offices that used the armored car company took 1.2 working days
longer to have seized currency counted but 8.3 working days less to have
custody of seized currency transferred to the USMS than offices that did not
use an armored car company. Offices that did not use an armored car
company took longer to transfer seized funds to the USMS because those
offices generally converted seized cash to a cashier’s check and then
transmitted the cashier’s check to the USMS. All DEA offices that used the
armored car company reported that they had difficulty in making
appointments with the armored car company to count seized cash.

      Our 2007 audit recommended the DEA ensure that seized cash is wire-
transferred to the USMS whenever possible. As discussed earlier, the DEA
had problems in implementing this recommendation, including making
appointments with the armored car company to count seized cash. We will
continue to follow up with the DEA on our 2007 audit recommendation that
the DEA ensure seized cash is wire-transferred to the USMS whenever
possible. The DEA can obtain currency deposit services from banks and
other financial institutions, including counting and transferring custody of
seized cash to the USMS by wire transfer or direct deposit.




                                          48
       Maintaining Chain of Custody Records

       The DEA Agents Manual specifies that all due care must be exercised
to create an unimpeachable record of the chain of custody and processing of
high-value items. Thus, DEA agents and officials are required to use a
DEA-12, signed by the transferring agent and witnessed by another law
enforcement person, to document the transfer of any high-value item. The
DEA established this requirement to avoid any discrepancies, accusations of
theft, or misappropriation of the seized item.

      In some cases, the manual allows the transfer of cash using the
DEA-12 or another acceptable form, such as the DEA-7a, or SSF. 65 When
cash is seized and taken to the local DEA office during regular duty hours,
the agent is to release custody of the seized cash to the evidence custodian
using a DEA-12, DEA-7a, or SSF. After regular duty hours, the agent is
required to place the cash in temporary overnight storage using a DEA-12 or
DEA-7a and make an entry in the temporary overnight ledger. 66 Copies of
the DEA-12, DEA-7a, and SSF documenting the delivery of the cash are to
be put in the case files and preserved as part of the chain of custody
records.

       Exhibit 23 shows the DEA increased its rate of compliance with this
control from 26 percent in the 2007 audit to 69 percent in the 2009 audit. 67
During the 2009 audit, the compliance rate for transferring seized funds to
the evidence custodian using the proper form ranged from 32 percent in the
Chicago Division to 95 percent in the Atlanta Division. Within individual DEA
offices the compliance rate ranged from 0 percent in the Indianapolis District
Office and the Miami Division Office to 100 percent in 8 offices. 68 Although

       65
          The SSF is a five-page form that includes case and asset information, names and
addresses of potential claimants, and other details such as probable cause and chain of
custody information.
       66
           According to the DEA Agents Manual, temporary storage refers to a safe, locker,
or other secure place. Many DEA offices have bank style night-drops or similar facilities for
overnight temporary storage of high-value items such as cash. Agents are not permitted to
store seized currency in locked desks, unoccupied vehicles, or hotel rooms.
       67
          Based on the 2009 amended files, the DEA’s rate of compliance with this control
was also 69 percent.
       68
            The offices were the: (1) Raleigh Resident Office, (2) Greensboro Resident
Office, (3) Beaumont Resident Office, (4) Jacksonville Resident Office, (5) New Bedford
Resident Office, (6) Burlington Resident Office, (7) Carlsbad Resident Office, and
(8) San Ysidro Resident Office.

                                             49
overall the DEA made substantial improvement since the 2007 audit,
compliance varied widely among offices and further improvement is still
needed.

            Exhibit 23: Transfer of Cash to the Evidence Custodian
                   Using the Proper Chain of Custody Form 69



                   2007 Audit         26%                         74%
     All
     DEA Offices
     Tested
                   2009 Audit                      69%                        31%


                                             Yes   No

Source: OIG analysis of DEA records

        The detailed results for each office and division we tested are shown
in Appendix 13. Overall, the DEA has shown significant improvement at
following or documenting that DEA staff followed this control.

       Failure to maintain the proper chain of custody records unnecessarily
increases the risk that seized cash can be misappropriated. We identified
48 cash seizures in which the risk of misappropriation of the uncounted cash
was exceptionally high because: (1) the agents did not take the cash
directly to the bank or other financial institution for an immediate count,
(2) the agents did not document the transfer of the cash to the evidence
custodian using a DEA-12 or other appropriate chain of custody form, and
(3) the seized cash was not recorded in the temporary overnight ledger. As
shown in Exhibit 24, the location of these 48 cash seizures totaling about
$10.3 million was not documented from 1 to 23 days.




       69
           “Yes” means documentation showed that the agents transferred the seized cash
to the evidence custodian using a DEA-12 or other appropriate form. “No” means
documentation showed that the agents transferred the seized cash to the evidence
custodian without using a DEA-12 or other appropriate form. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
are within plus or minus 1 percent of what they would have been if the entire population
had been tested. The percentages reported are within 95 percent of the confidence
intervals of the projected point estimates.

                                            50
       Exhibit 24: Seizures with Significant Risk of Loss or Theft

                               Number                           Days
                                            Dollar Value
                                  of                         Unaccounted
                                            of Seizures
                Division       Seizures                          For
             Atlanta                2              $26,864        2 to 4
             Chicago                9           $2,482,583       1 to 22
             Houston                2              $29,500        2 to 7
             Miami                 23           $7,660,191       1 to 16
             New England            3              $16,255        1 to 6
             San Diego              2               $5,027        1 to 5
             Washington             7              $99,034       1 to 23
             Totals                48       $10,319,454         1 to 23
            Source: OIG analysis of DEA records

      Supervisors at five of these divisions had safes in their offices where
they secured currency pending an official count. 70 However, we found no
evidence that these supervisors recorded cash seizures on a ledger and
obtained a DEA-12 or other chain of custody form to document receipt of
seized cash from the agents.

      Training and Website Guidance

       As discussed in the Prior Audits, Inspections, and Reviews section of
this report, the DEA: (1) reviewed and updated its training programs to
ensure staff involved in the handling of cash seizures were properly trained;
(2) updated the Frequently Asked Questions (FAQ) section of its electronic
library with new and updated policies for the handling of evidence including
seized and recovered monies; and (3) required that newly appointed
evidence custodians attend training on evidence handling procedures as
soon as practical.

      We reviewed the content of the updated training programs and the
FAQ section and found that they appeared to cover the problem areas that
we identified during the 2007 audit.

      To determine if the evidence custodians had attended and were using
the training and website to improve their knowledge of handling seized cash,
we interviewed the evidence custodians at the seven divisions we tested.

      70
          Divisions where supervisors had their own safes were the: (1) Chicago Division,
(2) Houston Division, (3) Miami Division, (4) San Diego Division, and (5) Washington
Division.

                                           51
We found that 33 of 59 evidence custodians we interviewed (about
56 percent) had attended evidence custodian training and 50 of 56 evidence
custodians we interviewed (about 89 percent) were familiar with the FAQ
document available on the DEA’s electronic library. 71 During the 2007 audit,
only 16 of 72 evidence custodians (about 22 percent) had received current
training but most knew about the FAQ document in the DEA electronic
library. It appears that since the 2007 audit, agents and evidence
custodians are better trained to handle seized and recovered monies;
however the DEA should ensure all staff who handle seized and recovered
monies receive the updated training as soon as practical and are familiar
with the FAQ segment of the DEA electronic library.

Conclusion

       We found that since the 2007 audit the DEA generally increased its
rate of compliance with controls for safeguarding seized cash by
documenting more often in the case files that it: (1) ensured a witness was
present at various phases of the cash seizure and handling process,
(2) followed the DEA’s policy for counting seized cash, (3) prepared the
appropriate cash-seizure documentation, (4) recorded the seizures in the
appropriate ledgers, and (5) transferred the currency to the USMS more
timely. Exhibit 25 shows our 2007 and 2009 audit results for the 10 controls
we tested.




      71
          During our 2007 audit, only about 22 percent of the evidence custodians had
attended the mandatory training program and about 85 percent were familiar with the FAQ.

                                          52
                      Exhibit 25: 2007 and 2009 Audit Results

                                             2007 Audit      2009 Audit
        Internal Control Tested                                               Difference
                                              Results         Results
 A witness was present at the discovery of
                                                69%              93%            + 24%
 the currency.
                                   72
 Agents counted the seized cash.                16%               5%         See footnote
 Agents issued a receipt or warrant.            52%              65%           + 13%
 A witness was present during the sealing
                                                21%              43%            + 22%
 of the currency.
 A witness was present during transport
                                                63%              81%            + 18%
 to a bank or other financial institution.
 A witness was present during transport
                                                30%              60%            + 30%
 to the DEA.
 Staff recorded the seizure in the High
 Value Seized and Recovered Monies              19%              77%            + 58%
 Ledger.
 Agents transferred the currency to the
 evidence custodian using the proper            26%              69%            + 43%
 form.
 Average number of working days from
                                                 3.2             3.3             + 0.1
 seizure until transport to a bank or other
                                            working days     working days     working day
 financial institution.
 Average number of working days from
                                                10.6             10.0           - 0.6
 seizure until the currency was
                                            working days     working days    working days
 transferred to the custody of the USMS.
Source: OIG analysis of DEA documentation

       Our 2009 audit test results show that it took the DEA 0.1 working day
longer to transport seized cash to a bank or other financial institution than it
took during the 2007 audit. We attribute the slight increase to the
difficulties that many DEA offices had in making appointments with the
armored car company to count and deposit seized cash. However, using the
armored car company helped the DEA reduce the time it took to transfer
seized cash to the USMS. We recommend the DEA continue its efforts to
speed the transfer of uncounted seized cash to a bank or other financial
institution and the USMS. Our 2009 audit found that since the 2007 audit
the DEA has improved at following other controls for seized cash; however, a
sizable percentage of DEA agents still did not follow or document that they
had followed those controls. The detailed results for the 7 divisions and
29 offices we tested are shown in Appendix 4 through Appendix 13.



       72
            During the 2007 audit the DEA’s policy was to count seized cash when it was
practical to do so. During the 2009 audit the DEA’s policy was to not count seized cash.
Thus, we could not measure the difference in the rate of compliance.

                                            53
      Given the volume of cash seizures handled by DEA staff and the
importance of controls to safeguard seized cash, we are concerned that
many agents still do not consistently follow or document that they follow
those controls. The DEA should establish a permanent system to monitor
and achieve greater compliance with controls for safeguarding seized cash.

      We also found that for 148 of 682 seizures we tested (22 percent), the
DEA reviewed the cash-seizure files during our audit and added or changed
the cash-seizure documentation to better explain the handling of the seized
cash. The DEA did not identify and correct those deficiencies in the cash-
seizure documentation until an average of more than 293 days after the
date of the seizure. Not conducting complete and timely reviews of the
cash-seizure files can lead to errors in the cash-seizure documentation which
can make it difficult for the DEA to successfully prosecute cases. We believe
the DEA needs to implement a process that ensures the initial DEA-6,
Reports of Investigation, and other cash-seizure documents show complete
and accurate chain of custody information, including the identity of the law
enforcement officers present at each phase of the cash seizure and handling
process.

Recommendations

We recommend that the DEA:

1. Implement a policy that defines how quickly supervisors should review
   case file documentation pertaining to cash seizures after preparation by
   an agent to ensure the documentation is complete and accurate.

2. Implement a plan to ensure agents receive periodic training on internal
   controls for handling seized cash and preparing cash-seizure
   documentation, including instruction on preparing complete and accurate
   DEA-6, Reports of Investigation, and maintaining copies of all cash-
   seizure documentation in the case files.

3. Ensure all evidence custodians attend DEA’s mandatory training program.

4. Implement a plan to ensure all DEA staff who supervise cash handling
   activities receive periodic training on reviewing cash-seizure
   documentation, including DEA-6, Reports of Investigation, to ensure they
   include the identity of the law enforcement personnel present from the
   acquisition to the disposal of the seized cash.



                                     54
5. Design and implement a permanent system to monitor and improve
   compliance with each of the controls we tested.




                                  55
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

      The Federal Managers Financial Integrity Act of 1982 requires agencies
to establish and maintain internal controls. The Office of Management and
Budget Circular No. A-123, Management’s Responsibility for Internal Control,
defines management’s responsibilities related to internal controls. The
DEA’s controls for handling of seized cash are established by applicable
sections of the DEA Agents Manual. To obtain reasonable assurance that the
DEA complied with laws and regulations that, if not complied with, could
have a material effect on the DEA’s handling of seized cash, we tested the
DEA’s compliance with DEA guidelines for handling seized cash contained in
the following sections of the DEA Agents Manual.

     •   Section 6682, Currency and High-Value Items

     •   Section 6654, Asset Forfeiture

     •   Section 6681, Non-drug Property

      Except for instances of noncompliance identified in the Finding and
Recommendations section of this report, we did not identify any other
instances of noncompliance with the guidelines contained in the DEA Agents
Manual sections cited above.




                                     56
                    ABBREVIATIONS

 Abbreviation                    Description
AFF             Asset Forfeiture Fund
AFP             Asset Forfeiture Program
CATS            Consolidated Asset Tracking System
DEA             Drug Enforcement Administration
DEA-6           Report of Investigation
DEA-7a          Acquisition of Non-drug Property
DEA-12          Receipt for Cash or Other Items
Department      Department of Justice
FAQ             Frequently Asked Questions
GAO             Government Accountability Office
HVSRM           High-Value and Seized/Recovered Monies
OIG             Department of Justice, Office of the
                Inspector General
OPR             DEA Office of Professional Responsibility
SADF            Seized Asset Deposit Fund
SSF             Standard Seizure Form
Treasury        Department of Treasury
USMS            United States Marshals Service




                            57
                                                                  Appendix 1

          Audit Objectives, Scope, and Methodology

Objectives

      The objectives of the audit were to determine what actions the DEA
took in response to our 2007 audit and whether those actions improved the
DEA’s handling of seized and recovered monies.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. We performed fieldwork at the following locations.

     DEA Headquarters                       Arlington, Virginia

     Atlanta Division

     Atlanta Division Office                Atlanta, Georgia
     Raleigh Resident Office                Raleigh, North Carolina
     Greensboro Resident Office             Greensboro, North Carolina
     Memphis Resident Office                Memphis, Tennessee

     Washington Division

     Washington Division Office             Washington, D.C.
     Baltimore District Office              Baltimore, Maryland
     Charleston Resident Office             Charleston, West Virginia
     Hagerstown Resident Office             Hagerstown, Maryland

     San Diego Division

     San Diego Division Office              San Diego, California
     Imperial County District Office        Imperial, California
     Carlsbad Resident Office               Carlsbad, California
     San Ysidro Resident Office             San Ysidro, California


                                       58
     Miami Division

     Miami Division Office                Miami, Florida
     Orlando District Office              Orlando, Florida
     Tampa District Office                Tampa, Florida
     Gainesville District Office          Gainesville, Florida
     Jacksonville District Office         Jacksonville, Florida

     Houston Division

     Houston Division Office              Houston, Texas
     San Antonio District Office          San Antonio, Texas
     Austin Resident Office               Austin, Texas
     Beaumont Resident Office             Beaumont, Texas
     Laredo Resident Office               Laredo, Texas

     Chicago Division

     Chicago Division Office              Chicago, Illinois
     Indianapolis District Office         Indianapolis, Indiana
     Minneapolis-St. Paul                 Minneapolis, Minnesota
       District Office

     New England Division

     Boston Division Office               Boston, Massachusetts
     New Bedford Resident Office          New Bedford, Massachusetts
     Providence Resident Office           Providence, Rhode Island
     Burlington Resident Office           Burlington, Vermont

      As a result of our 2007 audit, the DEA revised and updated its controls
for safeguarding seized cash. The new controls were implemented during
the period April 2007 through November 2008. To determine whether the
DEA complied with appropriate requirements governing the handling of cash
from seizure through distribution, we identified and evaluated the controls
established by the DEA to safeguard seized cash. During the initial phase of
our audit we tested a statistical sample of 116 cash seizures totaling
$35,298,680 from the Atlanta Division’s universe of 484 non-adopted cash
seizures totaling $56,504,062 from August 1, 2007, through
November 24, 2008. The 116 cash seizures tested were handled by four
Atlanta Division offices (Atlanta Division Office, Memphis Resident Office,
Raleigh Resident Office, and Greensboro Resident Office).


                                     59
     At each office we audited, we interviewed DEA officials and reviewed
documentation from case files to determine the following:

      •   Were two agents present when the cash was discovered?

      •   Did the agents or officers count the cash?

      •   Did the agents issue a receipt to the person claiming ownership of
          the currency or, if the cash was seized under a warrant, did the
          agents leave a copy of the warrant on the premises?

      •   Were two agents present when the cash was sealed in an evidence
          container, transported to the local DEA office, and transported to
          the bank?

      •   Did the agents or officers complete the proper chain of custody
          documents when transferring custody of seized cash to the
          evidence custodian?

      •   Did the evidence custodians record the receipt and disposition of
          cash and cashier’s checks in the HVSRM Ledger?

      •   Did the agents or officers transport the cash to the bank for an
          official count within 5 working days from when the currency was
          seized?

      •   Did the DEA transfer custody of seized cash to the USMS within
          15 working days of the seizure?

      During our initial audit testing an Atlanta Division Office official told us
that his staff had reviewed the investigative case files for all the currency
seizures his office had made during our audit period and amended the cash-
seizure documents, including the DEA-6, Reports of Investigation, to better
explain the chain of custody of the seized cash. Because the DEA amended
the cash-seizure documents to prepare for our audit, we required a
management official in each DEA office tested to sign a management
representation letter attesting to any changes made to the files.

      Because the objective of our 2009 audit was to determine whether the
DEA had improved its handling of seized cash since our 2007 audit, we
performed additional testing at other DEA divisions and select sub-offices.



                                        60
       In addition to our initial testing in the Atlanta Division, we also tested
566 cash seizures totaling $69,538,990 at 25 additional DEA locations within
6 additional DEA divisions. We tested seizures at the Houston Division,
Miami Division, and Washington Division because those divisions had low
rates of compliance with internal controls during our 2007 audit. Our
2009 audit sampling methodology took us to different sub-offices within
those divisions than it did during our 2007 audit. We also tested the New
England Division, Chicago Division, and San Diego Division to provide broad
geographic coverage of divisions not tested during our 2007 audit. Within
each of the divisions we tested, we selected cash seizures using statistical
sampling techniques to be representative of all cash seizures from the
universe of seizures made by those DEA divisions. 73 Including the initial
sample reviewed for the Atlanta Division, our total sample consisted of
682 cash seizures totaling $104,837,670 at 29 DEA locations within 7 DEA
divisions from the sample universe of 6,701 seizures valued at
$408,519,428.74 Further details of our statistical sample design are
presented in Appendix 2. The number and dollar value of seizures we tested
at each DEA office and division are shown in Exhibit 26.




      73
          Some seizures we selected for testing were made by state and local law
enforcement agencies, but they were included in our sample as seizures made by the DEA
because they had not yet been adopted by the DEA for processing under federal forfeiture
laws.
      74
          We selected 683 seizures valued at $104,875,920 for testing. We tested only
682 seizures valued at $104,837,670 because 1 seizure valued at $38,250 was a duplicate
record.

                                           61
Exhibit 26: Number and Dollar Value of Cash Seizures Tested 75

                                                Number of    Dollar Value of
                  Division/Office                Seizures       Seizures
      Atlanta Division
          Atlanta Division Office                      40       $32,726,512
          Raleigh Resident Office                      22        $1,026,830
          Greensboro Resident Office                   15          $489,967
          Memphis Resident Office                      39        $1,055,371
          Total                                       116      $35,298,680
      Chicago Division
         Chicago Division Office                       50       $16,278,072
         Indianapolis District Office                  35        $1,375,511
         Minneapolis-St. Paul District Office          34        $1,386,227
         Total                                        119      $19,039,810
      Houston Division
         Houston Division Office                       27        $5,948,870
         San Antonio District Office                   26          $453,135
         Austin Resident Office                         5        $2,905,491
         Beaumont Resident Office                       4          $417,121
         Laredo Resident Office                        17        $3,495,126
         Total                                         79      $13,219,743
      Miami Division
         Miami Division Office                         30        $7,958,089
         Orlando District Office                       15        $1,232,680
         Tampa District Office                         21        $1,107,149
         Gainesville Resident Office                   15        $1,585,752
         Jacksonville District Office                  15          $592,521
         Total                                         96      $12,476,191
      New England Division
        Boston Division Office                         31        $1,482,154
        New Bedford Resident Office                     3          $433,649
        Providence Resident Office                     16          $164,992
         Burlington Resident Office                    20          $652,428
        Total                                          70       $2,733,223
      San Diego Division
         San Diego Division Office                     40          $908,423
         Imperial County District Office               26       $11,069,554
         Carlsbad Resident Office                      21        $1,998,191
         San Ysidro Resident Office                     9          $282,003
         Total                                         96      $14,258,171
      Washington Division
        Washington Division Office                     30          $521,822
        Baltimore District Office                      41        $6,871,701
        Charleston Resident Office                     30          $402,036
        Hagerstown Resident Office                      5           $16,292
        Total                                         106       $7,811,852
      Grand Total                                     682     $104,837,670
     Source: Statistical sample taken from CATS



75
     Totals may differ slightly from individual office amounts due to rounding.

                                           62
                                                               Appendix 2

                       Statistical Sample Design


      The database contained 10,390 cash seizures from August 1, 2007
through November 24, 2008 within 21 DEA Field Divisions around the
country. These seizures included both adopted cash seizures made by state
and local law enforcement agencies and non-adopted cash seizures made by
the DEA. We only considered non-adopted for audit testing. There were
6,701 non-adopted cash seizures at 169 DEA offices within 21 field divisions
across the country.

       Considering our 2007 audit work and the locations of the offices, we
selected cash seizures within seven field divisions for testing. There were
2,580 items (non-adopted cash seizures) present in these 7 DEA field
divisions which formed our sampling universe. In order to effectively cover
the sampling universe and obtain good estimates, we employed a stratified
cluster sample design. We selected the clusters using a probability
proportional to size sampling method. Within each of these clusters,
samples were selected randomly. The statistically selected sample consisted
of 683 cash seizures from 21 clusters within the 7 field divisions, which
resulted in a sample fraction of 26.47%. There were eight attribute tests
employed on each of the sampled item. The details of sample allocations,
the locations, tests, and the testing process are presented elsewhere in the
report.

     We projected our test results to the sampling universe (or population)
and computed their 95% confidence intervals. To arrive at the results, the
mathematical model notations and formulae used to compute unbiased
estimates of totals and the confidence intervals are as follows:

H      The number of strata

Nh     The number of primary units in the stratum h

nh     The number of primary units sampled in stratum h

M hi   The number of secondary units in the ith sampled primary unit in the
       stratum h

m hi   The number of secondary units sampled from the ith primary unit
       selected within the stratum h
                                      63
y hik   Random variable and its value corresponding to the kth secondary unit
        sampled from the ith primary unit within the stratum h


             1      If kth sampled secondary unit within the ith primary unit found
                   to have the attribute
yhik

                 0 Otherwise

Thus     y hik ∈ { 0 ,1}

Yˆ                Estimate of the total number of items with the attribute in the
                  population
π hi              The probability of including the ith primary unit in the sample
                  within the stratum h
π hij             The probability of including in the sample both the ith primary
                  unit and the jth primary unit within the stratum h

                                   m 'hi                        n 'h
                                                                       Yˆhi
                             Yˆhi = ∑ y hik
                                   k =1
                                                     Yˆ =   ∑∑ π
                                                            h   i =1     hi



To compute the variance of the estimate Yˆ the formula used is as follows.

                      n n                      Yˆ     Yˆhj 
                                                               2
                                                                              M hi ( M hi − mhi ) S Li 
                                                                                                    2
                                                           
                                                                          n
        V (Y ) = ∑ h  ∑∑ (π hi π hj − π hij )
            ˆ                                      hi
                                                      −          +       ∑                              
                      i =1 j >i                π hi π hj                           mhi π hi          
                                                                      i =1
                                                                                                        

                  indicates variance of the ith unit at the next lower level.
             2
Where    S   Li



The 95% confidence limits on the estimate are given by

                           Yˆ ± t * V (Yˆ )

Where the multiplier t is the standard normal variable at                                      = 0.025.




                                                    64
                                                                                                    Appendix 3

                           Summary of 2009 Audit Test Results
A witness was present at discovery.
          Agents counted the seized cash.
                 Agents provided a receipt or warrant.
                          A witness was present when currency was sealed.
                                  A witness was present during transport to a bank.
                                          A witness was present during transport to the DEA.
                                                   Staff recorded the seizure in the high-value ledger.
                                                             Agents transferred custody of the seizure using the proper form.
                                                                     Working days from seizure to transport to a bank.
                                                                              Working days from seizure to transport to the USMS.
                                                                                      Seizures
                                                                                                          DEA Offices Tested
                                                                                       Tested
100%       4%     74%      73%      94%    95% 100%          95%      3.2      8.7       116       Atlanta Division
 100%      6%      63%     65% 100%         97%     100%      86%     5.03     5.3        40       Atlanta Division Office
 100%      0%      97%     92%      97%     95%     100%      97%     2.2      8.9        39       Memphis Resident Office
 100%      9%      75%     82% 100% 100%            100% 100%         1.1     12.5        22       Raleigh Resident Office
 100%     10%      30%     11%      38%     60%     100% 100%         3.3     17.9        15       Greensboro Resident Office
  93%      5%     60%      33%      72%    46%      57%      32%      3.6     10.6       119       Chicago Division
 100%      0%      36%     33%      98%     64%        0%     14%     5.5      5.5        50       Chicago Division Office
 100%      4%      88%       8%     41%      4%     100%       0%     1.5     14.8        35       Indianapolis District Office
  67%     18%      80%     59%      64%     71%     100%      90%     2.4     15.2        34       Minneapolis-St. Paul District Office
100%       6%     50%      23%      70%    53%      97%      79%      2.4      5.8       79        Houston Division
 100%     23%      67%     15%      43%     42%     100%      71%     2.5     12.0        27       Houston Division Office
 100%      0%      30%     41%      85%     62%     100%      92%     2.3      2.4        26       San Antonio District Office
 100%      0%      50%       0% 100% 100%           100%      50%     4.0     11.0         5       Austin Resident Office
 100%      0%      n/a       0%      0%      0%     100% 100%         4.0     11.0         4       Beaumont Resident Office
 100%      0%      54%       7%     67%     47%      88%      67%     1.7     11.1        17       Laredo Resident Office
  99%      0%     75%      54%      96%    78%      47%      42%      4.8      6.2       96        Miami Division
  96%      0%      71%     11%      94%     66%      14%       0%     7.1      7.1        30       Miami Division Office
 100%      0%      67%     93% 100%         92%      79%      50%     2.4      2.4        15       Orlando District Office
 100%      0%      62%     31%      95%     59%        0%     20%     6.1      6.3        21       Tampa District Office
 100%      0%      90% 100%         92% 100%        100%      92%     1.6     11.1        15       Gainesville Resident Office
 100%      0% 100%         93% 100%         93%     100% 100%         3.5      3.5        15       Jacksonville District Office
  91%      8%     50%      41%      59%    53%      62%      80%      3.6     13.0       70        New England Division
  92%      7%      33%     18%      45%     29%        8%     58%     3.4     10.6        31       Boston Division Office
 100%     33% 100% 100% 100% 100%                   100% 100%         2.3     12.3         3       New Bedford Resident Office
  85%      0%      33%     27%      42%     40%     100%      81%     2.2     13.3        16       Providence Resident Office
  93%      8%      85%     92% 100%         92%     100% 100%         5.6     18.8        20       Burlington Resident Office
  78%      0%     78%      31%      97%    52%      93%      94%      1.9      2.1       96        San Diego Division
  72%      0%      81%     48%      97%     37%      92%      87%     1.3      1.3        40       San Diego Division Office
  85%      0%      63%     14%      93%     71%     100%      96%     1.5      2.6        26       Imperial Co. District Office
  71%      0% 100%         28%      95%     43%      86% 100%         1.5      1.5        21       Carlsbad Resident Office
 100%      0%      44%     22% 100% 100%             89% 100%         5.8      5.8         9       San Ysidro Resident Office
  91% 12%         57%      30%      71%    30%      81%      69%      4.5     11.9       106       Washington Division
  76%      0%      60%     15%      83%     25%      73%      61%     7.6     14.4        30       Washington Division Office
  97%     28%      28%     22%      72%     42%      73%      67%     3.6      3.6        41       Baltimore District Office
 100%      0%      94%     71%      71%     16%     100%      81%     4.0     25.9        30       Charleston Resident Office
 100%      0%      67%       0%      0%      0%      75%      80%     2.0     21.0         5       Hagerstown Resident Office

  93%      5%     65%      43%      81%     60%       77%      69%      3.3    10.0       682       2009 Audit Results
  69%     16%     52%      21%      63%     30%       19%      26%      3.2    10.6       742       2007 Audit Results
  24%      n/a    13%      22%      18%     30%       58%      43%      0.1    -0.6                 Difference from 2007
Source: OIG analysis of DEA documents



                                                              65
                                                                       Appendix 4

                     Presence of a Witnessing Agent
                 or Officer when Cash was Discovered 76

                                   Atlanta Division
                           Witness Present During Discovery

                    2007 Audit                        not tested
   Atlanta
   Division         2009 Audit                            100%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                        not tested
   Memphis
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                        not tested
   Raleigh
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                        not tested
   Greensboro
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                        not tested
   Atlanta
   Division         2009 Audit                            100%
   Totals
                  2009 Audit
                                                          100%
                (amended files)

                             Yes    Could Not Determine    No

Source: OIG analysis of DEA records



      76
          “Yes” means documentation showed that a witnessing agent or officer was
involved. “No” means documentation showed that only one witnessing agent or officer was
involved. “Could not determine” means the documentation did not provide sufficient
information to confirm whether a witnessing agent or officer was involved.

                                            66
                                 Chicago Division
                          Witness Present During Discovery

                  2007 Audit                         not tested
   Chicago
   Division       2009 Audit                            100%
   Office
                2009 Audit
              (amended files)
                                                        100%

                  2007 Audit                         not tested

  Indianapolis
  District        2009 Audit                            100%
  Office
                2009 Audit
              (amended files)
                                                        100%

                  2007 Audit                         not tested
   Minneapolis-
   St. Paul
   District       2009 Audit                   67%                33%
   Office
                2009 Audit
              (amended files)
                                               67%                33%

                  2007 Audit                         not tested
   Chicago
   Division       2009 Audit                         93%                7%
   Totals
                2009 Audit
              (amended files)
                                                        93%             7%


                           Yes    Could Not Determine    No

Source: OIG analysis of DEA records




                                          67
                                 Houston Division
                            Witness Present at Discovery

                  2007 Audit               56%                   22%   22%
   Houston
   Division       2009 Audit                            100%
   Office
                2009 Audit
                                                        100%
              (amended files)

                  2007 Audit                        not tested
   San
   Antonio        2009 Audit                            100%
   District
   Office       2009 Audit
                                                        100%
              (amended files)

                  2007 Audit                            100%
   Austin
   Resident       2009 Audit                            100%
   Office
                2009 Audit
                                                        100%
              (amended files)

                  2007 Audit                        not tested
   Beaumont
   Resident       2009 Audit                            100%
   Office
                2009 Audit
                                                        100%
              (amended files)

                  2007 Audit                        not tested
   Laredo
   Resident       2009 Audit                            100%
   Office
                2009 Audit
                                                        100%
              (amended files)

                  2007 Audit                      84%                  10% 6%
   Houston
   Division       2009 Audit                            100%
   Totals
                2009 Audit
                                                        100%
              (amended files)


                           Yes    Could Not Determine    No

Source: OIG analysis of DEA records




                                          68
                                   Miami Division
                            Witness Present During Discovery

                     2007 Audit                          96%                    4%
   Miami
   Division          2009 Audit                          96%                    4%
   Office
                   2009 Audit
                                                         100%
                 (amended files)
                     2007 Audit             55%                   30%     15%
   Orlando
   District          2009 Audit                          100%
   Office
                   2009 Audit
                                                         100%
                 (amended files)
                     2007 Audit                    80%                  10% 10%
   Tampa
   District          2009 Audit                          100%
   Office
                   2009 Audit
                                                         100%
                 (amended files)
                     2007 Audit                      not tested
   Gainesville
   Resident          2009 Audit                          100%
   Office
                   2009 Audit
                                                         100%
                 (amended files)
                     2007 Audit                      not tested
   Jacksonville
   District          2009 Audit                          100%
   Office
                   2009 Audit
                                                         100%
                 (amended files)
                     2007 Audit                    80%                  14%   6%
   Miami                                                                      1%
   Division          2009 Audit                          99%
   Totals
                   2009 Audit
                                                         100%
                 (amended files)


                             Yes   Could Not Determine    No

Source: OIG analysis of DEA records




                                           69
                             New England Division
                           Witness Present During Discovery


                    2007 Audit                       not tested
   Boston                                                         4% 4%
   Division         2009 Audit                           92%
   Office
                                                                  4% 4%
                  2009 Audit
                                                         92%
                (amended files)

                    2007 Audit                       not tested
   New Bedford
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                       not tested
   Providence
   Resident         2009 Audit                      85%           15%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                       not tested
   Burlington
   Resident         2009 Audit                           93%       7%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                       not tested
   New England                                                    5% 4%
   Division         2009 Audit                       91%
   Totals
                                                                  2% 2%
                  2009 Audit
                                                         96%
                (amended files)



                             Yes   Could Not Determine     No

Source: OIG analysis of DEA documents




                                           70
                                  San Diego Division
                           Witness Present During Discovery

                    2007 Audit                         not tested
   San Diego
   Division         2009 Audit                   72%                14%    14%
   Office
                  2009 Audit
                                                  76%                14%    10%
                (amended files)

                    2007 Audit                         not tested
   Imperial
   County
   District         2009 Audit                       85%                  8% 7%
   Office
                  2009 Audit
                                                       92%                  8%
                (amended files)

                    2007 Audit                         not tested
   Carlsbad
   Resident         2009 Audit                   71%                  29%
   Office
                  2009 Audit
                                                 71%                  29%
                (amended files)

                    2007 Audit                         not tested
   San Ysidro
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                                                          100%
                (amended files)

                    2007 Audit                         not tested
   San
   Diego            2009 Audit                     78%               7%    15%
   Division
   Totals         2009 Audit
                                                    81%               5% 14%
                (amended files)


                            Yes     Could Not Determine    No

Source: OIG analysis of DEA documents




                                            71
                              Washington Division
                           Witness Present During Discovery

                    2007 Audit    22%       11%                  67%
  Washington
  Division          2009 Audit                    76%                    24%
  Office
                  2009 Audit                                                   5%
                                                        95%
                (amended files)

                    2007 Audit      30%                          70%
   Baltimore
                                                                               3%
   District         2009 Audit                          97%
   Office
                  2009 Audit
                                                        100%
                (amended files)

                    2007 Audit                      not tested
   Charleston
   Resident         2009 Audit                          100%
   Office
                  2009 Audit
                                                        100%
                (amended files)

                    2007 Audit                      not tested
   Hagerstown
   Resident         2009 Audit                          100%
   Office
                  2009 Audit
                                                        100%
                (amended files)

                    2007 Audit        36%          11%             53%
   Washington
   Division         2009 Audit                      91%                        9%
   Totals
                  2009 Audit                                                   1%
                                                        99%
                (amended files)


                            Yes   Could Not Determine    No

Source: OIG analysis of DEA documents




                                          72
                                                                        Appendix 5

                   Agents Counted the Seized Cash 77

                                  Atlanta Division
                            Agents Counted the Seized Cash

                    2007 Audit                        not tested
   Atlanta                          3%
   Division         2009 Audit    6%                       91%
   Office
                  2009 Audit
                                   3%
                (amended files)   3%                      94%

                    2007 Audit                        not tested
   Memphis
   Resident         2009 Audit                           100%
   Office
                  2009 Audit
                (amended files)
                                                         100%

                    2007 Audit                        not tested
   Raleigh
   Resident         2009 Audit    9%                       91%
   Office
                  2009 Audit
                (amended files)
                                  9%                       91%

                    2007 Audit                        not tested
   Greensboro
   Resident         2009 Audit    10%                      90%
   Office
                  2009 Audit
                (amended files)
                                  10%                      90%

                    2007 Audit                        not tested
   Atlanta
                                   1%
   Division
                    2009 Audit    4%                      95%
   Totals
                  2009 Audit
                                   1%
                (amended files)   3%                      96%


                            Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




      77
           For the counting of seized cash, “Yes” means documentation showed the seized
cash was counted, “No” means documentation showed the seized cash was not counted,
and “Could not determine” means the documentation did not provide sufficient information
to confirm whether the seized cash was counted.

                                           73
                                    Chicago Division
                              Agents Counted the Seized Cash

                      2007 Audit                       not tested
   Chicago
   Division           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit                       not tested
   Indianapolis
   District           2009 Audit    4%                      96%
   Office
                    2009 Audit
                  (amended files)
                                    4%                      96%

                      2007 Audit                       not tested
   Minneapolis-
   St. Paul
   District
                      2009 Audit     18%   5%                     77%
   Office
                    2009 Audit
                  (amended files)
                                     18%   5%                     77%

                      2007 Audit                       not tested
   Chicago                           1%
   Division           2009 Audit    5%                      94%
   Totals
                                     1%
                    2009 Audit
                  (amended files)
                                    5%                      94%


                              Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                             74
                                 Houston Division
                           Agents Counted the Seized Cash

                   2007 Audit          34%          22%                44%
   Houston
   Division        2009 Audit         23%     8%                 69%
   Office
                 2009 Audit
               (amended files)
                                      25%                      75%

                   2007 Audit                       not tested
   San
   Antonio         2009 Audit    5%                      95%
   District
   Office        2009 Audit
               (amended files)
                                 5%                      95%

                   2007 Audit                           100%
   Austin
   Resident        2009 Audit                           100%
   Office
                 2009 Audit
               (amended files)                          100%

                   2007 Audit                       not tested
   Beaumont
   Resident        2009 Audit                           100%
   Office
                 2009 Audit
               (amended files)
                                                        100%

                   2007 Audit                       not tested
   Laredo
   Resident        2009 Audit                           100%
   Office
                 2009 Audit
               (amended files)                          100%

                   2007 Audit          30%         24%                 46%
   Houston
   Division        2009 Audit    6% 6%                    88%
   Totals
                 2009 Audit
               (amended files)
                                 6% 4%                    90%



                           Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                             75
                                     Miami Division
                              Agents Counted the Seized Cash

                      2007 Audit             50%                      50%
   Miami
   Division           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit    5%                   78%                  17%
   Orlando
   District           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit    6%                     81%                13%
   Tampa
   District           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit                         not tested
   Gainesville
   Resident           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit                         not tested
   Jacksonville
   District           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)                          100%

                      2007 Audit    4%             59%                  37%
   Miami
   Division           2009 Audit                           100%
   Totals
                    2009 Audit
                  (amended files)                          100%



                              Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                             76
                              New England Division
                             Agents Counted the Seized Cash


                     2007 Audit                           not tested
   Boston
   Division          2009 Audit    7%                         93%
   Office
                   2009 Audit
                 (amended files)
                                   7%                         93%


                     2007 Audit                           not tested
   New Bedford
   Resident
                     2009 Audit         33%                            67%
   Office
                   2009 Audit
                 (amended files)
                                        33%                            67%


                     2007 Audit                           not tested
   Providence
   Resident
   Office            2009 Audit                            100%

                   2009 Audit
                 (amended files)
                                                           100%


                     2007 Audit                           not tested
   Burlington
   Resident
                     2009 Audit    8%                          92%
   Office
                   2009 Audit
                 (amended files)
                                   8%                          92%


                     2007 Audit                           not tested
   New
   England
   Division
                     2009 Audit    8%                         92%
   Totals
                   2009 Audit
                 (amended files)
                                   8%                         92%



                             Yes    Could Not Determine      No

Source: OIG analysis of DEA documents




                                            77
                                  San Diego Division
                            Agents Counted the Seized Cash

                    2007 Audit                        not tested
   San Diego
   Division         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%


   Imperial
                    2007 Audit                        not tested
   County
   District         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%

                    2007 Audit                        not tested
   Carlsbad
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%

                    2007 Audit                        not tested
   San Ysidro
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%

                    2007 Audit                        not tested
   San
   Diego            2009 Audit                            100%
   Division
   Totals         2009 Audit
                (amended files)
                                                          100%


                             Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                           78
                              Washington Division
                            Agents Counted the Seized Cash

                    2007 Audit           33%        17%                  50%
   Washington
   Division         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%

                    2007 Audit     14%                          86%
   Baltimore
   District         2009 Audit        28%                          72%
   Office
                  2009 Audit
                (amended files)
                                      28%                          72%

                    2007 Audit                        not tested
   Charleston
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%

                    2007 Audit                        not tested
   Hagerstown
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%

                    2007 Audit      22%        3%                75%
   Washington
   Division         2009 Audit     12%                      88%
   Totals
                  2009 Audit
                (amended files)
                                   12%                      88%


                             Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                               79
                                                                     Appendix 6

                Agents Provided a Receipt or Warrant
                  to the Owner of the Seized Cash 78

                                  Atlanta Division
                         Agents Provided a Receipt or Warrant

                    2007 Audit                         not tested
   Atlanta
   Division         2009 Audit                   63%                       37%
   Office
                  2009 Audit
                (amended files)
                                                 63%                       37%

                    2007 Audit                         not tested
   Memphis                                                                            3%
   Resident         2009 Audit                           97%
   Office                                                                             3%
                  2009 Audit
                (amended files)
                                                         97%

                    2007 Audit                         not tested
   Raleigh
   Resident         2009 Audit                     75%                        25%
   Office
                  2009 Audit
                (amended files)
                                                   75%                        25%

                    2007 Audit                         not tested
   Greensboro
   Resident         2009 Audit        30%                           70%
   Office
                  2009 Audit
                (amended files)
                                      30%                           70%

                    2007 Audit                         not tested
   Atlanta
   Division         2009 Audit                     74%                        26%
   Totals
                  2009 Audit
                (amended files)
                                                   74%                        26%


                            Yes    Could Not Determine     No

Source: OIG analysis of DEA documents


      78
          “Yes” means documentation showed the agents provided the owner of the seized
cash either a receipt (DEA-12) or a copy of the seizure warrant if applicable. “No” means
documentation showed the agents did not provide the owner of the seized cash either a
receipt (DEA-12) or a copy of the seizure warrant if applicable. “Could not determine”
means the documentation did not provide sufficient information to confirm whether the
agents provided the owner of the seized cash either a receipt (DEA-12) or a copy of the
seizure warrant if applicable.

                                            80
                                Chicago Division
                       Agents Provided a Receipt or Warrant

                  2007 Audit                       not tested
   Chicago
   Division       2009 Audit         36%                        64%
   Office
                2009 Audit
                                     36%                        64%
              (amended files)

                  2007 Audit                       not tested
   Indianapolis
   District       2009 Audit                      88%                        12%
   Office
                2009 Audit
                                                  88%                        12%
              (amended files)

                  2007 Audit                       not tested
   Minneapolis-
   St. Paul
   District       2009 Audit                     80%                        20%
   Office
                2009 Audit
                                                 80%                        20%
              (amended files)

                  2007 Audit                       not tested
   Chicago
   Division       2009 Audit               60%                        40%
   Totals
                2009 Audit
                                           60%                        40%
              (amended files)


                          Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                         81
                                Houston Division
                       Agents Provided a Receipt or Warrant

                  2007 Audit            44%                           56%
   Houston
   Division       2009 Audit                  67%                            33%
   Office
                2009 Audit
                                              67%                            33%
              (amended files)
                  2007 Audit                         not tested
   San
   Antonio        2009 Audit       30%                            70%
   District
   Office       2009 Audit
                                   30%                            70%
              (amended files)
                  2007 Audit                   67%                            33%
   Austin
   Resident       2009 Audit             50%                            50%
   Office
                2009 Audit
                                         50%                            50%
              (amended files)
                  2007 Audit                         not tested
   Beaumont
   Resident       2009 Audit                        not applicable
   Office
                2009 Audit
                                                    not applicable
              (amended files)
                  2007 Audit                         not tested
   Laredo
   Resident       2009 Audit              54%                              46%
   Office
                2009 Audit
                                          54%                              46%
              (amended files)
                  2007 Audit        34%         3%                   63%
   Houston
   Division       2009 Audit             50%                            50%
   Totals
                2009 Audit
                                         50%                            50%
              (amended files)


                          Yes    Could Not Determine      No

Source: OIG analysis of DEA documents

      At the Beaumont Resident Office our audit test was not applicable to
the four seizures we tested because a local law enforcement agency made
those seizures.




                                         82
                                   Miami Division
                          Agents Provided a Receipt or Warrant

                     2007 Audit         36%                              64%
   Miami
   Division          2009 Audit                       71%                       29%
   Office
                   2009 Audit
                                                      71%                       29%
                 (amended files)

                     2007 Audit         38%                              62%
   Orlando
   District          2009 Audit                   67%                          33%
   Office
                   2009 Audit
                                                  67%                          33%
                 (amended files)

                     2007 Audit     22%                             78%
   Tampa
   District          2009 Audit                  62%                           38%
   Office
                   2009 Audit
                                                 62%                           38%
                 (amended files)

                     2007 Audit                             not tested
   Gainesville
   Resident          2009 Audit                             90%                        10%
   Office
                   2009 Audit
                                                            90%                        10%
                 (amended files)

                     2007 Audit                             not tested
   Jacksonville
   District          2009 Audit                              100%
   Office
                   2009 Audit
                                                             100%
                 (amended files)

                     2007 Audit       33%                                67%
   Miami
   Division          2009 Audit                       75%                            25%
   Totals
                   2009 Audit
                                                      75%                        25%
                 (amended files)


                                          Yes    No

Source: OIG analysis of DEA documents




                                            83
                              New England Division
                          Agents Provided a Receipt or Warrant


                     2007 Audit                          not tested
   Boston
   Division          2009 Audit       33%                             67%
   Office
                   2009 Audit
                 (amended files)
                                      33%                             67%

                     2007 Audit                          not tested
   New Bedford
   Resident          2009 Audit                           100%
   Office
                   2009 Audit
                 (amended files)
                                                          100%

                     2007 Audit                          not tested
   Providence
   Resident          2009 Audit       33%                             67%
   Office
                   2009 Audit
                 (amended files)
                                      33%                             67%

                     2007 Audit                          not tested
   Burlington
   Resident          2009 Audit                     85%                           15%
   Office
                   2009 Audit
                 (amended files)
                                                    85%                           15%

                     2007 Audit                          not tested
   New
   England           2009 Audit             50%                             50%
   Division
   Totals          2009 Audit
                 (amended files)
                                            50%                         50%



                             Yes   Could Not Determine      No

Source: OIG analysis of DEA documents




                                            84
                                  San Diego Division
                         Agents Provided a Receipt or Warrant

                    2007 Audit                        not tested
   San Diego
   Division         2009 Audit                       81%                       19%
   Office
                  2009 Audit
                                                     81%                       19%
                (amended files)

                    2007 Audit                        not tested
   Imperial
   County
   District         2009 Audit                 63%                       37%
   Office
                  2009 Audit
                                               63%                       37%
                (amended files)

                    2007 Audit                        not tested
   Carlsbad
   Resident         2009 Audit                             100%
   Office
                  2009 Audit
                                                           100%
                (amended files)

                    2007 Audit                        not tested
   San Ysidro
   Resident         2009 Audit           44%                       56%
   Office
                  2009 Audit
                                         44%                       56%
                (amended files)

                    2007 Audit                        not tested
   San
   Diego            2009 Audit                      78%                    22%
   Division
   Totals         2009 Audit
                                                    78%                    22%
                (amended files)


                                        Yes    No

Source: OIG analysis of DEA documents




                                          85
                              Washington Division
                         Agents Provided a Receipt or Warrant

                    2007 Audit                58%                         42%
   Washington
   Division         2009 Audit                60%                          40%
   Office
                  2009 Audit
                                              60%                          40%
                (amended files)

                    2007 Audit            52%                            48%
   Baltimore
   District         2009 Audit      28%                            72%
   Office
                  2009 Audit
                                    28%                            72%
                (amended files)

                    2007 Audit                        not tested
   Charleston
   Resident         2009 Audit                        94%                            6%
   Office
                  2009 Audit
                                                      94%                            6%
                (amended files)

                    2007 Audit                        not tested
   Hagerstown
   Resident         2009 Audit                  67%                            33%
   Office
                  2009 Audit
                                                67%                            33%
                (amended files)

                    2007 Audit            48%                            52%
   Washington
   Division         2009 Audit                57%                         43%
   Totals
                  2009 Audit
                                              57%                         43%
                (amended files)


                                        Yes    No

Source: OIG analysis of DEA documents




                                          86
                                                                         Appendix 7

              Presence of a Witnessing Agent or Officer
                   at the Sealing of the Currency79

                                   Atlanta Division
                A Witness was Present When the Currency Was Sealed

                     Prior Audit                        not tested
   Atlanta
   Division       Current Audit                  65%                       32%          3%
   Office
                 Current Audit
                (amended files)
                                                 68%                        29%         3%

                     Prior Audit                        not tested
   Memphis                                                                          3%
   Resident       Current Audit                          92%                          5%
   Office                                                                           3%
                 Current Audit
                (amended files)
                                                         92%                          5%

                     Prior Audit                        not tested
   Raleigh
   Resident       Current Audit                        82%                        18%
   Office
                 Current Audit
                (amended files)
                                                       82%                        18%

                     Prior Audit                        not tested
   Greensboro
   Resident       Current Audit    11%                         89%
   Office
                 Current Audit
                (amended files)
                                    22%                           78%

                     Prior Audit                        not tested
   Atlanta
   Division       Current Audit                   73%                        24%        3%
   Totals
                 Current Audit
                (amended files)
                                                   75%                        22%       3%


                             Yes    Could Not Determine      No

Source: OIG analysis of DEA documents



       79
           “Yes” means documentation showed the name of the witnessing agent or officer
who was present or involved. “No” means documentation showed the name of only one
agent or officer who was present or involved. “Could not determine” means the
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was present or involved.

                                            87
                                   Chicago Division
                  A Witness was Present When the Currency was Sealed


                    2007 Audit                       not tested
   Chicago
   Division
   Office           2009 Audit         33%                        67%

                2009 Audit
                                       33%                        67%
              (amended files)

                    2007 Audit                       not tested
   Indianapolis
   District
                    2009 Audit    8%                      92%
   Office
                2009 Audit
                                              58%                       42%
              (amended files)

                    2007 Audit                       not tested
   Minneapolis-
   St. Paul
   District         2009 Audit                59%                   27%       14%
   Office
                2009 Audit
                                              59%                   27%       14%
              (amended files)

                    Prior Audit                      not tested
   Chicago
   Division       Current Audit        33%                        64%               3%
   Totals
               Current Audit
                                          46%                       51%         3%
              (amended files)


                            Yes    Could Not Determine   No

Source: OIG analysis of DEA documents




                                             88
                                 Houston Division
              A Witness was Present When the Currency was Sealed

                   2007 Audit                           100%
   Houston
   Division        2009 Audit    15%                     77%               8%
   Office
                 2009 Audit
               (amended files)
                                      25%                     67%          8%

                   2007 Audit                       not tested
   San
   Antonio         2009 Audit               41%                     55%    4%
   District
   Office        2009 Audit
               (amended files)
                                            45%                      50%    5%

                   2007 Audit                           100%
   Austin
   Resident        2009 Audit                           100%
   Office
                 2009 Audit
               (amended files)
                                                        100%

                   2007 Audit                       not tested
   Beaumont
   Resident        2009 Audit                           100%
   Office
                 2009 Audit
               (amended files)
                                                        100%

                   2007 Audit                       not tested
   Laredo
   Resident        2009 Audit    7%                     87%                6%
   Office
                 2009 Audit
               (amended files)
                                 13%                     80%               7%

                   2007 Audit    8%                      92%
   Houston
   Division        2009 Audit         23%                     72%          5%
   Totals
                 2009 Audit
               (amended files)
                                       29%                     65%         6%



                           Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                             89
                                     Miami Division
                  A Witness Was Present When the Currency was Sealed

                      2007 Audit    14%                            86%
   Miami
   Division           2009 Audit    11%                        86%                         3%
   Office
                    2009 Audit
                  (amended files)
                                           39%                            61%

                      2007 Audit    5%                         95%
   Orlando
   District           2009 Audit                           93%                         7%
   Office
                    2009 Audit
                  (amended files)
                                                           93%                         7%

                      2007 Audit     20%                     60%                     20%
   Tampa
   District           2009 Audit          31%                            69%
   Office
                    2009 Audit
                  (amended files)
                                           38%                            62%

                      2007 Audit                           not tested
   Gainesville
   Resident           2009 Audit                             100%
   Office
                    2009 Audit
                  (amended files)
                                                             100%

                      2007 Audit                           not tested
   Jacksonville
   District           2009 Audit                           93%                         7%
   Office
                    2009 Audit
                  (amended files)
                                                           93%                         7%

                      2007 Audit    14%                          83%                       3%
   Miami                                                                                   1%
   Division           2009 Audit                54%                            45%
   Totals
                    2009 Audit
                  (amended files)
                                                     65%                        35%



                              Yes    Could Not Determine      No

Source: OIG analysis of DEA documents




                                                90
                              New England Division
                 A Witness Was Present at the Sealing of the Currency


                     2007 Audit                          not tested
   Boston
   Division          2009 Audit    18%                       72%             10%
   Office
                   2009 Audit
                 (amended files)
                                   18%                       72%             10%

                     2007 Audit                          not tested
   New Bedford
   Resident          2009 Audit                           100%
   Office
                   2009 Audit
                 (amended files)
                                                          100%

                     2007 Audit                          not tested
   Providence
   Resident          2009 Audit      27%                       55%          18%
   Office
                   2009 Audit
                 (amended files)
                                     27%                       55%          18%

                     2007 Audit                          not tested
   Burlington
   Resident          2009 Audit                          92%                  8%
   Office
                   2009 Audit
                 (amended files)
                                                         92%                  8%

                     2007 Audit                          not tested
   New
   England           2009 Audit          41%                          50%     9%
   Division
   Totals          2009 Audit
                 (amended files)
                                         41%                          50%    9%



                             Yes   Could Not Determine      No

Source: OIG analysis of DEA documents




                                           91
                                  San Diego Division
                A Witness was Present When the Currency Was Sealed

                    2007 Audit                        not tested
   San Diego
   Division         2009 Audit                 48%                       52%
   Office
                  2009 Audit
                (amended files)
                                                57%                      35%   8%


   Imperial
                    2007 Audit                        not tested
   County
   District         2009 Audit     14%                    79%                  7%
   Office
                  2009 Audit
                (amended files)
                                   14%                    79%                  7%

                    2007 Audit                        not tested
   Carlsbad
   Resident         2009 Audit        28%                      67%             5%
   Office
                  2009 Audit
                (amended files)
                                      28%                      67%             5%

                    2007 Audit                        not tested
   San Ysidro
   Resident         2009 Audit      22%                        78%
   Office
                  2009 Audit
                (amended files)
                                           44%                       56%

                    2007 Audit                        not tested
   San
   Diego            2009 Audit           31%                       66%          3%
   Division
   Totals         2009 Audit
                (amended files)
                                          38%                      56%         6%


                            Yes     Could Not Determine   No

Source: OIG analysis of DEA documents




                                               92
                              Washington Division
                A Witness was Present at the Sealing of the Currency

                    2007 Audit     17%                           83%
   Washington
   Division         2009 Audit    15%                         80%                 5%
   Office
                  2009 Audit
                (amended files)
                                  15%                         80%                 5%

                    2007 Audit                            100%
   Baltimore
                                                                                  3%
   District         2009 Audit         22%                       75%
   Office
                  2009 Audit
                                                                                  3%
                (amended files)
                                       22%                       75%

                    2007 Audit                           not tested
   Charleston
   Resident         2009 Audit                     71%                      29%
   Office
                  2009 Audit
                (amended files)
                                                   71%                      29%

                    2007 Audit                           not tested
   Hagerstown
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%
                                                                                  2%
                    2007 Audit    3%                       95%
   Washington                                                                     2%
   Division         2009 Audit          30%                           68%
   Totals
                                                                                  2%
                  2009 Audit
                (amended files)
                                        30%                           68%



                            Yes    Could Not Determine      No

Source: OIG analysis of DEA documents




                                              93
                                                                         Appendix 8

 Presence of a Witnessing Law Enforcement Officer During
   Transport to the Bank or Other Financial Institution 80

                                  Atlanta Division
                  A Witness Was Present During Transport to a Bank

                     2007 audit                        not tested
   Atlanta
   Division          2009 audit                          100%
   Office
                  2009 audit
                (amended files)
                                                         100%

                     2007 audit                        not tested
   Memphis
   Resident          2009 audit                          97%                           3%
   Office
                  2009 audit
                (amended files)
                                                         97%                           3%

                     2007 audit                        not tested
   Raleigh
   Resident          2009 audit                          100%
   Office
                  2009 audit
                (amended files)
                                                         100%

                     2007 audit                        not tested
   Greensboro
   Resident          2009 audit         38%           13%               49%
   Office
                  2009 audit
                (amended files)
                                                      89%                          11%

                     2007 audit                        not tested
   Atlanta                                                                         2% 4%
   Division          2009 audit                          94%
   Totals                                                                          1% 1%
                  2009 audit
                (amended files)
                                                         98%


                            Yes    Could Not Determine      No

Source: OIG analysis of DEA documents


       80
            “Yes” means documentation showed the name of the witnessing agent or officer
who was present or involved. “No” means documentation showed the name of only one
agent or officer who was present or involved. “Could not determine” means the
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was present or involved.

                                            94
                                    Chicago Division
                   A Witness Was Present During Transport to a Bank

                      2007 audit                         not tested
   Chicago
   Division           2009 audit                           98%                        2%
   Office
                    2009 audit
                  (amended files)
                                                           98%                        2%

                      2007 audit                         not tested
   Indianapolis
   District           2009 audit          41%                         44%           15%
   Office
                    2009 audit
                  (amended files)
                                                  68%                         26%    6%

                      2007 audit                         not tested
   Minneapolis-
   St. Paul
   District
                      2009 audit                  64%                       23%     13%
   Office
                    2009 audit
                  (amended files)
                                                  68%                       18%     14%

                      2007 audit                         not tested
   Chicago
   Division           2009 audit                   72%                        19%    9%
   Totals
                    2009 audit
                  (amended files)
                                                        82%                       13% 5%


                              Yes    Could Not Determine      No

Source: OIG analysis of DEA documents




                                             95
                                 Houston Division
                A Witness Was Present During Transport to a Bank

                   2007 audit           45%                   22%          33%
   Houston
   Division        2009 audit           43%                         50%           7%
   Office
                 2009 audit
               (amended files)
                                                72%                       21%     7%

                   2007 audit                         not tested
   San
   Antonio         2009 audit                        85%                        12% 3%
   District
   Office        2009 audit
               (amended files)
                                                      92%                        4% 4%

                   2007 audit             50%                   25%         25%
   Austin
   Resident        2009 audit                           100%
   Office
                 2009 audit
               (amended files)
                                                        100%

                   2007 audit                         not tested
   Beaumont
   Resident        2009 audit                           100%
   Office
                 2009 audit
               (amended files)
                                                        100%

                   2007 audit                         not tested
   Laredo
   Resident        2009 audit                  67%                        27%      6%
   Office
                 2009 audit
               (amended files)
                                                        93%                        7%

                   2007 audit            49%                        34%         17%
   Houston
   Division        2009 audit                   70%                       25%         5%
   Totals
                 2009 audit
               (amended files)
                                                     87%                         8% 5%



                           Yes    Could Not Determine      No

Source: OIG analysis of DEA documents




                                          96
                                    Miami Division
                   A Witness Was Present During Transport to a Bank

                      2007 audit                          100%
   Miami                                                                          3% 3%
   Division           2009 audit                          94%
   Office                                                                         3% 3%
                    2009 audit
                  (amended files)
                                                          94%

                      2007 audit     23%                        64%               13%
   Orlando
   District           2009 audit                          100%
   Office
                    2009 audit
                  (amended files)
                                                          100%

                      2007 audit           44%                        44%         12%
   Tampa
   District           2009 audit                          95%                       5%
   Office           2009 audit
                  (amended files)
                                                          100%

                      2007 audit                       not tested
   Gainesville
   Resident           2009 audit                          92%                      8%
   Office
                    2009 audit
                  (amended files)
                                                          100%

                      2007 audit                       not tested
   Jacksonville
   District           2009 audit                          100%
   Office
                    2009 audit
                  (amended files)
                                                          100%

                      2007 audit                 63%                        30%    7%
   Miami                                                                           2%
   Division           2009 audit                          96%                       2%
   Totals                                                                         1%1%
                    2009 audit
                  (amended files)
                                                          98%



                              Yes   Could Not Determine     No

Source: OIG analysis of DEA documents




                                            97
                              New England Division
                  A Witness Was Present During Transport to a Bank


                     2007 audit                          not tested
   Boston
   Division          2009 audit          45%                 16%             39%
   Office
                   2009 audit
                 (amended files)
                                         45%                 16%             39%

                     2007 audit                          not tested
   New Bedford
   Resident          2009 audit                           100%
   Office
                   2009 audit
                 (amended files)
                                                          100%

                     2007 audit                          not tested
   Providence
   Resident          2009 audit         42%                      33%           25%
   Office
                   2009 audit
                 (amended files)
                                                67%                     8%     25%

                     2007 audit                          not tested
   Burlington
   Resident          2009 audit                           100%
   Office
                   2009 audit
                 (amended files)
                                                          100%

                     2007 audit                          not tested
   New England
   Division          2009 audit               59%                     16%      25%
   Totals
                   2009 audit
                 (amended files)
                                                64%                    10%     26%



                             Yes   Could Not Determine      No

Source: OIG analysis of DEA documents




                                           98
                                  San Diego Division
                 A Witness Was Present During Transport to a Bank

                    2007 audit                        not tested
   San Diego
   Division         2009 audit                            97%        3%
   Office
                  2009 audit
                (amended files)
                                                          97%        3%


   Imperial
                    2007 audit                        not tested
   County
   District         2009 audit                            93%       7%
   Office
                  2009 audit
                (amended files)
                                                          93%       7%

                    2007 audit                        not tested
   Carlsbad
   Resident         2009 audit                            95%       5%
   Office
                  2009 audit
                (amended files)
                                                          95%        5%

                    2007 audit                        not tested
   San Ysidro
   Resident         2009 audit                            100%
   Office
                  2009 audit
                (amended files)
                                                          100%

                    2007 audit                        not tested
   San                                                              1%
   Diego            2009 audit                            97%        2%
   Division
   Totals         2009 audit
                                                                    1%
                (amended files)
                                                          97%        2%


                            Yes     Could Not Determine     No

Source: OIG analysis of DEA documents




                                            99
                              Washington Division
                 A Witness Was Present During Transport to a Bank

                    2007 audit    8%                     75%                       17%
   Washington
   Division         2009 audit                       83%                          6%11%
   Office
                  2009 audit
                (amended files)
                                                         89%                        11%

                    2007 audit                       87%                           13%
   Baltimore
   District         2009 audit                     72%                  13%        15%
   Office
                  2009 audit
                (amended files)
                                                   75%                      9%     16%

                    2007 audit                           not tested
   Charleston
   Resident         2009 audit                     71%                        29%
   Office
                  2009 audit
                (amended files)
                                                   71%                        29%

                    2007 audit                           not tested
   Hagerstown
   Resident         2009 audit         25%                        75%
   Office
                  2009 audit
                (amended files)
                                       25%                        75%

                    2007 audit                 60%                    22%         18%
   Washington
   Division         2009 audit                     71%                  15%        14%
   Totals
                  2009 audit
                (amended files)
                                                   73%                      13%    14%


                            Yes    Could Not Determine      No

Source: OIG analysis of DEA documents




                                             100
                                                                         Appendix 9

     Presence of a Witness During Transport to the DEA81

                                  Atlanta Division
                 A Witness Was Present During Transport to the DEA

                     2007 Audit                        not tested
   Atlanta
   Division          2009 Audit                          97%                          3%
   Office
                  2009 Audit
                (amended files)
                                                         97%                           3%

                     2007 Audit                        not tested
   Memphis
   Resident          2009 Audit                          95%                         5%
   Office
                  2009 Audit
                (amended files)
                                                         97%                           3%

                     2007 Audit                        not tested
   Raleigh
   Resident          2009 Audit                          100%
   Office
                  2009 Audit
                (amended files)
                                                         100%

                     2007 Audit                        not tested
   Greensboro
   Resident          2009 Audit               60%                         40%
   Office
                  2009 Audit
                (amended files)
                                                         100%

                     2007 Audit                        not tested
   Atlanta                                                                           2%
   Division          2009 Audit                          95%                          3%
   Totals
                  2009 Audit
                (amended files)
                                                         98%                           2%


                            Yes    Could Not Determine     No

Source: OIG analysis of DEA records




       81
            “Yes” means documentation showed the name of the witnessing agent or officer
who was present or involved. “No” means documentation showed the name of only one
agent or officer who was present or involved. “Could not determine” means the
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was present or involved.

                                           101
                                    Chicago Division
                  A Witness Was Present During Transport to the DEA

                      2007 Audit                         not tested
   Chicago
   Division           2009 Audit                  64%                       22%    14%
   Office
                    2009 Audit
                  (amended files)
                                                   72%                       14%   14%

                      2007 Audit                         not tested
   Indianapolis
   District           2009 Audit    4%                     86%                      10%
   Office
                    2009 Audit
                  (amended files)
                                            47%                       43%           10%

                      2007 Audit                         not tested
   Minneapolis-
   St. Paul
   District
                      2009 Audit                   71%                      12%    17%
   Office
                    2009 Audit
                  (amended files)
                                                    76%                       6%   18%

                      2007 Audit                         not tested
   Chicago
   Division           2009 Audit            46%                       40%          14%
   Totals
                    2009 Audit
                  (amended files)
                                                  65%                       22%    13%


                              Yes    Could Not Determine    No

Source: OIG analysis of DEA documents




                                            102
                                 Houston Division
                A Witness Was Present During Transport to the DEA

                   2007 Audit      25%                    50%                      25%
   Houston
   Division        2009 Audit           42%                            50%               8%
   Office
                 2009 Audit
               (amended files)
                                               64%                           27%         9%

                   2007 Audit                           not tested
   San
   Antonio         2009 Audit                 62%                      15%         23%
   District
   Office        2009 Audit
               (amended files)
                                                  73%                        12%    15%

                   2007 Audit                             100%
   Austin
   Resident        2009 Audit                             100%
   Office
                 2009 Audit
               (amended files)
                                                          100%

                   2007 Audit                           not tested
   Beaumont
   Resident        2009 Audit                             100%
   Office
                 2009 Audit
               (amended files)
                                                          100%

                   2007 Audit                           not tested
   Laredo
   Resident        2009 Audit            47%                         38%            15%
   Office
                 2009 Audit
               (amended files)
                                                        92%                              8%

                   2007 Audit         36%                        45%                19%
   Houston
   Division        2009 Audit               53%                        30%          17%
   Totals
                 2009 Audit
               (amended files)
                                                  75%                         15%    10%



                           Yes    Could Not Determine       No

Source: OIG analysis of DEA documents




                                         103
                                    Miami Division
                  A Witness Was Present During Transport to the DEA

                      2007 Audit     25%                           68%                 7%
   Miami
   Division           2009 Audit                  66%                          31%      3%
   Office
                    2009 Audit
                  (amended files)
                                                         90%                          10%

                      2007 Audit      27%                             73%
   Orlando
   District           2009 Audit                          92%                          8%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit                    77%                          23%
   Tampa
   District           2009 Audit              59%                        18%     23%
   Office           2009 Audit
                  (amended files)
                                                        82%                      6% 12%

                      2007 Audit                         not tested
   Gainesville
   Resident           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit                         not tested
   Jacksonville
   District           2009 Audit                          93%                          7%
   Office
                    2009 Audit
                  (amended files)
                                                          93%                          7%

                      2007 Audit      27%                          65%                 8%
   Miami
   Division           2009 Audit                    78%                         15%    7%
   Totals                                                                             5%
                    2009 Audit
                  (amended files)
                                                          92%                           3%



                              Yes   Could Not Determine       No

Source: OIG analysis of DEA documents




                                            104
                              New England Division
                 A Witness Was Present During Transport to the DEA


                     2007 Audit                          not tested
   Boston
   Division          2009 Audit      29%            24%                     47%
   Office
                   2009 Audit
                 (amended files)
                                     29%            24%                     47%

                     2007 Audit                          not tested
   New Bedford
   Resident          2009 Audit                           100%
   Office
                   2009 Audit
                 (amended files)
                                                          100%

                     2007 Audit                          not tested
   Providence
   Resident          2009 Audit         40%                    30%                30%
   Office
                   2009 Audit
                 (amended files)
                                                 70%                              30%

                     2007 Audit                          not tested
   Burlington
   Resident          2009 Audit                          92%                            8%
   Office
                   2009 Audit
                 (amended files)
                                                          100%

                     2007 Audit                          not tested
   New England
   Division          2009 Audit            53%                    17%             30%
   Totals
                   2009 Audit
                 (amended files)
                                              61%                     11%         28%



                             Yes   Could Not Determine      No

Source: OIG analysis of DEA documents




                                           105
                                  San Diego Division
                A Witness Was Present During Transport to the DEA

                    2007 Audit                          not tested
   San Diego
   Division         2009 Audit          37%                   34%               29%
   Office
                  2009 Audit
                (amended files)
                                                60%                      23%      17%


   Imperial
                    2007 Audit                          not tested
   County
   District         2009 Audit                    71%                           29%
   Office
                  2009 Audit
                (amended files)
                                                      79%                        21%

                    2007 Audit                          not tested
   Carlsbad
   Resident         2009 Audit            43%                      38%           19%
   Office
                  2009 Audit
                (amended files)
                                          43%                      38%           19%

                    2007 Audit                          not tested
   San Ysidro
   Resident         2009 Audit                              100%
   Office
                  2009 Audit
                (amended files)
                                                            100%

                    2007 Audit                          not tested
   San
   Diego            2009 Audit              52%                      30%         18%
   Division
   Totals         2009 Audit
                (amended files)
                                                63%                       24%     13%


                            Yes     Could Not Determine      No

Source: OIG analysis of DEA documents




                                           106
                              Washington Division
                A Witness Was Present During Transport to the DEA

                    2007 Audit    8%                 67%                    25%
   Washington
   Division         2009 Audit         25%           35%               40%
   Office
                  2009 Audit
                (amended files)
                                       30%          20%               50%

                    2007 Audit         29%                 45%              26%
   Baltimore
   District         2009 Audit               42%            23%         35%
   Office
                  2009 Audit
                (amended files)
                                              49%               16%     35%

                    2007 Audit                        not tested
   Charleston
   Resident         2009 Audit    16%               46%                 38%
   Office
                  2009 Audit
                (amended files)
                                  16%               46%                 38%

                    2007 Audit                        not tested
   Hagerstown
   Resident         2009 Audit                            100%
   Office
                  2009 Audit
                (amended files)
                                                          100%

                    2007 Audit     21%                   50%                29%
   Washington
   Division         2009 Audit         30%                35%           35%
   Totals
                  2009 Audit
                (amended files)
                                        34%               28%           38%


                            Yes    Could Not Determine     No

Source: OIG analysis of DEA documents




                                             107
                                                                        Appendix 10

            Recording Seized Cash in the HVSRM Ledger82

                                  Atlanta Division
                     Recording Seized Cash in the HVSRM Ledger

                     2007 Audit                        not tested
   Atlanta
   Division          2009 Audit                          100%
   Office
                  2009 Audit
                (amended files)
                                                         100%

                     2007 Audit                        not tested
   Memphis
   Resident          2009 Audit                          100%
   Office
                  2009 Audit
                (amended files)
                                                         100%

                     2007 Audit                        not tested
   Raleigh
   Resident          2009 Audit                          100%
   Office
                  2009 Audit
                (amended files)
                                                         100%

                     2007 Audit                        not tested
   Greensboro
   Resident          2009 Audit                          100%
   Office
                  2009 Audit
                (amended files)
                                                         100%

                     2007 Audit                        not tested
   Atlanta
   Division          2009 Audit                          100%
   Totals
                  2009 Audit
                (amended files)
                                                         100%


                                         Yes   No

Source: OIG analysis of DEA records




       82
            “Yes” means documentation showed the name of the witnessing agent or officer
who was present or involved. “No” means documentation showed the name of only one
agent or officer who was present or involved. “Could not determine” means the
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was present or involved.

                                           108
                                Chicago Division
                    Recording Seized Cash in the HVSRM Ledger

                  2007 Audit                        not tested
   Chicago
   Division       2009 Audit                         100%
   Office
                2009 Audit
                                                     100%
              (amended files)

                  2007 Audit                        not tested

   Indianapolis
   District       2009 Audit                         100%
   Office
                2009 Audit
                                                     100%
              (amended files)

                  2007 Audit                        not tested
   Minneapolis-
   St. Paul
   District       2009 Audit                         100%
   Office
                2009 Audit
                                                     100%
              (amended files)

                  2007 Audit                        not tested
   Chicago
   Division       2009 Audit                  57%                43%
   Totals
                2009 Audit
                                              57%                43%
              (amended files)


                                        Yes   No

Source: OIG analysis of DEA documents




                                         109
                                 Houston Division
                    Recording Seized Cash in the HVSRM Ledger

                   2007 Audit                        100%
   Houston
   Division        2009 Audit                        100%
   Office
                 2009 Audit
               (amended files)
                                                     100%

                   2007 Audit                      not tested
   San
   Antonio         2009 Audit                        100%
   District
   Office        2009 Audit
               (amended files)
                                                     100%

                   2007 Audit                        100%
   Austin
   Resident        2009 Audit                        100%
   Office
                 2009 Audit
               (amended files)
                                                     100%

                   2007 Audit                      not tested
   Beaumont
   Resident        2009 Audit                        100%
   Office
                 2009 Audit
               (amended files)
                                                     100%

                   2007 Audit                      not tested
   Laredo
   Resident        2009 Audit                      88%          12%
   Office
                 2009 Audit
               (amended files)
                                                   88%          12%

                   2007 Audit                        100%
   Houston
   Division        2009 Audit                       97%           3%
   Totals
                 2009 Audit
               (amended files)
                                                    97%           3%



                                        Yes   No

Source: OIG analysis of DEA documents




                                         110
                                    Miami Division
                       Recording Seized Cash in the HVSRM Ledger

                      2007 Audit                           100%
   Miami
   Division           2009 Audit    14%                       86%
   Office
                    2009 Audit
                  (amended files)
                                    14%                       86%

                      2007 Audit                           100%
   Orlando
   District           2009 Audit                     79%                  21%
   Office
                    2009 Audit
                  (amended files)
                                                     79%                  21%

                      2007 Audit                           100%
   Tampa
   District           2009 Audit                           100%
   Office           2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit                       not tested
   Gainesville
   Resident           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit                       not tested
   Jacksonville
   District           2009 Audit                           100%
   Office
                    2009 Audit
                  (amended files)
                                                           100%

                      2007 Audit    5%                      95%
   Miami
   Division           2009 Audit            47%                     53%
   Totals
                    2009 Audit
                  (amended files)
                                            47%                     53%



                                          Yes   No

Source: OIG analysis of DEA documents




                                           111
                              New England Division
                      Recording Seized Cash in the HVSRM Ledger


                     2007 Audit                     not tested
   Boston
   Division          2009 Audit    8%                   92%
   Office
                   2009 Audit
                 (amended files)
                                   8%                   92%

                     2007 Audit                     not tested
   New Bedford
   Resident          2009 Audit                      100%
   Office
                   2009 Audit
                 (amended files)
                                                     100%

                     2007 Audit                     not tested
   Providence
   Resident          2009 Audit                      100%
   Office
                   2009 Audit
                 (amended files)
                                                     100%

                     2007 Audit                     not tested
   Burlingto
   n                 2009 Audit                      100%
   Resident
   Office          2009 Audit
                 (amended files)
                                                     100%

                     2007 Audit                     not tested
   New
   England           2009 Audit               62%                 38%
   Division
   Totals          2009 Audit
                 (amended files)
                                              62%                 38%



                                        Yes   No

Source: OIG analysis of DEA documents




                                         112
                                  San Diego Division
                     Recording Seized Cash in the HVSRM Ledger

                    2007 Audit                     not tested
   San Diego
   Division         2009 Audit                      92%           8%
   Office
                  2009 Audit
                (amended files)
                                                    92%           8%


   Imperial
                    2007 Audit                     not tested
   County
   District         2009 Audit                       100%
   Office
                  2009 Audit
                (amended files)
                                                     100%

                    2007 Audit                     not tested
   Carlsbad
   Resident         2009 Audit                     86%           14%
   Office
                  2009 Audit
                (amended files)
                                                   86%           14%

                    2007 Audit                     not tested
   San Ysidro
   Resident         2009 Audit                     89%           11%
   Office
                  2009 Audit
                (amended files)
                                                   89%           11%

                    2007 Audit                     not tested
   San
   Diego            2009 Audit                      93%           7%
   Division
   Totals         2009 Audit
                (amended files)
                                                    93%           7%


                                        Yes   No

Source: OIG analysis of DEA documents




                                         113
                              Washington Division
                     Recording Seized Cash in the HVSRM Ledger

                    2007 Audit                             100%

   Washington
                    2009 Audit                     73%                27%
   Division
   Office         2009 Audit
                (amended files)
                                                   73%                27%

                    2007 Audit                             100%
   Baltimore
   District         2009 Audit                     73%                27%
   Office
                  2009 Audit
                (amended files)
                                                   73%                27%

                    2007 Audit                           not tested
   Charleston
   Resident         2009 Audit                             100%
   Office
                  2009 Audit
                (amended files)
                                                           100%

                    2007 Audit                           not tested
   Hagerstown
                    2009 Audit                     75%                25%
   Resident
   Office         2009 Audit
                (amended files)
                                                   75%                25%

                    2007 Audit                             100%
   Washington
   Division         2009 Audit                      81%                19%
   Totals
                  2009 Audit
                (amended files)
                                                    81%                19%


                                        Yes   No

Source: OIG analysis of DEA documents




                                         114
                                                                               Appendix 11

    Average Number of Working Days from Seizure to
    Transport to a Bank or Other Financial Institution 83

                 Raleigh, NC    1.1
              San Diego, CA     1.3                           Transported within 5
            Indianapolis, IN     1.5                          working days
                Carlsbad, CA     1.5
         Imperial County, CA     1.5
                                                              Average Number of
                                                              Working Days for all
              Gainesville, FL    1.6
                                                              offices tested
                  Laredo, TX     1.7
                                                              Exceeded 5 working days
            Hagerstown, MD         2.0
              Providence, RI          2.2
               Memphis, TN            2.2
             San Antonio, TX          2.3
            New Bedford, MA           2.3
    Minneapolis-St. Paul, MN           2.4
                 Orlando, FL           2.4
                Houston, TX            2.5
             Greensboro, NC                 3.3
        Average (29 offices)                 3.3
                 Boston, MA                  3.4
             Jacksonville, FL                3.5
              Baltimore, MD                  3.6
                  Austin, TX                   4.0
              Beaumont, TX                     4.0
             Charleston, WV                    4.0
                 Atlanta, GA                       5.03
                 Chicago, IL                         5.5
              Burlington, VT                         5.6
              San Ysidro, CA                          5.8
                  Tampa, FL                           6.1
                   Miami, FL                                7.1
             Washington, DC                                  7.6


  Source: OIG analysis of DEA documents


       83
          In May 2008, the DEA implemented a policy requiring that seized cash be
transported to a bank or other financial institution no later than 5 working days after the
DEA acquired the currency.

                                                   115
                                                                                             Appendix 12

       Average Number of Working Days from Seizure to
              Transfer of the Funds to the USMS


             San Diego, CA     1.3
              Carlsbad, CA     1.5                                         Met the 15-working-day
           San Antonio, TX      2.4                                        requirement
                Orlando, FL     2.4
       Imperial County, CA      2.6                                        Exceeded the 15-working-
                                                                           day requirement
           Jacksonville, FL          3.5
             Baltimore, MD           3.6
                                                                           Average for all Offices
                Atlanta, GA            5.3                                 Tested
                Chicago, IL            5.5
            San Ysidro, CA                 5.8
                 Tampa, FL                 6.3
                  Miami, FL                 7.1
              Memphis, TN                        8.9
       Average (29 offices)                      10.0
                Boston, MA                        10.6
                 Austin, TX                        11.0
             Beaumont, TX                          11.0
                Laredo, TX                         11.1
             Gainesville, FL                       11.1
               Houston, TX                             12.0
          New Bedford, MA                              12.3
                Raleigh, NC                            12.5
            Providence, RI                              13.3
           Washington, DC                                 14.4
           Indianapolis, IN                               14.8
   Minneapolis-St. Paul, MN                               15.2
           Greensboro, NC                                        17.9
             Burlington, VT                                      18.8
           Hagerstown, MD                                           21.0
            Charleston, WV                                                 25.9


Source: OIG analysis of DEA documents




                                                              116
                                                                        Appendix 13

 Transferring Seized Cash to the Evidence Custodian Using
            the Proper Chain of Custody Forms84

                                   Atlanta Division
            Transferring the Seized Cash to the Evidence Custodian Using the
                             Proper Chain-of-Custody Forms

   Atlanta           2007 audit                        not tested
   Division
   Office            2009 audit                       86%                         14%
                   2009 audit
                 (amended files)
                                                      86%                         14%


   Memphis
                     2007 audit                        not tested
   Resident
   Office            2009 audit                          97%                            3%
                   2009 audit
                 (amended files)
                                                         97%                           3%

                     2007 audit                        not tested
   Raleigh
   Resident          2009 audit                          100%
   Office
                   2009 audit
                 (amended files)
                                                         100%

                     2007 audit                        not tested
   Greensboro
   Resident          2009 audit                          100%
   Office
                   2009 audit
                 (amended files)
                                                         100%

                     2007 audit                        not tested
   Atlanta
   Division          2009 audit                         95%                           5%
   Totals
                   2009 audit
                 (amended files)
                                                        95%                           5%


                                         Yes   No

Source: OIG analysis of DEA documents


       84
            “Yes” means documentation showed the name of the witnessing agent or officer
who was present or involved. “No” means documentation showed the name of only one
agent or officer who was present or involved. “Could not determine” means the
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was present or involved.

                                           117
                                    Chicago Division
         Transferring the Seized Cash to the Evidence Custodian Using the
                          Proper Chain-of-Custody Forms

                      2007 audit                      not tested

   Chicago
                      2009 audit    14%                     86%
   Division
   Office
                    2009 audit
                  (amended files)
                                    14%                     86%

                      2007 audit                      not tested
   Indianapolis
   District           2009 audit                        100%
   Office
                    2009 audit
                  (amended files)
                                                        100%


   Minneapolis-
                      2007 audit                      not tested
   St. Paul
   District           2009 audit                      90%                   10%
   Office
                    2009 audit
                  (amended files)
                                                      90%                   10%

                      2007 audit                      not tested
   Chicago
   Division           2009 audit          32%                      68%
   Totals
                    2009 audit
                  (amended files)
                                          32%                      68%


                                           Yes   No

Source: OIG analysis of DEA documents




                                            118
                                 Houston Division
         Transferring the Seized Cash to the Evidence Custodian Using the
                          Proper Chain-of-Custody Forms
                   2007 audit                      75%                     25%
   Houston
   Division        2009 audit                   71%                        29%
   Office
                 2009 audit
               (amended files)
                                                71%                        29%

   San             2007 audit                         not tested
   Antonio
   District        2009 audit                            92%                     8%
   Office        2009 audit
               (amended files)
                                                         92%                     8%

                   2007 audit                            100%
   Austin
   Resident
                   2009 audit             50%                        50%
   Office
                 2009 audit
               (amended files)
                                          50%                        50%

                   2007 audit                         not tested
   Beaumont
   Resident        2009 audit                            100%
   Office
                 2009 audit
               (amended files)
                                                         100%

                   2007 audit                         not tested
   Laredo
   Resident        2009 audit                  67%                       33%
   Office
                 2009 audit
               (amended files)
                                               67%                       33%

                   2007 audit           37%                        63%
   Houston
   Division        2009 audit                      79%                      21%
   Totals
                 2009 audit
               (amended files)
                                                   79%                      21%



                                        Yes   No

Source: OIG analysis of DEA documents




                                         119
                                     Miami Division
              Transferring Seized Cash to the Evidence Custodian Using the
                             Proper Chain-of-Custody Forms
                      2007 Audit                        100%
   Miami
   Division           2009 Audit                        100%
   Office
                    2009 Audit
                  (amended files)
                                                        100%

   Orlando            2007 Audit                        100%
   District
   Office             2009 Audit             50%                      50%
                    2009 Audit
                  (amended files)
                                             50%                      50%

                      2007 Audit    6%                    94%
   Tampa
   District
                      2009 Audit     20%                       80%
   Office
                    2009 Audit
                  (amended files)
                                     20%                       80%

                      2007 Audit                      not tested
   Gainesville
   Resident           2009 Audit                      92%                    8%
   Office
                    2009 Audit
                  (amended files)
                                                      92%                    8%

                      2007 Audit                      not tested
  Jacksonville
  District            2009 Audit                        100%
  Office
                    2009 Audit
                  (amended files)
                                                        100%

                      2007 Audit    12%                     88%
   Miami
   Division
                      2009 Audit           42%                       58%
   Totals
                    2009 Audit
                  (amended files)
                                           42%                       58%


                                           Yes   No

Source: OIG analysis of DEA documents




                                            120
                              New England Division
              Transferring Seized Cash to the Evidence Custodian Using the
                             Proper Chain-of-Custody Forms

                     2007 Audit                        not tested
   Boston
   Division          2009 Audit               58%                      42%
   Office
                   2009 Audit
                 (amended files)
                                                    no amended files

                     2007 Audit                        not tested

   New Bedford
   Resident          2009 Audit                           100%
   Office
                   2009 Audit
                 (amended files)
                                                          100%

                     2007 Audit                        not tested
   Providence
   Resident
   Office
                     2009 Audit                     81%                      19%

                   2009 Audit
                 (amended files)
                                                    81%                      19%

                     2007 Audit                        not tested
   Burlington
   Resident          2009 Audit                           100%
   Office
                   2009 Audit
                 (amended files)
                                                          100%

                     2007 Audit                        not tested

  New England
  Division
                     2009 Audit                     80%                      20%
  Totals
                   2009 Audit
                 (amended files)
                                                    80%                      20%



                                        Yes   No

Source: OIG analysis of DEA documents




                                         121
                                    San Diego Division
              Transferring Seized Cash to the Evidence Custodian Using the
                             Proper Chain-of-Custody Forms

   San Diego
                      2007 audit                     not tested
   Division
   Office             2009 audit                     87%                     13%
                    2009 audit
                  (amended files)
                                                     87%                     13%

   Imperial           2007 audit                     not tested
   County
   District           2009 audit                      96%                      4%
   Office
                    2009 audit
                  (amended files)
                                                      96%                      4%

                      2007 audit                     not tested
   Carlsbad
   Resident
                      2009 audit                       100%
   Office
                    2009 audit
                  (amended files)
                                                       100%

                      2007 audit                     not tested
   San Ysidro
   Resident           2009 audit                       100%
   Office
                    2009 audit
                  (amended files)
                                                       100%

                      2007 audit                     not tested
   San
   Diego              2009 audit                      94%                     6%
   Division
   Totals           2009 audit
                  (amended files)
                                                      94%                     6%


                                          Yes   No

Source: OIG analysis of DEA documents




                                           122
                            Washington Division
           Transferring the Seized Cash to the Evidence Custodian Using
                        the Proper Chain-of-Custody Forms
                    2007 audit                            100%
   Washington
   Division
                    2009 audit                61%                  39%
   Office         2009 audit
                (amended files)
                                              61%                  39%

                    2007 audit                            100%
   Baltimore
   District         2009 audit                  67%                 33%
   Office
                  2009 audit
                (amended files)
                                                67%                 33%

                    2007 audit                        not tested
   Charleston
   Resident         2009 audit                      81%                   19%
   Office
                  2009 audit
                (amended files)
                                                    81%                   19%

                    2007 audit                        not tested
   Hagerstown
   Resident         2009 audit                      80%                   20%
   Office
                  2009 audit
                (amended files)
                                                    80%                   20%

                    2007 audit                            100%
   Washington
   Division         2009 audit                  69%                  31%
   Totals
                  2009 audit
                (amended files)
                                                69%                  31%


                                        Yes   No

Source: OIG analysis of DEA documents




                                          123
                                                                      Appendix 14

              Amended DEA-6, Reports of Investigation85

                                                              Calendar
                                                    Date of
                     Sample   Exhibit     Date                  Days
 No.        Office                                 Amended                     Explanation
                     Number   Number     Seized                 after
                                                    DEA-6
                                                               Seizure
                                                                         Adds the name of a
                                                                         second agent who
        Atlanta
                              N-110 &                                    transported the cash to
  1     Division       1                08/22/07   02/07/08     169
                              N-111                                      the DEA and two agents
        Office
                                                                         who transferred custody
                                                                         to the USMS.
                                                                         Adds the names of two
                                                                         agents present at
        Atlanta                                                          seizure, transport to the
                              N-110 &
  2     Division       1                08/22/07   12/02/08     468      DEA, and transport to
                              N-111
        Office                                                           the armored car
                                                                         company for an official
                                                                         count.
                                                                         Adds the names of two
                                                                         agents present at
                                                                         seizure, sealing, and
        Atlanta
                                                                         transport to the DEA
  3     Division       2       N-129    08/30/07   12/02/08     460
                                                                         office. Also states that a
        Office
                                                                         receipt was not prepared
                                                                         for several changes in
                                                                         custody.
                                                                         Adds the name of the
                                                                         agent who witnessed the
                                                                         currency being deposited
        Atlanta
                                                                         into the temporary
  4     Division       3        N-2     08/30/07   02/08/08     162
                                                                         overnight drop box and
        Office
                                                                         the names of the agents
                                                                         involved in other chain of
                                                                         custody activities.
        Atlanta                                                          Adds the names of
  5     Division       3        N-2     08/30/07   12/02/08     460      agents involved in the
        Office                                                           chain of custody.
        Atlanta                                                          Adds the names of
  6     Division       4        N-9     08/30/07   12/02/08     460      agents involved in the
        Office                                                           chain of custody.
                                                                         Adds the names of
        Atlanta
                                                                         agents who transported
  7     Division       8        N-97    10/17/07   12/04/08     414
                                                                         the seized cash to the
        Office
                                                                         armored car company.




       85
           The amended DEA-6s shown are those that added or changed information related
to the seizure or the chain of custody of the seized cash.

                                         124
                                                          Calendar
                                                Date of
                 Sample   Exhibit    Date                   Days
No.     Office                                 Amended                     Explanation
                 Number   Number    Seized                  after
                                                DEA-6
                                                           Seizure
                                                                     Adds the name of a
                                                                     second officer who
      Atlanta
                                                                     participated in the
8     Division     12      N-132    12/06/07   12/02/08     362
                                                                     seizure and transport of
      Office
                                                                     the cash to the armored
                                                                     car company.
                                                                     Adds the names of
      Atlanta                                                        second officers who were
9     Division     15      N-150    12/06/07   12/02/08     362      present at seizure and
      Office                                                         transport of the
                                                                     currency.
                                                                     Adds the names of
      Atlanta
                                                                     second officers who were
10    Division     16      N-181    12/06/07   12/02/08     362
                                                                     present at seizure and
      Office
                                                                     transport of the cash.
                                                                     States that two officers
                                                                     transported the cash to
                                                                     an armored car
      Atlanta                                                        company. Also states
11    Division     20       N-5     04/08/08   12/04/08     240      that state police released
      Office                                                         the currency to the DEA
                                                                     but the DEA did not
                                                                     provide a DEA-12
                                                                     receipt.
                                                                     Adds the names of
      Atlanta
                                                                     agents who participated
12    Division     22      N-28     05/12/08   12/04/08     206
                                                                     in various chain of
      Office
                                                                     custody activities.
                                                                     Provides a more
                                                                     comprehensive narrative
                                                                     about the seizure and
      Atlanta
                                                                     names the agents who
13    Division     31       N-1     09/17/08   09/22/08      5
                                                                     took custody and
      Office
                                                                     transferred the currency
                                                                     to the evidence
                                                                     custodian.
                                                                     Adds the names of
      Atlanta                                                        agents involved in chain
14    Division     36       N-2     10/27/08   12/05/08     39       of custody activities not
      Office                                                         described in the initial
                                                                     DEA-6.
                                                                     Changes the date of a
                                                                     DEA-12 receipt and adds
      Atlanta                                                        names of officers who
15    Division     38      N-21     11/03/08   12/04/08     31       participated in chain of
      Office                                                         custody activities but
                                                                     were not listed on the
                                                                     initial DEA-6.
      Atlanta                                                        Adds the names of
16    Division     39      N-28     11/06/08   12/04/08     28       agents involved in chain
      Office                                                         of custody activities.



                                     125
                                                            Calendar
                                                  Date of
                   Sample   Exhibit    Date                   Days
No.     Office                                   Amended                     Explanation
                   Number   Number    Seized                  after
                                                  DEA-6
                                                             Seizure
      Greensboro                                                       Adds the name of a
17    Resident       1       N-47     11/01/07   12/16/08     411      second agent present
      Office                                                           during the initial seizure.
                                                                       Adds the name of a
      Greensboro                                                       witness present when
18    Resident       2       N-103    12/06/07   12/16/08     376      the DEA acquired a
      Office                                                           check from a local law
                                                                       enforcement agency.
      Greensboro                                                       Adds the name of a
19    Resident       3       N-97     12/06/07   12/16/08     376      second agent present at
      Office                                                           the initial seizure.
      Greensboro                                                       Adds the name of a
20    Resident       4       N-92     11/29/07   12/16/08     383      second agent present at
      Office                                                           the initial seizure.
                                                                       Corrects the time of
      Greensboro                                                       seizure and the time the
21    Resident       6       N-86     10/10/08   12/16/08     67       exhibit was placed into
      Office                                                           temporary storage at the
                                                                       DEA office.
                                                                       Adds the name of a
                                                                       second agent present
      Greensboro                                                       when the seized cash
22    Resident       14       N-3     08/23/08   12/16/08     115      was transferred to the
      Office                                                           bank for an official count
                                                                       and conversion to a
                                                                       cashier's check.
                                                                       Adds the names of two
                                                                       agents present at initial
                                                                       seizure confirmation that
                                                                       two agents sealed the
      Greensboro
                                                                       cash in an evidence
23    Resident       15       N-2     10/28/08   12/16/08     49
                                                                       envelope, and the name
      Office
                                                                       of the agent who
                                                                       transported the cash to
                                                                       the bank for an official
                                                                       count.
                                                                       Adds the names of
                                                                       officers who transported
                                                                       the seized cash to the
      Memphis                                                          bank for an official
24    Resident       8        N-3     02/12/08   3/17/08      34       count, transported the
      Office                                                           cashier's check to the
                                                                       DEA office, and
                                                                       surrendered the check to
                                                                       the evidence custodian.
      Memphis                                                          Corrects chain of custody
25    Resident       10       N-1     09/06/07   01/25/08     141      information in the initial
      Office                                                           DEA-6.
                                                                       Adds the names of two
      Memphis                                                          agents who transported
26    Resident       12      N-13     09/11/07   09/19/07      8       the cashier's check to
      Office                                                           the evidence custodian
                                                                       and then to the USMS.

                                       126
                                                          Calendar
                                                Date of
                 Sample   Exhibit    Date                   Days
No.     Office                                 Amended                     Explanation
                 Number   Number    Seized                  after
                                                DEA-6
                                                           Seizure
                                                                     Adds the names of the
                                                                     agents who sealed the
      Memphis
                                                                     currency in an evidence
27    Resident     22      N-320    11/23/07   12/17/08     390
                                                                     bag and, transported the
      Office
                                                                     cash to the DEA, the
                                                                     bank, and the USMS.
                                                                     Adds the names of
                                                                     officers who sealed the
                                                                     currency and transported
      Memphis                                                        it to the DEA and to the
28    Resident     27       N-1     09/21/07   10/12/07     21       bank for an official count
      Office                                                         and conversion to a
                                                                     cashier's check, and the
                                                                     agent who released the
                                                                     check to the USMS.
                                                                     Explains that the day
                                                                     after the suspect was
                                                                     arrested agents
                                                                     discovered additional
      Memphis
                                                                     money on his person.
29    Resident     29      N-19     07/01/08   10/16/08     107
                                                                     Agents sealed the
      Office
                                                                     currency in an evidence
                                                                     envelope and
                                                                     transported it to the DEA
                                                                     office for safekeeping.
                                                                     Corrects an error in the
                                                                     initial DEA-6. Initial
                                                                     DEA-6 stated that agent
      Memphis
                                                                     X received a DEA-12 for
30    Resident     33      N-62     06/13/08   12/16/08     186
                                                                     the currency; however,
      Office
                                                                     agent X received the
                                                                     currency and agent Y
                                                                     received a DEA-12.
                                                                     Adds the names of
                                                                     agents who transported
                                                                     the cash to a bank for an
      Memphis                                                        official count and then
31    Resident     34       N-1     09/06/07   09/19/07     13       transported the cashier's
      Office                                                         check back to the DEA
                                                                     office and surrendered it
                                                                     to the evidence
                                                                     custodian.
                                                                     Adds the names of two
      Memphis                                                        agents who transported
32    Resident     35      N-341    11/23/07   01/31/08     69       seized cash to the DEA
      Office                                                         and later to the bank for
                                                                     the official count.




                                     127
                                                          Calendar
                                                Date of
                 Sample   Exhibit    Date                   Days
No.     Office                                 Amended                     Explanation
                 Number   Number    Seized                  after
                                                DEA-6
                                                           Seizure
                                                                     Adds the names of two
                                                                     agents present when the
                                                                     currency was sealed
                                                                     confirms that a DEA-12
      Raleigh
                                                                     was provided to the
33    Resident     2       N-19     08/04/08   08/11/08      7
                                                                     suspect, and names the
      Office
                                                                     two agents who
                                                                     transported the seized
                                                                     cash to the bank for the
                                                                     official count.
                                                                     Adds more detail to the
      Raleigh                                                        chain of custody
34    Resident     3       N-103    12/13/07   12/15/08     368      activities, including the
      Office                                                         names of the agents
                                                                     involved.
                                                                     Corrects an error in the
                                                                     initial DEA-6. Amounts
                                                                     reported in two sections
      Raleigh
                                                                     of the initial DEA-6 were
35    Resident     16      N-28     06/23/08   12/16/08     176
                                                                     different. The amount
      Office
                                                                     reported in the Custody
                                                                     of Evidence section was
                                                                     incorrect.
                                                                     Provides details of the
      Raleigh                                                        chain of custody and
36    Resident     19       N-9     03/04/08   04/16/08     43       reports that the initial
      Office                                                         DEA-6 did not include
                                                                     the exhibit number.
                                                                     Adds that a second
                                                                     officer was present at
                                                                     seizure. Memo adds the
                                                                     names of two officers
                                                                     who transported exhibit
      Chicago
                                                                     to the DEA office. Memo
37    Division     7        N-1     08/05/08   02/18/09     197
                                                                     names officers who
      Office
                                                                     secured the exhibit in
                                                                     the overnight vault and
                                                                     transported the cash for
                                                                     an official count and to
                                                                     the USMS.
                                                                     Adds the names of the
                                                                     two officers present at
                                                                     seizure, transport to a
      Chicago                                                        DEA office, and transport
38    Division     11      N-98     08/29/08   02/13/09     168      to the armored car
      Office                                                         company for an official
                                                                     count. Original DEA-6
                                                                     did not include the
                                                                     identity of the officers.




                                     128
                                                              Calendar
                                                    Date of
                     Sample   Exhibit    Date                   Days
No.     Office                                     Amended                     Explanation
                     Number   Number    Seized                  after
                                                    DEA-6
                                                               Seizure
                                                                         Adds the names of the
                                                                         officers who transported
                                                                         the seizure to the DEA
      Chicago
                                                                         office, secured it in a
39    Division         14      N-83     08/29/08   02/13/09     168
                                                                         vault, then transported it
      Office
                                                                         to the armored car
                                                                         company for an official
                                                                         count.
                                                                         Changes the names of
      Chicago
                                                                         two agents who were
40    Division         14      N-83     08/29/08   02/18/09     173
                                                                         recorded on another
      Office
                                                                         cash-seizure form.
                                                                         Adds the names of the
                                                                         officers who transported
                                                                         the seizure to the DEA
      Chicago
                                                                         office, secured it in a
41    Division         29      N-84     08/29/08   02/13/09     168
                                                                         vault, then transported it
      Office
                                                                         to the armored car
                                                                         company for an official
                                                                         count.
                                                                         Adds that agents sealed
      Indianapolis                                                       the currency in an
42    District         1        N-1     08/20/08   02/19/09     183      evidence bag and
      Office                                                             provided a receipt to the
                                                                         suspect.
                                                                         Adds that agents sealed
      Indianapolis                                                       the currency in an
43    District         3       N-130    01/24/08   02/19/09     392      evidence bag and
      Office                                                             provided a receipt to the
                                                                         suspect.
                                                                         Adds the names of the
                                                                         agents present from
                                                                         seizure through
      Indianapolis                                                       transport to a DEA office.
44    District         4        N-1     07/01/08   02/20/09     234      Original DEA 6 did not
      Office                                                             account for custody
                                                                         activity prior to the
                                                                         official count and
                                                                         conversion to a check.
                                                                         Adds the names of the
                                                                         agents who sealed the
      Indianapolis
                                                                         currency in an evidence
45    District         5       N-148    01/24/08   02/19/09     392
                                                                         bag and transported the
      Office
                                                                         bag to the DEA and then
                                                                         to the bank.
                                                                         Adds the names of the
                                                                         agents who sealed the
      Indianapolis                                                       currency in an evidence
46    District         6       N-99     08/22/07   02/20/09     548      envelope, provided a
      Office                                                             receipt, and transported
                                                                         the currency to the bank
                                                                         for an official count.


                                         129
                                                              Calendar
                                                    Date of
                     Sample   Exhibit    Date                   Days
No.     Office                                     Amended                     Explanation
                     Number   Number    Seized                  after
                                                    DEA-6
                                                               Seizure
                                                                         Adds the names of
                                                                         witnesses present when
                                                                         a state law enforcement
      Indianapolis                                                       agency transferred the
47    District         7       N-28     04/23/08   02/23/09     306      currency to the DEA.
      Office                                                             Also names the agents
                                                                         who transported the
                                                                         cash to a bank for an
                                                                         official count.
                                                                         Explains that the amount
                                                                         described in the initial
      Indianapolis
                                                                         DEA-6 was for two
48    District         8        N-3     06/19/08   01/06/09     201
                                                                         seizures. This amended
      Office
                                                                         DEA-6 identifies the
                                                                         amount of this seizure.
                                                                         Adds the names of
      Indianapolis
                                                                         agents who sealed and
49    District         10       N-2     09/11/08   02/19/09     161
                                                                         transported the currency
      Office
                                                                         to a bank.
                                                                         Adds the names of
      Indianapolis
                                                                         agents who sealed and
50    District         11       N-1     08/13/08   02/19/09     190
                                                                         transported the currency
      Office
                                                                         to a bank.
                                                                         Adds the names of the
      Indianapolis                                                       agents present when
51    District         12      N-24     08/01/08   02/19/09     202      currency was seized and
      Office                                                             sealed in an evidence
                                                                         envelope.
                                                                         Adds the names of
                                                                         officers present at
                                                                         seizure, sealing, and
      Indianapolis
                                                                         transport of the currency
52    District         13      N-40     09/16/08   02/26/09     163
                                                                         to a bank. Original
      Office
                                                                         DEA-6 was vague
                                                                         regarding the chain of
                                                                         custody.
                                                                         Adds the name of a
                                                                         second agent present at
      Indianapolis                                                       seizure and the names of
53    District         15       N-3     02/13/08   02/19/09     372      two agents who
      Office                                                             transported the cash to
                                                                         the DEA and to the bank
                                                                         for an official count.
                                                                         Adds the names of two
                                                                         agents who transported
      Indianapolis
                                                                         seized cash to the DEA,
54    District         16       N-4     11/10/08   02/19/09     101
                                                                         photographed the cash,
      Office
                                                                         and then sealed the cash
                                                                         in evidence envelopes.




                                         130
                                                               Calendar
                                                     Date of
                     Sample   Exhibit     Date                   Days
No.     Office                                      Amended                     Explanation
                     Number   Number     Seized                  after
                                                     DEA-6
                                                                Seizure
                                                                          Adds the name of a
                                                                          second agent present at
                                                                          seizure, names of two
                                                                          agents who transported
      Indianapolis                                                        seized cash to the DEA
55    District         19      N-23      12/14/07   02/19/09     433      and sealed it in an
      Office                                                              evidence envelope, and
                                                                          names of two agents
                                                                          who transported the
                                                                          currency to the bank for
                                                                          an official count.
                                                                          Adds the name of the
                                                                          agent who sealed the
      Indianapolis
                                                                          seized cash, placed it in
56    District         20      N-60      09/16/08   02/24/09     161
                                                                          temporary storage at the
      Office
                                                                          DEA, and the name of
                                                                          the witnessing agent.
                                                                          Adds that the seizing
                                                                          agents sealed the
      Indianapolis
                                                                          currency and provided a
57    District         26       N-2      09/25/08   02/18/09     146
                                                                          receipt to the person
      Office
                                                                          from whom the cash was
                                                                          seized.
                                                                          Adds the names of
      Indianapolis                                                        agents who received
58    District         27      N-37      07/16/08   02/24/09     223      cash from a state
      Office                                                              trooper, transported it to
                                                                          the DEA, and secured it.
                                                                          Adds the name of the
      Indianapolis                                                        agent who sealed and
59    District         28      N-53      09/16/08   02/24/09     161      secured the cash at the
      Office                                                              DEA office and the name
                                                                          of the witness.
                                                                          Changes the amount of
      Indianapolis                                                        the seizure. The amount
60    District         29     N-11/N-2   04/02/08   01/06/09     279      in the original DEA-6 was
      Office                                                              for two seizures from
                                                                          two different locations.
                                                                          Adds the names of the
                                                                          agents present when the
                                                                          currency was sealed,
      Indianapolis
                                                                          that a receipt was
61    District         30      N-134     10/09/07   02/20/09     500
                                                                          provided, and the names
      Office
                                                                          of agents who
                                                                          transported the seized
                                                                          cash to the bank.
                                                                          Adds the names of two
                                                                          agents present when the
      Indianapolis
                                                                          currency was sealed and
62    District         34       N-2      08/20/08   02/19/09     183
                                                                          reports that a receipt
      Office
                                                                          was provided to the
                                                                          owner.


                                          131
                                                             Calendar
                                                   Date of
                    Sample   Exhibit    Date                   Days
No.     Office                                    Amended                     Explanation
                    Number   Number    Seized                  after
                                                   DEA-6
                                                              Seizure
                                                                        Adds the official count,
                                                                        the name of the Task
                                                                        Force Officer who
      Minneapolis
                                                                        transported the exhibit
63    District        6       N-23     11/09/07   01/26/09     444
                                                                        to the DEA and the name
      Office
                                                                        of the witness when the
                                                                        exhibit was submitted to
                                                                        the evidence custodian.
                                                                        Adds the names of two
      Minneapolis
                                                                        agents present at seizure
64    District        20      N-74     10/16/08   02/20/09     127
                                                                        and transport to a bank
      Office
                                                                        for an official count.
      Austin
                                                                        Corrects a miscount by
65    Resident        5        N-1     08/07/07   08/09/07      2
                                                                        the bank.
      Office
                                                                        Adds the names of the
                                                                        officers who sealed the
      Houston                                                           cash in an evidence
66    Division        1       N-125    04/21/08   01/30/09     284      container and
      Office                                                            transported the seized
                                                                        cash to the DEA and the
                                                                        bank.
                                                                        Adds the date and
                                                                        names of officers who
      Houston
                                                                        witnessed and
67    Division        14       N-4     08/28/08   01/30/09     155
                                                                        transported the seized
      Office
                                                                        cash to the bank and the
                                                                        DEA.
      Houston                                                           Adds a narrative about
68    Division        16      N-16     11/08/07   11/14/07      6       the seizure and the chain
      Office                                                            of custody of the cash.
                                                                        Describes the acquisition
                                                                        and sealing of the cash
      San                                                               in an evidence envelope
      Antonio                                                           and the identity of the
69                    4        N-1     06/23/08   07/07/08     14
      District                                                          officers who witnessed,
      Office                                                            transported, and
                                                                        submitted the seizure to
                                                                        the evidence custodian.
      San
                                                                        Corrects an error in a
      Antonio
70                    14       N-3     08/25/08   02/05/09     164      date in the chain of
      District
                                                                        custody.
      Office
                                                                        Provides additional
      Miami
                                                                        information about the
71    Division        2        N-1     11/06/08   11/17/08     11
                                                                        chain of custody of the
      Office
                                                                        currency.
                                                                        Adds the name of a
      Miami                                                             second agent present
72    Division        20       N-3     03/20/08   02/04/09     321      during transport of the
      Office                                                            currency to the armored
                                                                        car company.


                                        132
                                                          Calendar
                                                Date of
                 Sample   Exhibit    Date                   Days
No.     Office                                 Amended                     Explanation
                 Number   Number    Seized                  after
                                                DEA-6
                                                           Seizure
                                                                     Corrects the names of
      Miami                                                          the officers who
73    Division     21      N-29     09/24/07   01/29/09     493      transported the seized
      Office                                                         currency to the armored
                                                                     car company.
      Miami                                                          Adds that the seized
74    Division     28      N-24     09/12/07   09/18/07      6       funds were transferred
      Office                                                         to the USMS.
                                                                     Explains that the seized
      Miami                                                          funds were deposited
75    Division     29      N-174    02/14/08   02/19/08      5       into an undercover
      Office                                                         account for forfeiture at
                                                                     a later date.
                                                                     Explains that the seized
      Miami
                                                                     cash was placed on a
76    Division     29      N-174    02/14/08   02/26/08     12
                                                                     DEA aircraft for transport
      Office
                                                                     to another location.
                                                                     Adds the names of two
                                                                     agents who transported
      Orlando
                                                                     the seized cash from the
77    District     1        N-1     11/20/08   11/30/08     10
                                                                     DEA to the armored car
      Office
                                                                     company for an official
                                                                     count.
                                                                     Adds the names of two
      Orlando                                                        agents who transported
78    District     2       N-16     04/29/08   05/05/08      6       the seized cash from the
      Office                                                         DEA to the armored car
                                                                     company.
      Orlando
                                                                     Changes the date of the
79    District     3       N-15     03/03/08   02/03/09     337
                                                                     seizure.
      Office
      Orlando                                                        Changes the date the
80    District     4        N-8     08/23/07   02/04/09     531      seizure was recorded in
      Office                                                         the overnight ledger.
                                                                     Explains that after the
                                                                     seizure, two agents
                                                                     transported the exhibit
      Orlando                                                        to the DEA office and
81    District     5        N-2     08/08/07   01/26/09     537      secured it, and later
      Office                                                         transported the cash to
                                                                     the armored car
                                                                     company for an official
                                                                     count.
                                                                     Explains that two agents
      Orlando                                                        transported the exhibit
82    District     6        N-1     10/03/07   10/15/07     12       cash to an armored car
      Office                                                         company for the official
                                                                     count.




                                     133
                                                            Calendar
                                                  Date of
                   Sample   Exhibit    Date                   Days
No.     Office                                   Amended                     Explanation
                   Number   Number    Seized                  after
                                                  DEA-6
                                                             Seizure
                                                                       Corrects a statement in
                                                                       the initial DEA-6. The
                                                                       initial DEA-6 stated the
                                                                       seized cash was
      Orlando                                                          transferred to the
83    District       8       N-530    01/26/08   02/03/09     374      evidence custodian. The
      Office                                                           amended DEA-6 stated
                                                                       the cash was sealed and
                                                                       secured in a DEA
                                                                       supervisor's office by two
                                                                       agents.
                                                                       Corrects an error in the
                                                                       initial DEA-6. The initial
                                                                       DEA-6 stated the seized
                                                                       currency was stored in
      Orlando                                                          the DEA office's
84    District       9      N5A &5B   12/19/07   02/04/09     413      non-drug vault. The
      Office                                                           amended DEA-6 stated
                                                                       that due to the size of
                                                                       the seizure, the currency
                                                                       was stored in the HIDTA
                                                                       safe.
                                                                       Corrects an error in the
                                                                       initial DEA-6. The initial
                                                                       DEA-6 stated the seized
                                                                       currency was stored in
      Orlando
                                                                       the DEA office's
85    District       11      N-84     10/18/07   02/04/09     475
                                                                       non-drug vault. The
      Office
                                                                       amended DEA-6 stated
                                                                       that the currency was
                                                                       stored in a supervisor's
                                                                       office.
                                                                       Explains that two agents
      Orlando                                                          transported the currency
86    District       12       N-1     08/30/07   01/27/09     516      to the armored car
      Office                                                           company for the official
                                                                       count.
                                                                       Corrects an error in a
      Orlando                                                          prior DEA-6. Changes
87    District       12       N-1     08/30/07   02/09/09     529      the amount of the
      Office                                                           seizure from $91,600 to
                                                                       $23,000.
                                                                       Explains that the
      Orlando                                                          currency was
88    District       13       N-3     10/09/08   10/21/08     12       transported to the
      Office                                                           evidence custodian for
                                                                       safekeeping.
                                                                       Adds the names of
      Burlington
                                                                       agents who transported
89    Resident       4        N-3     08/08/08   02/24/09     200
                                                                       the seized cash to the
      Office
                                                                       bank.




                                       134
                                                            Calendar
                                                  Date of
                   Sample   Exhibit    Date                   Days
No.     Office                                   Amended                     Explanation
                   Number   Number    Seized                  after
                                                  DEA-6
                                                             Seizure
                                                                       Adds the names of
      Providence
                                                                       agents who transported
90    Resident       2       N-14     10/24/07   02/12/09     477
                                                                       the seized cash to the
      Office
                                                                       bank.
                                                                       Adds the names of
      Providence
                                                                       agents who transported
91    Resident       12      N-15     10/26/07   02/12/09     475
                                                                       the seized cash to the
      Office
                                                                       bank.
                                                                       Corrects a date in the
                                                                       initial DEA-6. Adds the
      San Diego
                                                                       names of agents present
92    Division       4       N-32     01/30/08   01/16/09     352
                                                                       at seizure, sealing, and
      Office
                                                                       transport of the
                                                                       currency.
                                                                       Adds the names of
      San Diego                                                        agents present at
93    Division       7       N-23     09/22/08   01/20/09     120      seizure, sealing, and
      Office                                                           transport of the
                                                                       currency.
                                                                       Adds the names of
                                                                       officers involved in the
                                                                       chain of custody
      San Diego                                                        activities and that two
94    Division       11       N-1     01/14/08   01/20/09     372      agents sealed the
      Office                                                           currency before
                                                                       depositing it into an
                                                                       overnight vault for
                                                                       safekeeping.
                                                                       Clarifies chain of custody
                                                                       activities. Adds the two
      San Diego                                                        officers who sealed the
95    Division       19       N-5     06/06/08   01/20/09     228      currency in an evidence
      Office                                                           bag and deposited it into
                                                                       the overnight vault for
                                                                       safekeeping.
                                                                       Adds that a second
      San Diego                                                        officer was present at
96    Division       28      N-166    05/01/08   01/20/09     264      discovery, seizure,
      Office                                                           sealing, and transport of
                                                                       the seized currency.
                                                                       Adds that a second
                                                                       agent was present at the
      San Diego
                                                                       seizure and transport of
97    Division       33       N-2     11/19/08   01/16/09     58
                                                                       the currency to the
      Office
                                                                       evidence custodian for
                                                                       safekeeping.




                                       135
                                                            Calendar
                                                  Date of
                   Sample   Exhibit    Date                   Days
No.     Office                                   Amended                     Explanation
                   Number   Number    Seized                  after
                                                  DEA-6
                                                             Seizure
                                                                       Adds the seizing police
                                                                       officer transferred the
                                                                       cash to the custody of
      San Diego
                                                                       two DEA agents,
98    Division       39       N-1     10/07/08   01/20/09     105
                                                                       transported the cash for
      Office
                                                                       an official count, and
                                                                       transported the cashier's
                                                                       check to the USMS.
      San Ysidro
                                                                       Adds the name of a
99    Resident       3       N-12     02/27/08   01/20/09     328
                                                                       witnessing agent.
      Office
      San Ysidro
                                                                       Adds the name of a
100   Resident       4        N-2     09/06/07   01/29/09     511
                                                                       witnessing agent.
      Office
      San Ysidro
                                                                       Adds additional details
101   Resident       7       N-10     10/27/08   01/29/09     94
                                                                       about the seizure.
      Office
      San Ysidro                                                       Adds the names of the
102   Resident       8        N-1     03/20/08   01/21/09     307      agents involved in chain
      Office                                                           of custody activities.
      Baltimore                                                        Adds the name of a
103   District       1       N-40     05/22/08   01/12/09     235      second agent involved in
      Office                                                           transporting the seizure.
                                                                       Adds the names of the
      Baltimore                                                        agents present at the
104   District       5       N-102    05/09/08   01/12/09     248      seizure, transport to the
      Office                                                           DEA, and transfer to the
                                                                       bank.
                                                                       Adds the names of the
      Baltimore                                                        agents present at the
105   District       11       N-8     02/20/08   01/12/09     327      seizure, transport to the
      Office                                                           DEA, and transport to
                                                                       the bank.
                                                                       Adds the names of the
                                                                       officers who witnessed
                                                                       and transported the
      Washington                                                       seizure to the DEA, the
106   Division       6       N-61     04/19/08   01/08/09     264      bank, and the USMS.
      Office                                                           Also describes where the
                                                                       currency was temporarily
                                                                       stored and who
                                                                       witnessed the storage.
                                                                       Adds the names of the
                                                                       officers who acquired
                                                                       and transported the cash
      Washington                                                       to the bank, to a DEA
107   Division       7       N-62     11/15/07   11/28/07     13       office, then to another
      Office                                                           DEA office, and who had
                                                                       custody of the cashier's
                                                                       check until it was turned
                                                                       over.


                                       136
                                                            Calendar
                                                  Date of
                   Sample   Exhibit    Date                   Days
No.     Office                                   Amended                     Explanation
                   Number   Number    Seized                  after
                                                  DEA-6
                                                             Seizure
      Washington                                                       Adds the name of the
108   Division       7       N-62     11/15/07   01/13/09     425      person who processed
      Office                                                           the cashier's check.
                                                                       Adds the names of the
                                                                       officers who obtained
                                                                       and transported the cash
                                                                       to a bank, obtained a
                                                                       cashier's check,
                                                                       transported the check to
      Washington                                                       a DEA office, then
109   Division       8       N-59     11/15/07   11/28/07     13       another DEA office, then
      Office                                                           to the person who
                                                                       processed the cashier's
                                                                       check. Also names the
                                                                       person who had custody
                                                                       of the cashier's check
                                                                       until it was turned over
                                                                       for processing.
      Washington                                                       Adds the name of the
110   Division       8       N-59     11/15/07   01/13/09     425      person who processed
      Office                                                           the cashier's check.
                                                                       Adds the names of
                                                                       officers who obtained
                                                                       and transported the cash
                                                                       to a bank, obtained a
                                                                       cashier's check,
                                                                       transported the check to
      Washington                                                       one DEA office, then
111   Division       13      N-43     11/16/07   11/28/07     12       another DEA office, and,
      Office                                                           then to the person who
                                                                       processed the cashier's
                                                                       check. Also names the
                                                                       person who had custody
                                                                       of the cashier's check
                                                                       until turned over for
                                                                       processing.
      Washington                                                       Adds the name of the
112   Division       13      N-43     11/16/07   01/13/09     424      person who processed
      Office                                                           the cashier's check.
                                                                       Adds the names of the
                                                                       officers who obtained
                                                                       and transported the cash
                                                                       to a bank, obtained a
                                                                       cashier's check,
                                                                       transported the check to
      Washington                                                       one DEA office, then
113   Division       14      N-48     11/15/07   11/28/07     13       another DEA office, then
      Office                                                           to the person who
                                                                       processed the cashier's
                                                                       check. Also names the
                                                                       person who had custody
                                                                       of the cashier's check
                                                                       until they turned it over
                                                                       for processing.
                                       137
                                                              Calendar
                                                    Date of
                    Sample   Exhibit     Date                   Days
 No.     Office                                    Amended                    Explanation
                    Number   Number     Seized                  after
                                                    DEA-6
                                                               Seizure
       Washington                                                        Adds the name of the
 114   Division       14      N-48      11/15/07   01/13/09     425      person who processed
       Office                                                            the cashier's check.
                                                                         Adds the names of the
                                                                         officers who obtained
                                                                         and transported the cash
                                                                         to a bank, the cashier's
                                                                         check to the DEA office,
       Washington
                                                                         then to the person who
 115   Division       16      N-46      11/15/07   11/28/07     13
                                                                         processed the cashier's
       Office
                                                                         check. Also names the
                                                                         person who had custody
                                                                         of the cashier's check
                                                                         until turned over for
                                                                         processing.
       Washington                                                        Adds the name of the
 116   Division       16      N-46      11/15/07   01/13/09     425      person who processed
       Office                                                            the cashier's check.
                                                                         Adds the names of the
                                                                         officers who obtained
                                                                         and transported the cash
                                                                         to a bank, obtained a
                                                                         cashier's check,
                                                                         transported the check to
       Washington                                                        one DEA office, to
                             N-52, N-
 117   Division       24                11/15/07   11/28/07     13       another DEA office, and
                               53
       Office                                                            then to the person who
                                                                         processed the cashier's
                                                                         check. Also names the
                                                                         person who had custody
                                                                         of the cashier's check
                                                                         until turned over for
                                                                         processing.
       Washington                                                        Adds the name of the
                             N-52, N-
 118   Division       24                11/15/07   01/13/09     425      person who processed
                               53
       Office                                                            the cashier's check.
Source: DEA cash-seizure documents




                                         138
                                                                            Appendix 15

                Other Memoranda Added to the Case Files86

                                                                     Calendar
                          Sample   Exhibit     Date       Date of      Days
  No.           Office                                                               Explanation
                          Number   Number     Seized    Memorandum     After
                                                                      Seizure
                                                                                Explains that two
                                                                                officers transported
                                                                                the sealed currency
             Baltimore                                                          to the DEA, secured
   1         District       5       N-102    05/09/08    05/22/08      13       it in the overnight
             Office                                                             drop safe, and later
                                                                                transferred the
                                                                                currency to the
                                                                                HVSRM vault.
                                                                                States that the
                                                                                DEA-6 did not note a
                                                                                second investigator
             Baltimore                                                          as the witness
   2         District       17       N-1     08/03/07    01/07/09      523      throughout the
             Office                                                             processing of the
                                                                                exhibit. The memo
                                                                                did not provide the
                                                                                name of the witness.
                                                                                Adds that a witness
             Baltimore                                                          was present when
   3         District       21      N-17     05/30/08    01/09/09      224      the currency was
             Office                                                             transferred to the
                                                                                HVSRM custodian.
                                                                                Explains that a
                                                                                second officer
                                                                                witnessed chain of
                                                                                custody activities,
                                                                                including the official
             Baltimore
                                                                                count. The memo
   4         District       40      N-27     01/23/08    01/07/09      350
                                                                                also states that
             Office
                                                                                agents did not
                                                                                provide DEA-12
                                                                                receipts upon seizure
                                                                                or transfer to the
                                                                                evidence custodian.
                                                                                Corrects and updates
             Burlington                                                         information
   5         Resident       20       N-5     05/21/08    03/03/09      286      regarding individuals
             Office                                                             involved with chain
                                                                                of custody activities.




        86
           The other memoranda shown are those that added or changed information about
the seizure of the chain of custody of the seized cash.

                                             139
                                                               Calendar
                    Sample   Exhibit     Date       Date of      Days
No.      Office                                                                Explanation
                    Number   Number     Seized    Memorandum     After
                                                                Seizure
                                                                          Adds the name of a
                                                                          second officer who
                                                                          witnessed the sealing
                                                                          of the evidence and
      Gainesville                                                         its transport to the
6     Resident        4        N-9     04/28/08    01/23/09      270      DEA office and adds
      Office                                                              the names of two
                                                                          agents who
                                                                          transported cash to
                                                                          the bank for the
                                                                          official count.
                                                                          Adds the names of
                                                                          two Fort Bend
                                                                          (Texas) County
                                                                          Narcotic Task Force
                                                                          (FBCNTF) officers
                                                                          who made the
      Houston                                                             seizures and
                             N-379,
7     Division        18               09/07/07    01/23/08      138      transported seized
                              A-C
      Office                                                              cash to a police safe,
                                                                          and adds the names
                                                                          of the two DEA
                                                                          agents who
                                                                          transported the cash
                                                                          to a credit union for
                                                                          official counting.
                                                                          Adds the names of
                                                                          agents involved in
                                                                          chain of custody
      Laredo
                                                                          activity from the
8     Resident        1        N-5     09/23/08    02/05/09      135
                                                                          HVSRM vault on
      Office
                                                                          10/7/08 to the
                                                                          USMS' Asset
                                                                          Removal Specialist.
      Laredo
                                                                          Corrects a date in
9     Resident        2        N-1     10/07/08    02/05/09      121
                                                                          the chain of custody.
      Office
                                                                          Adds the name of a
                                                                          second officer
                                                                          present during
      Laredo
                                                                          sealing, transport to
10    Resident        3        N-5     10/21/08    02/09/09      111
                                                                          the DEA office and
      Office
                                                                          the two officers who
                                                                          transported the
                                                                          currency to the bank.




                                       140
                                                             Calendar
                  Sample   Exhibit     Date       Date of      Days
No.      Office                                                              Explanation
                  Number   Number     Seized    Memorandum     After
                                                              Seizure
                                                                        Adds the name of a
                                                                        witness present
                                                                        when the currency
      Laredo                                                            was seized. The
11    Resident      4        N-7     03/05/08    02/09/09      341      original DEA-6 did
      Office                                                            not state that a
                                                                        second officer was
                                                                        present at the time
                                                                        of seizure.
                                                                        Explains that a
                                                                        witnessing officer
                                                                        was present when an
                                                                        another officer
                                                                        secured seized
                                                                        currency in a
                                                                        temporary vault prior
                                                                        to transferring the
      Laredo
                                                                        currency to the
12    Resident      5       N-10     06/30/08    02/09/09      224
                                                                        HVSRM custodian.
      Office
                                                                        Memo also states
                                                                        that DEA-12 forms
                                                                        were missing from
                                                                        the file but that the
                                                                        chain of custody was
                                                                        documented in a
                                                                        DEA-6 dated
                                                                        7/15/2008.
                                                                        Explains that two
                                                                        officers transported
                                                                        the currency to the
                                                                        HVSRM custodian,
      Laredo
                                                                        but the initial DEA-6,
13    Resident      6       N-11     08/11/07    02/04/09      543
                                                                        Report of
      Office
                                                                        Investigation, failed
                                                                        to specify that two
                                                                        officers transported
                                                                        the currency.
                                                                        Adds the name of the
      Laredo
                                                                        agent who
14    Resident      7        N-1     09/03/08    02/05/09      155
                                                                        transported the
      Office
                                                                        seized funds.
                                                                        Explains that a
                                                                        second officer was
                                                                        present when the
      Laredo                                                            cash was transported
15    Resident      8       N-20     11/28/07    02/02/09      432      to the bank for
      Office                                                            official counting. The
                                                                        initial DEA-6 did not
                                                                        state that a second
                                                                        officer was present.




                                     141
                                                             Calendar
                  Sample   Exhibit     Date       Date of      Days
No.      Office                                                              Explanation
                  Number   Number     Seized    Memorandum     After
                                                              Seizure

                                                                        Explains that two
                                                                        officers transported
                                                                        the seized cash to
      Laredo                                                            the HVSRM custodian
16    Resident      9        N-3     05/30/08    02/09/09      255      and then to the bank
      Office                                                            for an official count.
                                                                        This was not
                                                                        discussed in the
                                                                        original DEA-6.
                                                                        Adds the names of
      Laredo
                                                                        the officers involved
17    Resident      10      N-10     07/18/08    02/04/09      201
                                                                        in the chain of
      Office
                                                                        custody activities.
                                                                        Adds the name of a
                                                                        second special agent
      Laredo
                                                                        who was present
18    Resident      11      N-13     02/06/08    02/05/09      365
                                                                        when DEA accepted
      Office
                                                                        cash from a local law
                                                                        enforcement officer.
                                                                        Adds the names of
      Laredo                                                            the agents who
19    Resident      12       N-4     08/10/07    02/04/09      544      transported the cash
      Office                                                            to the bank for an
                                                                        official count.
                                                                        Adds names of the
      Laredo                                                            HVSRM custodian
20    Resident      13       N-1     09/10/08    02/09/09      152      who transferred the
      Office                                                            seized funds to the
                                                                        USMS.
                                                                        Adds the name of the
      Laredo                                                            second officer who
21    Resident      14      N-13     12/06/07    02/02/09      424      assisted in
      Office                                                            transporting the cash
                                                                        to the bank.
                                                                        Adds the names of
      Laredo
                                                                        the officers involved
22    Resident      15      N-90     02/08/08    02/02/09      360
                                                                        in chain of custody
      Office
                                                                        activities.
                                                                        Adds names of the
      Laredo                                                            HVSRM custodian
23    Resident      16       N-1     05/28/08    02/04/09      252      who transferred the
      Office                                                            seized funds to the
                                                                        USMS.
                                                                        Explains that four
                                                                        officers transported
      Laredo
                                                                        the seized cash to
24    Resident      17       N-7     08/26/08    02/04/09      162
                                                                        the DEA and then to
      Office
                                                                        the bank for an
                                                                        official count.




                                     142
                                                             Calendar
                  Sample   Exhibit     Date       Date of      Days
No.      Office                                                              Explanation
                  Number   Number     Seized    Memorandum     After
                                                              Seizure
                                                                        Adds the names of
                                                                        agents who
                                                                        transported seized
                                                                        cash to the DEA and
      Miami                                                             secured it in a
25    Division      6       N-33     04/22/08    02/04/09      288      supervisor's safe but
      Office                                                            did not make an
                                                                        entry in an overnight
                                                                        ledger because no
                                                                        ledger was kept for
                                                                        that safe.
                                                                        Adds the names of
                                                                        the seizing agents
      Miami                                                             and an explanation
26    Division      7       N-10     04/10/08    02/04/09      300      that agents did not
      Office                                                            issue a DEA-12
                                                                        required by DEA
                                                                        policy.
                                                                        Adds the names of
                                                                        officers involved in
      Miami
                                                                        the chain of custody
27    Division      8        N-1     05/23/08    02/04/09      257
                                                                        and reports that the
      Office
                                                                        DEA was not keeping
                                                                        a ledger.
                                                                        Adds the names of
      Miami
                                                                        the agents involved
28    Division      10      N-12     02/20/08    02/05/09      351
                                                                        in the chain of
      Office
                                                                        custody.
                                                                        Explains that a
                                                                        second officer was
                                                                        present during the
                                                                        seizure. The
                                                                        memorandum
      Miami                                                             acknowledges that
29    Division      15      N-30     09/24/07    02/04/09      499      agents failed to sign
      Office                                                            evidence control
                                                                        documents, and
                                                                        identifies actions DEA
                                                                        will take to ensure
                                                                        these mistakes are
                                                                        not repeated.
                                                                        Clarified the chain of
                                                                        custody. Also
                                                                        explains that agents
                                                                        stored the seized
      Miami
                                                                        currency in a
30    Division      16      N-26     09/10/08    02/04/09      147
                                                                        supervisor's safe but
      Office
                                                                        the supervisor did
                                                                        not maintain a log in
                                                                        which to document
                                                                        this activity.



                                     143
                                                               Calendar
                    Sample   Exhibit     Date       Date of      Days
No.      Office                                                                Explanation
                    Number   Number     Seized    Memorandum     After
                                                                Seizure
                                                                          Adds the names of
                                                                          agents involved in
                                                                          the chain of custody
      Miami                                                               from the time of
31    Division        19      N-15     09/05/07    02/04/09      518      seizure until it was
      Office                                                              transported to the
                                                                          armored car
                                                                          company for an
                                                                          official count.
                                                                          Adds the names of
                                                                          agents involved in
                                                                          the chain of custody
      Miami                                                               from the time of
32    Division        20       N-3     03/20/08    02/04/09      321      seizure until it was
      Office                                                              transported to the
                                                                          armored car
                                                                          company for an
                                                                          official count.
                                                                          Clarifies the chain of
                                                                          custody activities
                                                                          described on the
                                                                          original DEA-6. Also
                                                                          explains that agents
      Miami
                                                                          stored the currency
33    Division        22      N-25     09/10/08    02/04/09      147
                                                                          in a group
      Office
                                                                          supervisor's safe but
                                                                          the supervisor did
                                                                          not maintain a log to
                                                                          document this
                                                                          activity.
                                                                          Adds names and
      Miami                                                               clarifies the chain of
34    Division        30      N-21     10/30/08    02/03/09      96       custody. The DEA-6
      Office                                                              did not include these
                                                                          items.
      Minneapolis                                                         Adds the name of a
35    District        14      N-20     09/30/08    02/02/09      125      witness to the chain
      Office                                                              of custody.
                                                                          Explains that one
                                                                          DEA agent and one
                                                                          local law
                                                                          enforcement officer
      San Antonio
                                                                          transported seized
36    District        4        N-1     06/23/08    06/26/08       3
                                                                          cash to the DEA
      Office
                                                                          office. Also, adds the
                                                                          date that the
                                                                          currency was
                                                                          transported.
                                                                          Explains that an
      San Antonio
                                                                          officer was present
37    District        6        N-1     07/16/08    02/04/09      203
                                                                          when the currency
      Office
                                                                          was transported.


                                       144
                                                             Calendar
                  Sample   Exhibit     Date       Date of      Days
No.      Office                                                              Explanation
                  Number   Number     Seized    Memorandum     After
                                                              Seizure
                                                                        Explains that a local
                                                                        police officer
                                                                        transferred the
      San Diego                                                         currency to agents
38    Division      8       N-17     05/05/08    01/21/09      261      who then transported
      Office                                                            the currency to the
                                                                        DEA office and
                                                                        secured the currency
                                                                        for safekeeping.
                                                                        Adds the name of the
                                                                        witnessing agent
                                                                        present when the
      Tampa                                                             cash was
39    District      9       N-87     05/19/08    02/01/09      258      surrendered for an
      Office                                                            official count. Also,
                                                                        clarifies that two
                                                                        officers made the
                                                                        initial seizure.
                                                                        Adds the names of
                                                                        two officers who
                                                                        seized and
      Tampa
                                                                        transported the
40    District      10      N-12     11/15/07    02/04/09      447
                                                                        currency to the DEA
      Office
                                                                        and secured the
                                                                        currency in a
                                                                        supervisor's safe.
                                                                        Adds the name of a
                                                                        second officer who
      Tampa                                                             transported the
41    District      12       N-5     02/22/08    01/26/09      339      seized cash to the
      Office                                                            armored car
                                                                        company for an
                                                                        official count.
                                                                        Adds information
                                                                        about the chain of
                                                                        custody of the seized
                                                                        cash. The
                                                                        memorandum also
                                                                        explains that the
                                                                        currency was secured
      Tampa
                                                                        in a supervisor’s safe
42    District      14       N-1     09/29/08    01/27/09      120
                                                                        but not recorded in
      Office
                                                                        the safe logbook.
                                                                        Also explains that the
                                                                        DEA did not issue a
                                                                        DEA-12 receipt when
                                                                        transferring the
                                                                        seized cash between
                                                                        agents.




                                     145
                                                                Calendar
                    Sample   Exhibit      Date       Date of      Days
  No.      Office                                                               Explanation
                    Number   Number      Seized    Memorandum     After
                                                                 Seizure
                                                                           Adds names of two
                                                                           additional agents
                                                                           present during
                                                                           transport of the
        Tampa
                                                                           seized currency.
  43    District       15      N-10     10/24/08    01/26/09      94
                                                                           Memo also states the
        Office
                                                                           case file did not show
                                                                           agents provided a
                                                                           receipt to the
                                                                           subject.
        Tampa                                                              Clarifies the chain of
  44    District       20      N-45     09/10/08    01/26/09      138      custody of the seized
        Office                                                             cash.
Source: OIG analysis of DEA documents




                                        146
                                                                                               Appendix 16

The Drug Enforcement Administration’s Response
           to the Draft Audit Report


                                                          V. S. Depa rtment or Juslice
                                                          Drug Enforceme nt Administrat ion




     I1'ww.ll«u.gQV
                                                          Washi nston. D.C. 2053 7




                                                             SEP 2 4 2009
     MEMORANDUM

     TO:            Raymond J. Beaudet
                    Assistant lnspcctor Gener31
                     ror Audit


     FROM:          Kevin M. FoJey()i'v~V
                    Acting Dcputy Ch      Inspector
                    Orne.., ofinspections

    SUBJ ECT:       DBA's Response to Ihe O IG's Draft RepOrt: Follo ...·"p Audif of the Drug
                    Enforcement Admim·.~(}"alio,,·s Iflmdling ofCush Seiz'm~s

        Thc Drug Enforccment Adminislration (DEA) has fCviev,red the Department of Justice (DOJ).
    Officc of the Inspe<;tor G"nentl's (OIG) draft audit report, cntitled: Fol/o ...·"I' A ,,,'if oflltc Dn'g
    £"fm"("<:""'111 AdminiSlrulio,,:. ff(md/ing ofCII..1I Sei~"r",•. DEA aekllowlcdges OIG for its efforts in
    co",Jucting a follow·up fC\'icv.' of DEA's eOlUro l over cash sei.:ed and transferrt!d to the Department
    of Ju stice's Assel Forfeitu re Program. As a res ult ..,flhis revicv.', DEA concurs with the five
    rccommc!ldations in the draft report and will lake the: necessary st~'Ps to implemcn t the
    r(!COmmcntl>ltions.

        DEA appreciates that OIG noted the DEA has improved in overall pctfonnance since the 2007
    Alit/if of DEA's Ha"dllng ofCusil S~.'I:"res and increascd Ihe rate of compl iance wilh co ntrols for
    safeguardi ng se iz.:<t cash. OIG also noted Ihal DEA comp leled and implemen ted six of the seven
    recomnl<:ndations Ihal were mad" in the: 2007 repOIl and havc made severa l attempls to co rrect
    ongoing problems with the Treasury Program for currency tkposit serv ices to address the remaining
    recommendalion.

        O [G reponed during ils currenl revi ew Iha t DE .... d id nOl ha\'e a policy Slating how quiekly
   superv isors should rev iew the cas h-seizure documents after preparation by agents. O IG also sialed
   tllal DEA did nO! identify and correct deficienc ies in many cash.seizure documents until OIG began
   Ihe 200<) audit. I" July 2008, DEA rev iset.l po licies Ihat require supervisory investi~ulive fi le reviews
   evcry 90 days, During the 90·<1ay re"j ew, supervisors are """luircd Iu review all case related
   documentation ror accuracy and completion. The outcome of Ihe reviews may idcntify Ihe need for




                                                  147
 Ra}1ll0nd J. Bea udet, Assistant Inspector Gcncral for Auuit                                      Page 2

amendments to DEA·6s to funher cXl,lain case ~peci(ics .

DEA provides the following response to the OIG's recommendations:

Ruommendatioo I. Implement a policy tbat dennes how quickly supervisors should review
case rile documen tation pertaining tn eash sei7-ures after preparation by an agent to ensure the
doc umenta tion is co mpl ete and accurate.

    [)EA concurs wi th the recommcndation that a policy which defi nes ti mclines tha t supervisors
   should revkw case file documentation sho uld be in place. DEA has current policy requiri ng
   illvestigltlive personnel to complete repons oflhe!Tinvestigative activities within five working
   days and policy Ihat states that immediate supervisors arc required to review the content of thei r
   reports for accu racy and adequacy withi n a specific timeframc. These requirements were last
   revised in luly 2008 and arc set forth in the DEA Agents Mallual Subsection 621 1.2. Submission
   of Re!X'rts, and Subsection 621 1.3, Supervisory Review. Thc Agents Manual Subsection
   62 13.21, Immediale Supervi,;or, deli neates the factors that may be considered by immediate
   supcrvisors when reviewi ng investigativc rtpons/case filcs. Subsection 62[3.21(8) of the
   Agents Manun i re flects that each il\I'estigation in an active status will be reviewed by the
   immediate supervisor as signi ficant events occur or at maximum inlcn·als of9O days.

   DEA req uests closure ofihc recommendati on in ligh t that there is alread y a cummt policy that
   de fines when a revicw of the C,IS(; file documen tation should occur.

R«ommendation 2. Implement a plan 10 ensure agcnts rueiv!, periodic training 011 intern.al
cl)n trois for handlin g seized cash and preparing cas b-seizure documen tation, including
inst ruction I) n preparing complete and acc ur ate D[A-6, Reports of In vestigation, and
maintaining copies of aJlcash seizure documentation in th e case liIes.

    DEA co ncurs with the reco mmendation. The Office ofOpera tiotls Management (OM) and the
   Office of Training (TR) will develop an instrw;tional video wh ich details The proper procedures
   regarding internal controls for the handling and documcnti ng o( sei7.cd cash and high value
   cxhi hits. This video will incorporaTC instructions (or properly completing vario us fonns involved
   in procc~singlhandling of seized c,lsh and high value exh ibits. It will stress the requ irement of
   having witnessing inves ti gative personnel prese nt when cash is discovered. Thc video will
   infonn the viewer of the J>CIlicy regardi ng co unting eash and stress That investigative personnel
   provide the owner with an itemi7.ed recei pt ofsei7.ed cash or high va lul'li items. It wi ll focus on
   ensuring that cash is timely transponcd to a bank or othcr fi nanc ial institution and transferred to
   the United States Marshal Service. It wi ll inc h'Li e proper procedures for the transfer of seized
   cash nnd high valu ed ex hibits to the High V~lue Seized and Recovered Monies (IlVSRJ...1)
   Custodian using the proper chain of custody fonns.

  The instruct ional vi deo will be ycarly mandatory refresher traini ng for all field investigaTive
  personnel to incl ude diversion investigators and supervisors. Thc video wi ll become pa n of th e
  DEA Lenrning System (DEALS) which is an electro ni c database that provides automnt ic
  notifi ca tion 10 individuals who are requ ired to vicw mandatory training lIideos and stores cach




                                             148
 Ra~mond    J. Beaudct, Assistant Inspeclor General for Audit                                         Page 3

    employee's history of training. Investi gati ve personnel, including supervisors and managers. will
    be required 10 view the inslructionalvideo alld ack now ledge completion of the refresher train ing.
    DEALS will continue 10 notify the invcstigahve personnel and their sUlJ'CTVisorsimanagers until
    Ihe video is viewed.

Reeo mmendatiOQ 3. Ensure all e\'idence cu~todians IIIltcnd DEA 's mandatory trlllining
program.

    DEA concurs with the reco mm endat ion. In 2005, DEA inst ituted a compre hensive !ntining
    progra m for evidence custod ians 10 ensure that the custodians were receivi ng tmining. As a
    result o f recom men dations made in the 2004 OJG fi nal repon entit led, R/,'I'iew oj ,he D,.ug
    Elljo/"ccmelll Admini.w·a/ion ·s Custodial Accollnfubifi(V jor b'idcIJce Ild" tit llie Field Dil"isioIJ.
    Report Nllm ner /·2004-003. the OIG recommended th3t DEA devoelop a com pre he nsive tr<lining
    program for personnel assigned evidencc custodian duties. To respond to the 2004
    reco mmendation. DEA revised th e Agents Manual Subsection 6662.12, Drug Ev idence
    Custodian (DEC)lBulk Drug Ev idence Custodi311 (B DEC ), Subsectio n 6662.23 (3). Bulk Drug
    Ev idence Custodian Responsibilities, S ubsec tion 6681. 12 (Al. Nondrug Evi dence Cuslodhm
    (N DEC), and SUbsection 6682. 12 (A). Hi gh Value and Seized/Recovered Monies (HVSR.\ll l
    Custodian. 10 re flect that the Special Agents in Chaq:e oflheir respecti ve divisions ensure that
    their prilllary and altern ate Dnlg and I\ondrug Evidence Custodians receive ma ndatory t::vidence
    custodian training:.

    In addition to revising evidence custodian policy. OM and TR coordinatoo a tra ining program to
    ensu n; that evidence c ustodians rceeivt::d the mandatory training. S ince 2005, OM and T R have
    conduc ted 29 seized cash and high value ex hihit cla<;.~es to primary and alternate Nond rug
    Evidence CustodIans throughout DEA.

   To furthcr ensure that evidence custod ia ns are being kept ab~asl of sei zed cash a nd high val ue
   procedures, in July "2009 the Office of Inspections liN) began conducting presentations
   high li!;;hting prob lem areas in the II VSRM Program. Attendees incl uded specific personnel 5uth
   as H VS RM Custodians and supervisors who are responsible for managerial oversigh t of the
   HVS RM PrO!l.Tllln in thei r respective offices. To date. IN has completed p~sentations in si x
   divisions willl the remaining divisions to be t onduc ted in fistal year 20 t 0.

   Based on the response to this rC(:ommendation. DEA ~quests closu re.

Retolllmendation 4. Implement a plan to ensure aU OEA staff who s upervises cash handling
activities recch'es periodic training on revi ew ing cash-seilure docum('nlation, ineluding DEA-
6. Repurts of In\'estigatioD, 10 ensure th('y include the idendty of the law enforcement
personnel prese nt from the acquisition tn the disposal of the seized cash.

   OM ,mil TR will develop an in~tructi{)nal video on the proper procedures on internal controls for
   hilUdlill!;; 3nd doc umenting seizcd cash and high value exhibits. The instructional video will
   include ;nstmcliOTTs on how to properly com plete the vario us rorms in volved in
   processing/h and ling of selled cash and high va lue exhihits. It will also include instructions for




                                              149
 R3)mond J. !3eaudel, Assistant Inspector General for Audit                                        Page 4

    supervisory personnel on the imporlance o r<:ondu<:ting timely and acclIT3te rt:view of rcpol1S
    submil1cd by investigative personnel involved in the scii'ure and processing of sei7.cd cash and
    high \'alue ex hibits.

    The instructional video will become yearly mandatory refresher training for al! ev idcnce
    custodians, ficld age nts. task force officers, diversion invest igators. and supervisors. To ensure
    that all DEA investisalive personne l and their r.:spective supervisors/managers receive thi s
    training, the instructional video will become part ofthc DF.ALS. DEALS will continue to alert
    the inn:stigative personnel and their supervisors/managers un til the video is viewed.

Recommendation 5. Design and illlpi t ment a perman ent system to monilUr and imp ro\'c
co mpli pncc with each of Ihe confrols we tt'Sted.

   DRA conCUT5 with this recommendation. IN is responsible for DBA's On-Si te Inspection
   I'rogram which is used to assist managers to identifY areas with deficiencies and significant
   accomplis hments. The inspection process is DEA 's system to monitor and improve the
   operations of DEA. Currently. rN has dralled a revised checkli st for th e II VSRM Program to
   incorporate several ufthe internal con trols used by OIG in lhis review, The reviSl..'<i checklist is
   cUIT<:nl ly being tested durin g an on·site inspection of a DEA divis ion. Once the inspection is
   completed. the results will bc evaluated to dctcnninc whether any changes are necessary in tile
   dral1 HVSRM Program checklist. When completed, OEA will forward OrG a copy of the
   revised chec klist.

    Docu1llentation detailing DEA '5 dfons to implement the recommendations w ilt be provided to
lhe OIG on a quanerly baSIS. until such time thai lit corrective actiuns have been completL"ti. If you
have any questions regarding DEA's response to the OIG' s recoliullendations. pkilse contact the
Audi t Liaison Team at (202) 307-8200.




                                             150
                                                             Appendix 17

                  Office of the Inspector General
                 Analysis and Summary of Actions
                  Necessary to Close the Report


      The OIG provided a draft of this audit report to the DEA. The DEA’s
response is incorporated in Appendix 16 of this final report. The following
provides the OIG’s analysis of the response and summary of actions
necessary to close the report.

Recommendation Number:

1.   Resolved. The DEA concurred with our recommendation to implement
     a policy that defines how quickly supervisors should review case file
     documentation pertaining to cash seizures after preparation by an agent
     to ensure the documentation is complete and accurate.

     Although the DEA agreed with our recommendation, it stated that
     current policies require investigators to complete reports within
     5 working days and supervisors to review those reports for accuracy and
     adequacy within a specific timeframe. The DEA stated that those
     policies were revised in July 2008 and are contained in the following
     Agents Manual Sections: 6211.2, Submission of Reports;
     6211.3, Supervisory Review; and 6213.21, Immediate Supervisor.
     Based on these policies, the DEA requested that we close this
     recommendation. We disagree with the DEA’s assessment that these
     policies address our recommendation.

     Sections 6211.2 and 6213.3 of the Agents Manual state that agents
     must generally complete investigative reports within 5 working days and
     supervisors should review those reports for accuracy, adequacy, and
     proper reporting procedures. However, these policies do not define a
     timeframe for supervisors to review the reports.

     Section 6213.21 of the Agents Manual states that supervisors should
     review each active investigation at 90-day intervals to determine
     whether there is sufficient evidence to continue the case or whether the
     case should be closed. However, this policy does not address the
     completeness and accuracy of the investigative reports or case files.

                                     151
     Further, the 90-day reviews the DEA conducted in accordance with this
     policy did not identify the errors and omissions in the cash seizure
     documentation that we found during our audit.

     Because the DEA agreed with the recommendation but does not have a
     policy defining a timeframe for supervisory review of case files for
     completeness and accuracy, the status of this recommendation is
     resolved but not closed. This recommendation can be closed when the
     DEA provides documents to us demonstrating that it has implemented a
     policy that defines a timeframe for supervisors to review the cash
     seizure documentation for completeness and accuracy.

2.   Resolved. The DEA concurred with our recommendation to implement
     a plan to ensure agents receive periodic training on internal controls for
     handling seized cash and preparing cash seizure documents, including
     instruction on preparing complete and accurate DEA-6, Reports of
     Investigation, and maintaining copies of all cash seizure documentation
     in the case files.

     The DEA provided its plan to develop an instructional video with detailed
     procedures for handling seized cash and documenting cash seizures
     activities. The instructional video will provide viewers with training on:
     (1) completing various cash seizure documents and ledgers,
     (2) requirements for having a witness present at various phases of the
     cash seizure and handling process, (3) policies for counting seized cash,
     (4) providing receipts when acquiring and transferring custody of seized
     cash, (5) timely transporting seized cash to banks, and (6) transferring
     seized funds to the United States Marshals Service. The DEA’s
     corrective action plan stated that this instructional video will become an
     annual training requirement for all investigative personnel and
     supervisors. The DEA also provided details for its plans to electronically
     notify all personnel about the required training, to require that all
     personnel acknowledge that they had taken the training, and to
     maintain employee training records through the DEA Learning System
     (DEALS).

     This recommendation can be closed when we receive documentation
     showing the DEA has developed the training video, the video has been
     incorporated into DEALS, and that investigative and supervisory staff
     have met these annual training requirements.

3.   Resolved. The DEA concurred with our recommendation to ensure that
     all evidence custodians attend DEA’s mandatory training program.
                                      152
     The DEA stated that it had implemented a comprehensive training
     program for evidence custodians in 2005 and that evidence custodians
     were receiving the training. The DEA stated it had revised various
     sections of the DEA Agents Manual, and conducted 29 training classes
     for evidence custodians. The DEA also stated that in July 2009 it began
     making presentations to evidence custodians and supervisors that
     highlighted problems the DEA has had in handling seized cash. The DEA
     has conducted these presentations in 6 DEA divisions and plans to
     complete the presentations at the remaining DEA Divisions in 2010.
     Based on these completed and planned corrective actions, the DEA
     requested that this recommendation be closed. As explained in the
     following paragraph, we disagree with the DEA’s assessment that these
     actions are sufficient to close the recommendation.

     In our 2007 audit, we recommended the DEA ensure all evidence
     custodians receive appropriate training. For that recommendation, the
     DEA implemented a written policy requiring that supervisors ensure all
     evidence custodians attend DEA training. Based on the written policy,
     we closed our 2007 audit recommendation. However, during the
     current audit we found that only 56 percent of the evidence custodians
     we interviewed had attended DEA’s “mandatory” training. Although this
     audit found that the DEA has improved at following its controls for
     handling seized cash, we concluded that the DEA can make further
     improvements by ensuring that all current and future evidence
     custodians are properly trained.

     This recommendation can be closed when we receive documentation
     showing all current evidence custodians have completed the mandatory
     training and a process is implemented to ensure all future evidence
     custodians attend the training.

4.   Resolved. The DEA concurred with our recommendation to implement
     a plan to ensure all DEA staff who supervise cash handling activities
     receive periodic training on reviewing cash seizure documentation,
     including DEA-6 Reports of Investigation, to ensure they include the
     identity of the law enforcement personnel present from the acquisition
     to the disposal of the seized cash.

     The DEA stated that it will develop an instructional video for
     investigative staff and supervisors on how to complete various forms
     related to the handling and processing of seized cash. The video will
     also stress the importance of conducting timely supervisory reviews of

                                     153
     reports submitted by investigative staff to ensure they are complete and
     accurate. The DEA stated that the video will be an annual training
     requirement for evidence custodians, agents, task force officers, and
     supervisors. To implement its corrective action plan, the DEA will use
     an electronic database to automatically notify staff and supervisors until
     the training has been completed.

     This recommendation can be closed when we receive documentation
     showing the DEA has developed the training video and evidence that
     custodians, agents, task force officers, and supervisors have met these
     annual training requirements.

5.   Resolved. The DEA concurred with our recommendation to design and
     implement a permanent system to monitor and improve compliance
     with each of the controls we tested.

     The DEA stated it has drafted a revised checklist that its Office of
     Inspections will use to review the seized monies program. The revised
     checklist includes controls we reviewed during the current audit, and the
     DEA is now testing the checklist during an inspection of a DEA division.
     After the inspection has been completed, the DEA will make any
     necessary changes to the checklist and forward a copy to the OIG.

     We agree with the DEA’s corrective action plan to have its Office of
     Inspections use a checklist to review compliance with the controls we
     tested during our audit. However, the Office of Inspections routinely
     reviews each DEA division only once every 3 years. We understand that
     the DEA also has a self-inspection program under which each division
     periodically reviews its own cash seizures. We believe that the revised
     checklist should also be included as part of the self-inspection system.

     This recommendation can be closed when we receive a copy of the
     revised inspection checklist, the plan for completing the inspections over
     the next 3 fiscal years, and the DEA’s decision as to whether the revised
     checklist should be made a component of the self-inspection system.




                                     154
